<html>
<title> - OVERSIGHT HEARING ON IMPROVING AND EXPANDING INFRASTRUCTURE IN TRIBAL AND INSULAR COMMUNITIES</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


     IMPROVING AND EXPANDING INFRASTRUCTURE IN TRIBAL AND INSULAR 
                              COMMUNITIES

=======================================================================

                           OVERSIGHT HEARING

                               	BEFORE THE

                  SUBCOMMITTEE ON INDIAN, INSULAR AND
                         ALASKA NATIVE AFFAIRS
                         
                                  OF THE

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                        Thursday, March 9, 2017

                               __________

                            Serial No. 115-1

                               __________

       Printed for the use of the Committee on Natural Resources
       
     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
       


         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
          
                               __________
	                                 
	  
	             U.S. GOVERNMENT PUBLISHING OFFICE                    
24-578 PDF                  WASHINGTON : 2017    
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e384938ca3809690978b868f93cd808c8ecd">[email&#160;protected]</a> 
            


                     COMMITTEE ON NATURAL RESOURCES

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Grace F. Napolitano, CA
  Chairman Emeritus                  Madeleine Z. Bordallo, GU
Louie Gohmert, TX                    Jim Costa, CA
  Vice Chairman                      Gregorio Kilili Camacho Sablan, 
Doug Lamborn, CO                         CNMI
Robert J. Wittman, VA                Niki Tsongas, MA
Tom McClintock, CA                   Jared Huffman, CA
Stevan Pearce, NM                      Vice Ranking Member
Glenn Thompson, PA                   Alan S. Lowenthal, CA
Paul A. Gosar, AZ                    Donald S. Beyer, Jr., VA
Raul R. Labrador, ID                 Norma J. Torres, CA
Scott R. Tipton, CO                  Ruben Gallego, AZ
Doug LaMalfa, CA                     Colleen Hanabusa, HI
Jeff Denham, CA                      Nanette Diaz Barragan, CA
Paul Cook, CA                        Darren Soto, FL
Bruce Westerman, AR                  Jimmy Panetta, CA
Garret Graves, LA                    A. Donald McEachin, VA
Jody B. Hice, GA                     Anthony G. Brown, MD
Aumua Amata Coleman Radewagen, AS    Wm. Lacy Clay, MO
Darin LaHood, IL
Daniel Webster, FL
David Rouzer, NC
Jack Bergman, MI
Liz Cheney, WY
Mike Johnson, LA
Jenniffer Gonzalez-Colon, PR

                       Jason Knox, Chief of Staff
                      Lisa Pittman, Chief Counsel
                David Watkins, Democratic Staff Director
                                 ------                                

       SUBCOMMITTEE ON INDIAN, INSULAR AND ALASKA NATIVE AFFAIRS

                       DOUG LaMALFA, CA, Chairman
             NORMA J. TORRES, CA, Ranking Democratic Member

Don Young, AK                        Madeleine Z. Bordallo, GU
Jeff Denham, CA                      Gregorio Kilili Camacho Sablan, 
Paul Cook, CA                            CNMI
Aumua Amata Coleman Radewagen, AS    Ruben Gallego, AZ
Darin LaHood, IL                     Darren Soto, FL
Jack Bergman, MI                     Colleen Hanabusa, HI
Jenniffer Gonzalez-Colon, PR         Raul M. Grijalva, AZ, ex officio
  Vice Chairman
Rob Bishop, UT, ex officio

                              -----------                                
                                
                                CONTENTS

                              -----------                              
                                                                   Page

Hearing held on Thursday, March 9, 2017..........................     1

Statement of Members:

    LaMalfa, Hon. Doug, a Representative in Congress from the 
      State of California........................................     1
        Prepared statement of....................................     2
    Torres, Hon. Norma J., a Representative in Congress from the 
      State of California........................................     3
        Prepared statement of....................................     4

Statement of Witnesses:

    Honanie, Herman G., Chairman, Hopi Tribe, Kykotsmovi, Arizona     6
        Prepared statement of....................................     7
    Joseph, Andrew Jr., Chairman, Northwest Portland Area Indian 
      Health Board; Member, Colville Business Council, Nespelem, 
      Washington.................................................    16
        Prepared statement of....................................    17
        Supplemental testimony submitted for the record..........    19
    Kitcheyan, Victoria, Great Plains Area Representative, 
      National Indian Health Board, Washington, DC...............    20
        Prepared statement of....................................    22
    Payment, Aaron, Secretary, National Congress of American 
      Indians, Washington, DC....................................    29
        Prepared statement of....................................    31
    Pula, Nikolao, Acting Assistant Secretary, Office of Insular 
      Affairs, U.S. Department of the Interior, Washington, DC...    43
        Prepared statement of....................................    44
        Questions submitted for the record.......................    46
    Teuber, Andy, Board Chair and President, Alaska Native Tribal 
      Health Consortium, Anchorage, Alaska.......................    38
        Prepared statement of....................................    40

Additional Materials Submitted for the Record:

    Torres, Ralph Deleon Guerrero, Governor of the Commonwealth 
      of the Northern Mariana Islands, prepared statement of.....    67



 
 OVERSIGHT HEARING ON IMPROVING AND EXPANDING INFRASTRUCTURE IN TRIBAL 
                        AND INSULAR COMMUNITIES

                              ----------                              


                        Thursday, March 9, 2017

                     U.S. House of Representatives

       Subcommittee on Indian, Insular and Alaska Native Affairs

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10:03 a.m., in 
room 1324, Longworth House Office Building, Hon. Doug LaMalfa 
[Chairman of the Subcommittee] presiding.
    Present: Representatives LaMalfa, Young, Radewagen, 
Bergman, Colon, Bishop; Torres, Bordallo, Sablan, and Soto.
    Also present: Representative Westerman.
    Mr. LaMalfa. Good morning. The Subcommittee on Indian, 
Insular, and Alaska Native Affairs will come to order. Welcome, 
everyone.
    The Subcommittee is meeting today to hear testimony on the 
hearing titled, ``Improving and Expanding Infrastructure in 
Tribal and Insular Communities.'' Under Committee Rule 4(f), 
any oral opening statements at hearings are limited to the 
Chairman, our gracious Ranking Minority Member, the Vice Chair, 
and the Vice Ranking Member. This will allow us to hear from 
our witnesses sooner, and help Members keep to their schedules.
    Therefore, I ask unanimous consent that all other Members' 
opening statements be made part of the hearing record if they 
are submitted to the Committee Clerk by 5:00 p.m. today, or the 
close of the hearing, whichever should come first.
    Hearing no objection, so ordered.
    All right, opening statements. Recognizing myself, first.

    STATEMENT OF THE HON. DOUG LaMALFA, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. LaMalfa. As we know, infrastructure plays an extremely 
important role in providing the basic services to people, no 
matter where they live. Quality infrastructure boosts economic 
development, creates jobs, and quality of life increases. 
Nowhere is this more important than tribal and insular 
communities.
    There is, however, a great need in tribal communities, 
especially with tribal healthcare infrastructure. Established 
in 1955, the Indian Health Service (IHS) provides health care 
for approximately 2.2 million American Indian and Alaska Native 
community members. Today, there are approximately 650 IHS and 
tribal health facilities throughout the Nation. IHS facilities 
offer a range of care, including primary care services, 
pharmacy, laboratory services, only to name a few.
    In recent years, several reports to Congress have 
highlighted the state of many health facilities to fall into 
dire conditions. Most facility capacity is about 52 percent of 
need. This creates crowded and unsafe conditions which affect 
the delivery of health care.
    In 2016, the average age of IHS hospitals was estimated to 
be about 40 years old. The average age of hospitals throughout 
the United States is said to be about 10 years.
    This information is not unfamiliar to those in Indian 
Country. Both the Centers for Medicare and Medicaid Services 
and the HHS Office of the Inspector General have found that 
aging facilities are direct threats to patient care. Again, 
this is not something new to Indian Country; this problem has 
existed for decades.
    Beginning in the 1990s, early 1990s, as directed by 
Congress years prior, the Indian Health Service developed a 
Health Care Facilities Construction Priority List. Nearly 30 
years later, IHS is still working through that priority list. 
At the current appropriation levels for facility construction, 
if a new facility were built today, it would not be replaced 
for another 400 years.
    Infrastructure needs in Indian Country do stretch beyond 
health care. I also look forward to discussing these, too, and 
creative ways to address all infrastructure needs in Indian 
Country.
    Today we will also be hearing from the Acting Assistant 
Secretary of the Office of Insular Affairs on the Capital 
Improvement Project (CIP) grant program. The CIP grant program 
is the largest resource offered to the territories by the 
Office of Indian Affairs (OIA), and provides upwards of $27.7 
million annually for vital infrastructure projects in some of 
the country's most remote locations in the Pacific and the 
Caribbean.
    [The prepared statement of Mr. LaMalfa follows:]
Prepared Statement of the Hon. Doug LaMalfa, Chairman, Subcommittee on 
               Indian, Insular and Alaska Native Affairs
    Infrastructure plays an extremely important role in providing basic 
services to people no matter where they live.
    Quality infrastructure boosts economic development, creates jobs, 
and quality of life increases. Nowhere is this more important than 
tribal and insular communities.
    There is, however, a great need in tribal communities, especially 
with tribal healthcare infrastructure.
    Established in 1955, the Indian Health Service provides healthcare 
for the approximate 2.2 million American Indian and Alaska Native 
communities. Today, there are approximately 650 IHS and tribal health 
facilities throughout the country.
    IHS facilities offer a range of care, including primary care 
services, pharmacy, and laboratory services, only to name a few.
    In recent years, several reports to Congress have highlighted the 
state of many health facilities to fall into dire conditions. Most 
facility capacity is 52 percent of the need.
    This creates crowded, unsafe conditions which affect the delivery 
of care.
    In 2016, the average age of IHS hospitals was estimated to be 40 
years old. The average age of most hospitals throughout the United 
States is only 10 years.
    This information is not unfamiliar to those in Indian Country. Both 
the Centers for Medicare and Medicaid Services and the HHS Office of 
the Inspector General have found that aging facilities are direct 
threats to patient care.
    Again, this is not something new to Indian Country. This problem 
has existed for decades.
    Beginning in the early 1990s, as directed by Congress years prior, 
the Indian Health Service developed a Healthcare Facility Construction 
Priority List.
    Nearly 30 years later, the IHS is still working through that 
priority list. At the current appropriation levels for facility 
construction, if a new facility were built today, it would not be 
replaced for another 400 years.
    Infrastructure needs in Indian Country do stretch beyond 
healthcare, and I also look forward to discussing those too and 
creative ways to address all infrastructure needs in Indian Country.
    Today we'll also be hearing from the Acting Assistant Secretary of 
the Office of Insular Affairs on the Capital Improvement Project grant 
program.
    The CIP grant program is the largest resource offered to the 
territories by OIA and provides upwards of $27.7 million annually for 
vital infrastructure projects in some of the country's most remote 
locations in the Pacific and the Caribbean.

                                 ______
                                 

    Mr. LaMalfa. At this point I would like to recognize our 
Ranking Minority Member, Mrs. Torres, for any opening 
statement.

  STATEMENT OF THE HON. NORMA J. TORRES, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mrs. Torres. Good morning, and thank you, Mr. Chairman. 
First, let me say I am honored to have the opportunity to serve 
as Ranking Member of this Subcommittee for the 115th Congress. 
I am also pleased to serve alongside you, Mr. Chairman. We had 
the opportunity to work together in the State Assembly, and I 
am really looking forward to continuing our work together in 
this Committee.
    Indian Country continues to face significant disparities in 
access to health care and education, as well as few 
opportunities for job growth and economic development. Mr. 
Chairman, I look forward to working with you to find bipartisan 
solutions to these challenges.
    I also want to welcome our witnesses, especially the tribal 
leaders, who have traveled to be here with us this morning.
    Mr. Chairman, our Federal trust responsibility and 
obligations to tribes is laid out in many treaties, as well as 
hundreds of years of Federal legislation. We must do a better 
job of honoring our obligations. Investment in tribal 
infrastructure has not even remotely kept up with local needs--
a direct result of the lack of investment by Congress.
    Over the years, this lack of investment has drastically and 
disproportionately affected the health, well-being, and 
livelihoods of Native people. The Indian Health Service (IHS), 
faces substantial backlogs in the construction of healthcare 
facilities, and with the maintenance of existing facilities. 
The average age, as you stated, of IHS hospitals is now 40 
years, almost four times older than the average U.S. hospital. 
At the existing replacement rate, a new 2016 facility would not 
be replaced for 400 years, if we continue at this rate.
    While the focus of this hearing is IHS facilities, I would 
be remiss if we did not highlight other infrastructure 
shortfalls in Indian Country, because infrastructure is more 
than buildings, roads, and bridges. Over a half-million people 
in Native communities across the United States do not have 
access to reliable water sources, clean drinking water, or 
basic sanitation.
    Again, lack of investment by the Federal Government has 
resulted in a backlog of needed sanitation facilities, 
construction projects estimated to be $2.8 billion.
    Native Americans also live in some of the worst housing 
conditions in the country. Forty percent of on-reservation 
housing is considered substandard. The majority of BIA-run 
schools are in substandard condition, and estimates to replace 
or repair these facilities exceed $1.3 billion.
    Overall, it is estimated that there is $50 (five zero) 
billion in unmet infrastructure needs in Indian Country. It 
seems like a lot to hear, but it is not an insurmountable 
problem. It simply requires a commitment and focus from this 
Congress and this Administration to address the issue head on.
    Today, I look forward to hearing ideas on how we can 
streamline the process, especially to provide flexibility to 
tribes. But we must not use these ideas as an excuse to reduce 
our financial commitment to Indian Country. The solution is a 
renewed focus and increased investment in Indian Country 
infrastructure, combined with tribal self-determination and 
self-governance. But the longer we wait, the higher the price 
tag. We must seize this opportunity to revitalize Indian 
Country.
    I want to conclude by touching on one last underserved 
population: the U.S. Insular Areas, which have unique 
challenges to providing the infrastructure necessary for 
economic development. My colleagues from the territories will 
expand further on those challenges during their questioning. 
But first, let me state that any infrastructure bill considered 
this Congress must include a significant investment in the 
Insular Areas. And, going forward, any future authorizations or 
appropriations must prioritize the improvement and 
modernization of their infrastructure.
    Thank you again, Mr. Chairman, and I look forward to a 
productive discussion, and I yield back.
    [The prepared statement of Mrs. Torres follows:]
    Prepared Statement of the Hon. Norma J. Torres, Ranking Member, 
       Subcommittee on Indian, Insular and Alaska Native Affairs
    Thank you, Mr. Chairman.
    First, let me say, I'm honored to have the opportunity to serve as 
Ranking Member of this Subcommittee for the 115th Congress.
    I am pleased to serve alongside you, Mr. Chairman. We had the 
opportunity to work together a while back in the State Assembly and I 
hope we are able to have the same productive relationship here.
    Indian Country continues to face significant disparities in access 
to health care and education, as well as few opportunities for job 
growth and economic development.
    Mr. Chairman, I look forward to working with you to find bipartisan 
solutions to these challenges.
    I also want to welcome our witnesses, especially the tribal 
leaders, who have traveled to be here with us today.
    Mr. Chairman, our Federal trust responsibility and obligations to 
tribes is laid out in many treaties, as well as hundreds of years of 
Federal legislation. We must do a better job of honoring these 
obligations.
    Investment in tribal infrastructure has not even remotely kept up 
with local needs--a direct result of the lack of investment by 
Congress.
    Over the years, this lack of investment has drastically and 
disproportionally affected the health, well-being, and livelihood of 
Native peoples.
    The Indian Health Service (IHS) faces substantial backlogs in the 
construction of healthcare facilities, and with the maintenance of 
existing facilities.
    The average age of IHS hospitals is now 40 years, almost four times 
older than the average U.S. hospital. And at the existing replacement 
rate, a new 2016 facility would not be replaced for 400 years.
    While the focus of this hearing is IHS facilities, I would be 
remiss if we didn't highlight other infrastructure shortfalls in Indian 
Country, because infrastructure is more than buildings, roads and 
bridges.
    Over a half million people in Native communities across the United 
States do not have access to reliable water sources, clean drinking 
water, or basic sanitation.
    Again, lack of investment by the Federal Government has resulted in 
a backlog of needed sanitation facilities construction projects 
estimated to be $2.8 billion.
    Native Americans also live in some of the worst housing conditions 
in the country. Forty percent of on-reservation housing is considered 
substandard.
    A majority of BIA-run schools are in sub-standard condition, and 
estimates to replace or repair these facilities exceed $1.3 billion.
    Overall, it is estimated that there is $50 billion in unmet 
infrastructure needs in Indian Country.
    It seems like a lot to hear, but it is not an insurmountable 
problem--it simply requires a commitment from this Congress and this 
Administration to address the issue head on.
    Today, I look forward to hearing ideas on how we can streamline the 
process, especially to provide flexibility to tribes.
    But we must not use these ideas as an excuse to reduce our 
financial commitment to Indian Country.
    The solution is a renewed focus and increased investment in Indian 
Country infrastructure, combined with tribal self-determination and 
self-governance.
    But the longer we wait, the higher the price tag. We must seize 
this opportunity to revitalize Indian Country.
    I want to conclude by touching on one last underserved population--
the U.S. Insular Areas, which have unique challenges to providing the 
infrastructure necessary for economic development. My colleagues from 
the Territories will expand further on those challenges during their 
questioning, but first let me say that any infrastructure bill 
considered this Congress must include a significant investment in the 
Insular Areas. And going forward, any future authorizations or 
appropriations must prioritize the upkeep, improvement, and 
modernization of this infrastructure.
    Thank you, Mr. Chairman. I look forward to a productive discussion, 
and I yield back.

                                 ______
                                 

    Mr. LaMalfa. Thank you, Ranking Member Torres. Indeed, I 
look forward to working with you in the friendly way we have 
been able to, and I am very excited to be the Chairman of this 
Subcommittee. It is the first time I ever chaired anything, 
coming from California, as you know. So, I am looking forward 
to a great bipartisan discussion on these issues that will be 
coming up.
    Now we will introduce our witnesses here. Again, thank you 
for your travel. It is always something else, trying to get to 
Washington, DC, especially, as we know, from the West Coast--
but the rural areas of the country. So, thank you for your time 
and efforts to get here to be part of today's hearing.
    First we have the Honorable Herman G. Honanie, Chairman of 
the Hopi Tribe. Next, we have Mr. Andy Joseph, Jr., who is also 
chairman of the Northwest Portland Area Indian Health Board, 
and a member of the Colville Business Council; Ms. Victoria 
Kitcheyan, Great Plains Area Representative for the National 
Indian Health Board; the Honorable Aaron Payment, Secretary of 
the National Congress of American Indians; Mr. Andy Teuber, 
Board Chair and President of the Alaska Native Tribal Health 
Consortium; and Mr. Nikolao Pula, Acting Assistant Secretary 
for the Office of Insular Affairs.
    Welcome. Let me remind you that, under our Committee Rules, 
witnesses are to limit their oral statements to 5 minutes, but 
their entire written statement will appear in the hearing 
record. So, if it is beyond 5 minutes, know that we have it in 
the record.
    As a reminder, of course, when you begin, the lights on the 
witness microphone will turn green. After 4 minutes, the yellow 
light will come on. Your time expires when the red light comes 
on. So if you don't want to find out what is behind door number 
3, please finish up at that red light.
    And further, the microphones are not automatic. You need to 
press the talk button right in front of you before speaking 
into the microphone.
    With that said, we will let the entire panel make your 
presentation before questions will come from the Members up 
here. So, let's go ahead and start.
    I will recognize Chairman Honanie for his testimony.

     STATEMENT OF HERMAN G. HONANIE, CHAIRMAN, HOPI TRIBE, 
                      KYKOTSMOVI, ARIZONA

    Mr. Honanie. [Speaking native language.] Thank you very 
much. [Speaking native language] from the Hopi Tribe. [Speaking 
native language.]
    I want to express my appreciation on behalf of my Hopi 
people to be here this morning, and on behalf of my people from 
northeastern Arizona. I appreciate the time.
    Good morning Chairman LaMalfa, Ranking Member Torres, and 
honorable members of Subcommittee. It is a pleasure to be here 
today to testify on some of the infrastructure challenges 
facing the Hopi Tribe. My name is Herman Honanie and I have the 
privilege of serving as chairman of the Hopi Tribe. I am 
Pipwugwa tobacco clan from Kykotsmovi, which sits below 
Orazivi, the oldest continuously inhabited community in North 
America. Today this village has no modern infrastructure.
    The Hopi Reservation is located in northeastern Arizona and 
is the size of Rhode Island. Our reservation is unfairly 
landlocked by the Navajo Nation, which completely surrounds us. 
We have approximately 14,000 enrolled citizens across the 12 
villages. Our reservation is plagued by poverty and suffers 
from a 60 percent unemployment rate. Due to its remoteness, 
economic development on the reservation is incredibly 
difficult.
    Today, I will discuss three issues: arsenic contamination 
of the reservation's water supply, our lack of a detention 
facility, and a Navajo generating station.
    The Hopi Reservation's water supply is contaminated by 
arsenic. In the mid-1960s, the Federal Government designed and 
constructed our water well supply and wells. In 2001, the EPA 
decreased the allowable level of arsenic. Today, arsenic levels 
in Hopi are up to three times the maximum contaminant level 
allowed by the EPA.
    The Hopi Tribe, Indian Health Service, and EPA work 
together to develop a Hopi arsenic mitigation project. We 
concluded that treating the water is not practical, and the 
best solution is to find a new source of arsenic-free water. 
The project will pipe water to villages to the First and Second 
Mesa. The entire project is estimated to cost between $18 and 
$20 million. This is a shovel-ready project that is only 
awaiting the necessary capital to begin construction.
    The tribe is working on a Federal funding package, but time 
is of the essence. The tribe recently received notice of 
violation from EPA, due to the elevated arsenic levels. The 
reality is that every day we do not solve the problem is 
another day that Hopis are drinking water contaminated by 
arsenic.
    Another major concern is the BIA's closure of the tribe's 
detention facility, which caused me to declare an emergency on 
the reservation in December 2016. Originally built as a 
treatment center in 1981, it was never intended for 
incarceration. But over the past years, the BIA converted it 
into a detention facility. The building's condition began to 
deteriorate in the early 2000s.
    In February 2015, BIA informed the tribe that it would 
provide a new facility. However, in October 2016, before a new 
facility was obtained, the BIA condemned the detention facility 
and closed it. BIA did not consult with the tribe prior to the 
closure, nor did they inform the tribe of its actions. The BIA 
said that it would deliver a temporary facility by November 
2016, but to date none has been delivered.
    The lack of a detention facility has created a public 
safety situation on the reservation. Law enforcement is forced 
to book suspects from their squad cars, and await a transport 
to take the suspects to the detention facility more than 80 
miles off the reservation. This has put a substantial hardship 
and strain on our already limited law enforcement personnel. At 
any given time there may be only two officers on duty to patrol 
an area the size of Rhode Island.
    We also learned that officers are practicing cite-and-
release and de-prioritizing low-level crime because of the lack 
of resources. The tribe is concerned that low-level crimes will 
escalate into major crimes because of lack of deterrents.
    The BIA informed us last week that it has money to pay for 
a permanent structure, but it is awaiting construction funds 
from DOJ. The tribe cannot operate and continue to have the 
patience for a facility that is no longer there. We need the 
facility.
    The final issue I want to touch on is the Salt River 
Project, with the closure of SRP wanting to close the NGS 
station. This will be disastrous for the tribe, because 80 
percent of our revenue comes from the sale of coal. In light of 
this, the tribe is focusing on economic diversity.
    One area where this Subcommittee can assist the Hopi Tribe 
is by assisting us in fulfilling the Act of 1996, Hopi Land 
Dispute Act. This settlement will require 50,000 acres of land 
to replace lands illegally taken from us. So with this, on 
behalf of the Hopi Tribe, I humbly ask of this Committee to 
assist us in any way possible to achieve these goals, as far as 
the 1996 Land Settlement Act is concerned.
    Thank you very much for your attention.
    [The prepared statement of Mr. Honanie follows:]
 Prepared Statement of the Hon. Herman Honanie, Chairman, Hopi Tribe, 
                          Kykotsmovi, Arizona
    Good morning Chairman LaMalfa, Ranking Member Torres, and honorable 
members of the House Natural Resources Subcommittee on Indian, Insular, 
and Alaska Native Affairs. It is a pleasure to be here today to testify 
on improving and expanding critical infrastructure in Indian Country. 
My name is Herman Honanie and I have the privilege of serving as 
chairman of the Hopi Tribe. I am Pipwugwa (tobacco) clan from 
Kykotsmovi, which sits below Orazivi, the oldest continuously inhabited 
community in North America. Today the village has no modern 
infrastructure.
    The Hopi Tribe's ancestral lands span across northern Arizona and 
include the Grand Canyon. The Hopi people have resided in this area 
since time immemorial. The Hopi Reservation is located in the northeast 
corner of Arizona and is approximately 2.5 million square miles, which 
is about the same size as the state of Rhode Island. The Hopi Tribe has 
14,282 enrolled tribal citizens, over half of whom reside on the Hopi 
Reservation--this number does not include non-Indian and non-enrolled 
Indians living on the Hopi Reservation.
    The Hopi Reservation is plagued by poverty and suffers from a 60 
percent unemployment rate. Due to the remote nature of the Reservation 
economic development is incredibly difficult leaving the tribe to rely 
on only a few sources of income. This situation is exacerbated by the 
fact that the Hopi Reservation is completely landlocked and surrounded 
by the Navajo Reservation making it difficult to create off-reservation 
economic development opportunities. The Hopi Tribe does not have a 
casino facility and its only meaningful economic development 
opportunity on the Reservation is revenue generated by coal royalties.
    I would like to take this opportunity to cover several difficult 
situations that the Hopi Tribe is coping with when it comes to 
infrastructure development.
                i. landlocked nature of the reservation
    The Hopi Reservation is completely surrounded by the Navajo 
Reservation landlocking the tribe and forcing it to cross Navajo Nation 
lands to reach the outside world. When the Federal Government created 
the Navajo Reservation and encircled our reservation, it did not retain 
a utility corridor right-of-way for the Hopi Tribe. The Hopi Tribe has 
no natural access to the Western Area Power Grid, to cellular 911 
emergency call service, utility distribution and natural resources 
transportation corridors. This means that anytime the Hopi Tribe needs 
access to off-reservation services it must pay the Navajo Nation for a 
right-of-way across the Navajo Reservation to connect to fiber optic 
networks, the electrical grid, and other utilities. This significantly 
increases the cost for the Hopi Tribe for on-reservation economic 
development. The landlocked nature of the Hopi Reservation also makes 
it difficult to create off-reservation economic development because of 
the distances the tribal citizens must travel to embark on those 
enterprises.
     ii. implementation of the 1974 navajo and hopi relocation act
    With the enactment of the Navajo and Hopi Indian Relocation Act of 
1974 (the Relocation Act), referred to as Public Law 93-531, as amended 
by Public Law 96-305, the Office of Navajo and Hopi Indian Relocation 
(ONHIR) was created to facilitate the relocation of tribal members to 
their respective reservation land. One purpose of ONHIR was to ``insure 
that persons displaced are treated fairly, consistently and equitably 
so that these persons will not suffer the disproportionate, adverse, 
social, economic, cultural and other impacts of relocation.'' 25 CFR SS 
700.1.
    This has not held true for our Hopi relocatee families, who have 
not been treated fairly, consistently, or equitably, as witnessed by 
the U.S. House Appropriations Subcommittee leadership on their visit to 
the Hopi relocatee community of Yuh Weh Loo Pahki in January of 2015. 
These Hopi relocatees have consistently asked that funds be provided to 
meet the needs of the families for safe and sanitary housing, roads, 
infrastructure, and economic benefits as proscribed by the Relocation 
Act, but their pleas go ignored.
    For example, in the early 1990s a road feasibility study was 
conducted by ONHIR for 13 miles of upgraded roads near Yuh Weh Loo 
Pahki at a cost of $6.0 million dollars, but ONHIR later rejected the 
proposal, informing the tribe and families that it was not feasible to 
serve the Hopi relocatee families. Meanwhile, ONHIR has built entire 
communities (Coalmine Mesa, Pinon, Tuba City, etc) for Navajo 
relocatees on the Navajo Nation and New Lands-Sanders/Chambers with 
infrastructure, fire suppression, and paved roads, even a replacement 
of a bridge over the Rio Puerco River. The Hopi relocatees, especially 
the residents of Yu Weh Loo Paki, have requested assistance numerous 
times from the ONHIR for discretionary funds to improve their living 
conditions, make home repairs, and to provide for essential community 
needs. ONHIR has finally in the past 5 years provided a community 
building-modular trailer. This structure is insufficient to meet the 
long-term needs of the relocatee families. These measures are minimal 
and do not meet the intent of the Act. The Hopi relocatee families 
should be entitled to the same benefits allowed for Navajo relocatee 
families.
    A high school and medical center/hospital were also to be built 
under the Relocation Act. The Hopi Junior-Senior High School was 
finally built in 1986, but was scaled down due to increased costs. The 
Hopi Health Care Center was built in 1996, but only as an ambulatory 
care center with less than 16 beds for patients. The Hopi Tribe had to 
lobby and submit funding requests to build these facilities, while on 
Navajo--specifically New Lands--schools and a hospital with complete, 
modern infrastructure were built using ONHIR funds. Without proper 
funding for the Hopi Health Care center, Hopi tribal citizens still 
have to be flown out to off-reservation hospitals for care on a regular 
basis, including in emergency. It is apparent that the Hopi Tribe has 
received far less and has given up the most under the Act.
iii. implementation of the 1996 navajo-hopi land dispute settlement act
    The Navajo-Hopi Land Dispute Settlement Act (Settlement Act) was 
enacted in 1996. See Pub. L. 104-301. The Settlement Act was a 
successor to the Relocation Act and was meant to provide the Hopi Tribe 
with appropriate compensation for Navajo families illegally residing on 
and occupying Hopi Partitioned Land. The U.S. Government interceded to 
find a mutually acceptable settlement. It is important to note that the 
only parties to the settlement were the Hopi Tribe and the Federal 
Government; not the state of Arizona or the Navajo Nation.
    The Settlement Act sought to allow Navajo families to remain on 
Hopi land subject to a 75-year lease agreement. In exchange for these 
leases and the loss of lands the Hopi Tribe was promised replacement 
lands. Since the Navajo Reservation completely surrounds the Hopi 
Reservation, these replacement lands would need to be located outside 
of the existing reservation.
    The Settlement Act provides the Tribe with the ability to regain 
lands and have them placed into Federal trust status; this includes 
interspersed Arizona State trust lands. Id. Sec. 6. In order to obtain 
Arizona State trust land the Settlement Act requires the State to 
concur that the acquisition is in the interest of the State and the 
Tribe must pay the State the fair market value of the land. Id.
    The Settlement Act states that ``it is in the best interest of the 
Tribe and the United States that there be a fair and final settlement 
of certain issues remaining in connection with the Navajo-Hopi Land 
Settlement Act of 1974, including the full and final settlement of the 
multiple claims that the Tribe has against the United States.'' Id. 
Sec. 2 (2). However, it has been over 20 years and the Hopi Tribe does 
not have its fair and final settlement because the state of Arizona 
refuses to initiate condemnation proceedings to allow the Tribe to 
obtain the 144,000 acres of interspersed State trust land. The State 
and the Tribe have been in negotiations but to no avail and those talks 
have often stalled or been delayed over the years. The Tribe is eager 
to have its full and final settlement but it needs engagement from the 
State.
    The United States has a duty to provide the Tribe the ``full and 
final settlement'' it promised under the terms of the 1996 Settlement 
Act. The severe delay in implementing the Settlement Act sets a bad 
precedent and could serve to cool settlement negotiations between the 
United States and other tribal nations.
    It also prevents the Tribe from engaging in meaningful economic 
development off-reservation. The land has increased in value over the 
interceding 20 years making the eventual purchase of it from the state 
of Arizona even more expensive. Meanwhile, the Hopi Tribe is paying the 
State for grazing rights on the State trust land. This situation is 
untenable and the United States must live up to its obligations under 
the Settlement Act and its trust responsibility to the Hopi Tribe.
                  iv. hopi arsenic mitigation project
    The Hopi Tribe's water infrastructure was funded and engineered by 
the Federal Government. In 2001, the Environmental Protection Agency 
(``EPA'') revised its drinking water regulations and decreased the 
allowable level of arsenic in drinking water. In 2006, EPA funded a 
study to assist the Tribe in evaluating existing conditions for public 
water systems in the First and Second Mesa areas that were known to 
exceed the maximum contaminant level (MCL) for arsenic and recommend 
viable engineering solutions to ensure regulatory compliance. Beginning 
in 2008, the Hopi Water Resources Program began working with the Indian 
Health Service (``IHS'') and EPA to complete an arsenic mitigation 
study. As a baseline, the following data was collected at local well 
sites to quantify the water quality issues relating to arsenic and 
begin the process of seeking sustainable solutions.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


    .epsAs indicated in the table above, all wells serving the First 
and Second Mesa region exceed the MCL for arsenic which is set at 10 
parts per billion (ppb). Generally, the arsenic concentrations in 
Second Mesa range from 15-20 ppb and increase as one moves eastward 
toward First Mesa where Keams Canyon wells register the highest arsenic 
concentration in the region at 38 ppb. The exception to this trend 
occurs at the newly drilled Shungopavi well which was sampled after 
drilling and was shown to have an arsenic concentration of 33 ppb. Also 
noted was the unusually high pH of the tested waters coupled with high 
alkalinity and the absence of hardness (calcium and magnesium). This 
odd combination of water quality attributes makes the water of this 
region very difficult and potentially expensive to treat for arsenic 
removal. All of the treatment techniques evaluated (adsorption, 
coagulation filtration (CF), reverse osmosis, ion exchange) to remove 
arsenic from the regions' groundwater will require pH adjustment which 
will prove difficult and costly given the high buffering capacity 
indicated by the high alkalinity. Also noted, was the likelihood that 
water in the First Mesa area would require preconditioning through a 
process known as oxidation to convert the naturally occurring arsenic 
into a form that has a higher affinity for removal.

    These, among other complicating factors led the arsenic mitigation 
team to advise against water treatment options if a non-treatment 
solution could be identified. Based on the stated observations, high 
anticipated operating cost of treatment facilities, the operational 
difficulties experienced by existing local treatment systems and lack 
of financial resources, the team looked elsewhere to identify a higher 
quality water source that could be developed to serve the region.

    After reviewing Hopi area wells, research identified a region 15 
miles north of the Hopi Cultural Center referred to as ``Turquoise 
Trail/Tawa'ovi'' which, according to a report completed by Thompson 
Pollari and the WLB Group in 2005, has an existing well with superior 
water yield potential and an arsenic concentration of 3-4 ppb. The 
report contains pump test data and water quality information for the 
Navajo Aquifer in the Turquoise Trail region that suggests favorable 
conditions that may support development of this area as a primary water 
source for the villages that are currently out of compliance with 
Federal regulations related to arsenic. Alternate locations were 
evaluated for well field development near the Hopi Veteran's Center 
(HVC) near Kykotsmovi. Although the existing wells in the HVC area 
demonstrate compliant arsenic concentrations of 7 ppb, they do not 
yield anywhere near the quantity of water that is obtainable in the 
Turquoise Trail region.
    Below is a table generated using data presented by TetraTech EM Inc 
in a Hopi Source Water Assessment conducted from 2005 to 2006. The 
table offers a summary of water usage statistics organized by each of 
the public water systems that are out of compliance with the arsenic 
rules.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


    .epsAs indicated above, the minimum required yield needed to serve 
the identified users is 208,200 gallons per day or a continuous 
equivalent pumping rate of 289.2 gallons per minute based on a 12-hour 
day. It is anticipated, based on the previously discussed existing well 
data, that the Turquoise Trail region is capable of supporting wells 
that can produce as much as 500 GPM+. As reported in the Thompson 
Pollari-WLB Group report, the existing well (Tawa'ovi/Turquoise) was 
pump tested at 345 GPM for 21 hours with a corresponding drawdown of 
125 feet. The static water level was 521 ft bgs prior to pumping and 
the terminal dynamic water level was measured at 646 ft bgs at the end 
of the test. The pump was set at 1,700 ft bgs so at the end of the pump 
test there was still a water column of 1,054 ft over the pump. This is 
emphasized to demonstrate that the final pumping rate of 345 gpm was 
likely a limitation of the test pump and not necessarily reflective of 
the true yield potential of the well/aquifer.
    After assessing the water needs of the area and reviewing the 
Turquoise Trail well data, the Hopi Water Resources Department, IHS and 
EPA collaboratively developed the Hopi Arsenic Mitigation Project 
concept. This concept proposes to develop a new well field in the 
vicinity of the existing Turquoise Trail well to take advantage of the 
higher quality water which appears to be available in sufficient 
quantity to serve the First and Second Mesa villages. The water would 
be delivered to each of the communities by a large piped network that 
would be constructed over the course of several construction phases. 
The concept-level cost estimate to design and construct the proposed 
water system is between $20 to $25 million. It is anticipated that the 
cost estimate will vary as the concept is further developed through the 
collection of design data during the ongoing planning process. During 
the past 5 years, the EPA and IHS have committed grant funding to 
further explore and develop the arsenic mitigation concept.
HAMP Proposed Wellfield and Piping Route
    Over the course of the years, several informational meetings 
pertaining to the arsenic mitigation concept have been held with 
various stakeholders including community members, community leaders, 
utility operators, Federal water system regulators and Federal funding 
agencies. At each of the individual gatherings there has been 
overwhelming support for the project as the meeting participants 
acknowledge that this is a project devised to improve the health of the 
served communities. On the other hand it has been difficult to assemble 
multi-community meetings which will be critical as the arsenic 
mitigation team solicits comments from the affected communities to 
determine how best to operate and maintain a shared water system. This 
project is substantially larger in scope and cost than ordinary 
sanitation projects in the area. The Tribe has been informed that in 
order to qualify for Federal grants for this project it must have a 
defined plan detailing how the system would be operated and maintained.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


    .epsThe Hopi Arsenic Mitigation Project (HAMP) will pump water from 
the Turquoise wellfield located approximately 15 miles north of Second 
Mesa and pipe it to the Hopi villages at First and Second Mesas and to 
the Keams Canyon Water System and the water systems for Hopi Junior-
Senior High School and Second Mesa Day School. HAMP will provide water 
that complies with the Safe Drinking Water Act and will replace the use 
of low-producing, high arsenic wells in the vicinity of First and 
Second Mesa and Keams Canyon. The new water supply will allow the 
villages at First and Second Mesa to come into compliance with Safe 
Drinking Water Act standards and will provide a permanent alternative 
water supply to Bureau of Indian Affairs and Bureau of Indian Education 
facilities that does not require the interim use of expensive and 
difficult to maintain arsenic removal technology.
    At this point, several million Federal dollars have been invested 
into the project, and various impacted agencies remain fully supportive 
of the project and reaching operation of the new wells. Through 
discussion with Tribal Council, the Tribe is now considering next steps 
and how to proceed with this project. An outline of remaining action 
items and options follows:
A. Project Summary
    In January 2014, the Tribe provided a briefing to the Department of 
the Interior. The summary included highlights of the project, which 
heavily featured the creation of the Hopi Tribe's Public Utility 
Authority. The new Utility Authority is responsible for setting water 
rates and addressing other regulatory requirements for HAMP.
    The largest funding for this project will come from the USDA-RD 
application. Several other Federal agencies have invested millions of 
dollars into this project and continue to support the effort, they are 
of the understanding that the newly created utility will run HAMP.
    This need is urgent in light of EPA planning to bring an 
enforcement action against the Tribe and/or village(s) out of 
compliance, potentially this year.
i. Action items left for the Utility Authority

    <bullet> Staffing and setting up the utility accounting operation; 
initially the Hopi Public Utility Authority will oversee completion of 
the HAMP planning followed by management of HAMP construction

    <bullet> Tribal Council agreed to contribute $350,000 to get the 
Public Utility Authority and Utility Commission up and running

    <bullet> Both agencies need to sign the Indian Affairs and Hopi 
Tribe MOA to get the work done that was proposed by IHS in their 
Planning Agreement--the Planning Agreement will then develop the 
information to allow the BIA/BIE connections to be part of HAMP and the 
USDA-RD Application
ii. USDA-RD Application

    <bullet> A significant amount of work has been done on this 
application, which will ultimately secure $13-16M for HAMP
iii. IHS Preliminary Engineering Report

    <bullet> The expected USDA loan amount is $1,978,500, after a total 
of $2.25 million in up-front cash and grant contributions from the 
Tribe

    <bullet> Estimated user costs for the HAMP are expected to be a 
$35/month plus $2.55 per 1,000 gallons of water used per month--total 
costs per home is $49.82/month, plus local delivery costs

    <bullet> This is made with the understanding that these stets 
remain:

    -- Submission of the USDA funding application

    -- Formalization of agreements between Tribe and the villages

    -- Staffing the new Hopi Public Utility Authority

    --  Acquiring full construction funding and awarding a construction 
            contract, construction of project

    -- Transfer of the new facilities to the HPUA
B. The BIA's Relationship to the HAMP

    <bullet> The BIA wishes to partner with HAMP to be included on a 
construction line

    <bullet> The Tribe and the Department of the Interior (DOI) 
initiated a potential HAMP related partnership, which would provide a 
source of revenue to tribe via user fees

    <bullet> A draft MOA was being reviewing by IHS counsel but no 
progress has been made since

    <bullet> The Preliminary Engineering Report will need to be amended 
if BIA/BIE and Tribe enter into agreement

    The HAMP is absolutely essential to the health and safety of Hopi 
tribal citizens. The Tribe is greatly appreciative of its Federal 
partners in this project.
                       v. hopi detention facility
    The Hopi Tribe has been in need of a detention facility for several 
decades. The detention facility that was initially established on the 
Hopi Reservation in 1981 was not intended for incarceration. The 
existing adult detention facility in First Mesa was originally built as 
a treatment facility. Over the years the building was converted and 
used as an adult detention facility. With the security requirements and 
special operation needs, the building did not meet the standards for a 
secure and safe detention facility.
    In 2005, Hopi Tribal Council authorized Tribal Resolution H-042-
2005, which established the Hopi Detention Facility Steering Committee 
and directed the committee to pursue the planning, design and 
construction of a new Hopi Detention Facility on the Hopi Reservation. 
The committee was tasked with the responsibility of searching for funds 
to build a permanent facility. The Tribe allocated $1 million to the 
committee to fulfill this project. The committee was able to develop 
plans for a permanent facility; however the Tribe was unable to secure 
funding to build a facility. At the same time, similarly to the 
Relocation issues raised above, the Federal Government built a new 
detention facility for the Navajo Nation in Tuba City. That facility is 
now approximately half empty while the Hopi Tribe does not have any 
detention facility at all. In 2016, by Tribal Council resolution, the 
committee was disbanded because Tribal Council did not see any progress 
being made.
    The committee was a direct result of actions taken by the Office of 
Inspector General in 2004. In 2004, the Office of Inspector General 
conducted a health and safety inspection, which resulted in the 
immediate closure of the juvenile correctional component. Up until that 
time, corrections held minors with adults in joint spaces. Juveniles 
are currently being housed in Navajo County Jail in Holbrook, Arizona.
    Despite these serious issues facing Hopi, the Navajo Nation was 
provided a detention center at that time while Hopi's needs for 
detention space and a psychiatric treatment facility has yet to be 
addressed.
    In February 2015, David Little Wind, Director of Bureau of Indian 
Affairs-Office of Justice Services, met with tribal leaders, including 
myself, and Councilman Mervin Yoywtewa, Chairman of the Law Enforcement 
Task Team, to discuss the building of a new detention facility. BIA-OJS 
recognized that there was a need for a new facility and the 
recommendation at that time was to repair by replacement.
    The detention facility was still being used and operated to 
incarcerate inmates who had either been sentenced to 30 days or less or 
were awaiting hearings in the Hopi Tribal Courts. Between 2013 and 
2015, there had been an inspection of the facility, which resulted in 
portions being deemed unsafe and uninhabitable. Those inmates who had 
been formally sentenced to more than 30 days of incarceration were 
transported to other facilities. These facilities included Navajo 
County Jail, in Holbrook, Arizona; Coconino County Jail, in Flagstaff, 
Arizona; Arizona State Prison Complex, in San Luis, Arizona; and Chief 
Ignacio Adult Detention Facility, in Towoac, Colorado. However, the 
facility remained partially open.
    In October 2016, the Hopi Detention Facility was formally closed. 
Structural issues were cited as the cause of closure. As part of the 
closure, all inmates and staff were to evacuate the building 
immediately. Any new arrestees were to be booked and transported to 
Navajo County Jail within 1 hour of being booked. The Tribe was not 
given any notice of the closure. A charge of orders was issued from 
BOI-OJS Hopi Agency instructing all officers that the officer would 
have to conduct the transport related to any arrests they made. This 
instruction was also given to the Hopi Resource Enforcement Services 
(HRES) officers. HRES acts as a secondary law enforcement agency when 
services are requested by BIA-OJS. There was no formal agreement from 
the Hopi Tribe on the charge of orders. Due to the high costs and 
liability concerns associated with the courtesy transport the Hopi 
Tribe concluded it could no longer provide this support and have 
declined any transports of arrestees.
    BIA-OJS was aware for the need for a new facility and had indicated 
plans for a transition from the old facility to a temporary facility 
while the new facility was constructed. BIA-OJS Hopi Agency met with 
Chairman Honanie in late October 2016 to discuss the temporary 
facility. The temporary facility would include two components to cover 
the needs of the Correctional staff and Administrative staff. The 
temporary facility would also allow detaining individuals for up to 8 
hours. The Hopi Tribe through various meetings was verbally told that 
the temporary facility would be in place by November 2016. However, as 
of this date, the temporary facility has not been received; BIA-OJS has 
cited administrative issues as the cause of delay.
    Not having a facility places a burden on the personnel and 
administrative costs continue to rise. Officers conduct booking of 
arrestee from their units. Additional costs are being incurred in the 
areas of transportation, additional staff hours, and incarceration.
    The BIA informed the Tribe last week that it costs the BIA 
$100,000/month in contract costs to house the inmates at other 
facilities.
    The irony of this situation is that the BIA-OJS has the money to 
replace the facility, but the BIA does not receive construction dollars 
for installation. The BIA-OJS is meeting with the Department of Justice 
to find out if the DOJ would be able to provide the construction 
funding for the project.
    As the Hopi community waits to have its detention facility needs 
met, crime does not cease. As a result of having no facility, law 
enforcement officers must use their own personal discretion when 
arresting individuals who have committed violations of the Hopi Code. 
There is no deterrent factor to keep individuals from committing crimes 
when they know they will not be arrested. It is only a matter of time 
until a minor incident turns into a much more serious crime of 
violence.
                      vi. hopi telecommunications
    The Federal Communications Commission considers the Hopi 
Reservation a high cost project area. Anytime that the Hopi Tribe seeks 
to connect to the outside world it must cross the Navajo Nation, Indian 
allotments, and State land. This requires the Hopi Tribe to pay massive 
amounts for easements in order to lay or connect fiber. The cost of 
building telecommunications projects on Hopi land is 27 percent more 
than in other parts of Arizona. The Hopi Tribe received an American 
Recovery and Reinvestment Act (``ARRA'') to construct and purchase 
fiber and electronics to connect to the internet. The Tribe was not 
allowed to use ARRA funds to purchase the rights-of-way so Hopi 
Telecommunications Inc. (``HTI'') had to absorb those costs. The entire 
project cost to build a fiber optic cable route from Jeddito Community 
to Holbrook, Arizona--roughly 61 miles--cost the HTI was $3.3 million. 
Included in this cost was $500,000 paid in right-of-ways, which 
accounts for approximately 15 percent of the entire project cost. If 
this same fiber optic route was constructed on non-Indian land it would 
cost approximately $2.4 million (or 74 percent of the cost for building 
it on tribal land).
                     vii. hopi road infrastructure
    The Hopi Department of Transportation (``HDOT'') is charged with 
1,235.1 miles of Hopi's official inventoried road mile consists of:

    <bullet> 625.1 miles of unimproved earth roads

    <bullet> 5.8 miles of gravel roads

    <bullet> 99.6 miles of asphalt surface roads

    <bullet> 405.5 miles of jeep trail roads

            <bullet> 1,136 total BIA & Tribal road miles

    <bullet> 99.1 total miles of AZ State Highways

            <bullet> 1,235.1 combined total Hopi inventory road miles

    <bullet> 10 bridges with a combined length of 1,258.0 feet

    The Tribal Transportation Program (``TTP'') is the only continuous 
funding source for Hopi's construction program inclusive of all 
components from planning, design, and construction and now including 
road maintenance as result of the need expressed in Indian Country that 
regulations be amended to allow use of TTP funds for road maintenance. 
The remote nature of the Hopi Reservation has led the cost to construct 
new roads to increase from $900,000/mile in 2013 to $1.2 million/mile 
now. Dealing with these technical challenges increases operational 
costs at an estimated rate of 3 percent annually. The current TTP 
annual allocation provides for at least for 3 miles of roadway 
construction with support to the road maintenance program of $500,000 
and now includes the Hopi Senom Transit Program.
    The Interior Appropriation allocations for the road maintenance 
program have not kept up with true costs for the past 30 years. The 
Hopi Tribe had no other options but to take responsibility for the 
BIA's road maintenance duties/program as the threat to life and safety 
were becoming more evident on Hopi's roadways. In order to achieve 
maintenance goals the Tribe has been forced to draw from its 
construction accounts but is necessary as lives are being impacted. In 
addition to the already severe and inadequate funding, Hopi sustained a 
severe decrease to its road maintenance allocation by 40 percent in 
Fiscal Year 2012 from $500,000 to $300,000 with no justifiable or 
adequate reasoning taken by the BIA. We have repeatedly met with the 
BIA requesting them to remedy this reduction.
    The majority of HDOT's calls relate to the construction of new 
roadways and maintenance issues on existing roadways (an average of 15/
week). The lack of suitable material and resources to maintain the 
625.1 miles of unimproved roads makes traveling them a potentially 
life-threatening situation. Roads within the hearts of villages where 
the majority of residents reside are no better than outside of the 
villages. HDOT is responsible for maintaining the roads for emergency 
service providers, school buses, and everyday commuters but it is a 
daunting task given the lack of available resources.
    HDOT continue its daily assessment and documents challenges with 
not just BIA roads but with state highways as well. The state highways 
are no better than the BIA roads. It leaves the Tribe to believe that 
it has been forgotten by the Federal Government and the state of 
Arizona. There are currently no major plans to remedy these unsafe 
roadways on the part of either the Federal Government or the State.
                            vii. conclusion
    I appreciate the Subcommittee's time and attention to the Hopi 
Tribe's infrastructure concerns and challenges. The Tribe encourages 
the Subcommittee and its staff to visit the Hopi Reservation to witness 
the issues covered in my testimony firsthand.

                                 ______
                                 

    Mr. LaMalfa. Thank you, Chairman Honanie. We will now 
recognize Chairman Joseph.

 STATEMENT OF ANDREW JOSEPH, JR., CHAIRMAN, NORTHWEST PORTLAND 
 AREA INDIAN HEALTH BOARD; MEMBER, COLVILLE BUSINESS COUNCIL, 
                      NESPELEM, WASHINGTON

    Mr. Joseph. Good morning, Chairman LaMalfa and Ranking 
Member Torres. [Speaking native language.] My name is Andy 
Joseph, Jr. I am a chair of the Northwest Portland Area Indian 
Health Board, and also a member of the Colville Business 
Council, Confederated Tribes of the Colville Indian 
Reservation. I chair the Health and Human Services Committee.
    I thank you for this opportunity to provide testimony today 
on the challenges that Colville Tribe and other tribes in the 
IHS Portland area face in getting healthcare facilities built 
under the IHS system. The board and the Colville Tribes request 
the Committee and Congress to address Indian health facilities 
construction as part of the administrative infrastructure 
initiative. In doing so, we specifically ask that all IHS areas 
access benefits from the facilities construction funds, and not 
just a handful.
    By way of background, the Northwest Portland Area Indian 
Health Board is a tribal organization of 43 tribes of 
Washington, Idaho, and Oregon. The Colville Tribes is a member 
of the board. And the present-day Colville Reservation is 
located in north central Washington State. Most of the 1.4 
million-acre Colville Reservation is rural timberland, ranch 
land. The tribe has a large IHS service area, and its four main 
communities are separated by significant drive times. The 
tribe's primary Indian health facility is located in Nespelem, 
Washington, and residents from Inchelium that require care 
there must drive, in many cases, more than 90 minutes through 
two mountain passes.
    Health facilities have always been a challenge for Colville 
and other Portland area tribes. For the past three decades, 
most of the IHS facilities construction dollars have gone to 
projects in the Health Care Facilities Construction Priority 
List. The priority list was last updated in 1991, and no new 
projects have been added to the list since then. Projects built 
on a priority list receive reoccurring funds from IHS for an 80 
percent facility staffing needs.
    The construction priorities in the priority list were last 
updated 26 years ago. The current IHS funding for facilities 
construction is inadequate, because it provides a 
disproportionate share of funding to a few select tribal 
projects on the priority list, based on decades-old data. In 
many cases, the priority list either did not reflect facility 
needs at the time, or do not reflect the current needs of 
tribal communities.
    For example, in the 1980s, the Colville Tribe sought to 
replace the Nespelem facility with a new facility. A Nespelem 
facility was originally constructed in the 1920s, as a U.S. 
Department of War building, and was converted to use in the 
1930s as a clinic for the U.S. Public Health Service. We were 
told by a former IHS official that at one point the tribe 
requested a new facility, and Nespelem was near the top of the 
priority list, but was removed because of concerns the facility 
was a historical site.
    The Colville Tribe ended up using tribal dollars to build a 
new facility with no increase in staffing. The lack of staffing 
remains a chronic problem for the Colville Tribe--none of the 
more than 40 tribes in the IHS Portland area have ever had a 
facility constructed under the priority list system. Several of 
the IHS areas are in the same situation. Going forward on the 
Committee, we should direct IHS to develop and update priority 
list methodology, accurately reflecting current needs, and 
allow for changes.
    The Area Facility Distribution Fund (ADF)--When Congress 
reauthorized the Indian Health Care Improvement Act in 2010, it 
included a new section 301(f), that authorized IHS to establish 
a new area facility fund. We believe that the ADF is a path 
forward, ensuring all IHS areas receive benefits from any funds 
made available and administration. A joint Federal-Tribal 
advisory committee, called the Facilities Appropriations 
Advisory Board, developed the ADF concept as a compromise to 
allow existing projects to be grandfathered into the priority 
list, while at the same time allowing for new proposals to be 
considered and funded.
    The ADF is intended to allow each IHS area to improve, 
expand, or replace existing healthcare facilities. ADF makes it 
possible for IHS to extend the benefits and appropriate funds 
to a significantly larger number of tribes and communities than 
the priority list alone.
    ADF was supported by 7 of the 12 IHS area organizations, 
representing more than 500 tribes, but despite that the IHS has 
not taken steps to implement the ADF in the intervening years 
since its enactment.
    Again, I thank you for this opportunity to testify before 
you.
    [The prepared statement of Mr. Joseph follows:]
    Prepared Statement of the Hon. Andrew Joseph, Jr., Chairperson, 
   Northwest Portland Area Indian Health Board, and Council Member, 
 Confederated Tribes of the Colville Reservation, Nespelem, Washington
    Good morning Chairman LaMalfa, Ranking Member Torres, and members 
of the Subcommittee. On behalf of the Northwest Portland Area Indian 
Health Board (``NPAIHB'' or the ``Board'') and the Confederated Tribes 
of the Colville Reservation (``Colville Tribes''), I thank you for this 
opportunity to provide testimony.
    I am here today to discuss the challenges that the Colville Tribes, 
and other Indian tribes in the Indian Health Service (``IHS'') Portland 
Area, face in getting healthcare facilities constructed under the 
existing programs administered through the IHS. These issues are of 
great importance to the Colville Tribes and to other Indian tribes in 
other IHS areas where IHS facility construction dollars have not 
traditionally been available. My testimony is on behalf of both the 
Board and the Colville Tribes.
    The Board and the Colville Tribes urge the Subcommittee to do 
everything in its power to ensure that Congress addresses Indian health 
facilities needs when it drafts legislation to implement the expected 
Trump administration infrastructure initiative. In doing so, we also 
urge this Subcommittee to ensure that all IHS areas benefit from 
facilities construction and not just a handful of projects.
            background on the npaihb and the colville tribes
    Established in 1972, the NPAIHB is a P.L. 93-638 tribal 
organization that represents 43 federally recognized tribes in the 
states of Washington, Oregon, and Idaho on healthcare issues. The 
NPAIHB is dedicated to improving the health status and quality of life 
of Indian people and is recognized as a national leader on Indian 
health issues.
    The present-day Colville Reservation is approximately 1.4 million 
acres and occupies a geographic area in north central Washington State 
that is slightly larger than the state of Delaware. The Colville Tribes 
has more than 9,500 enrolled members, about half of whom live on the 
Colville Reservation. In terms of both land base and tribal membership, 
the Colville Tribes is one of the largest Indian tribes in the Pacific 
Northwest.
    Most of the Colville Reservation is rural timberland and rangeland 
and most residents live in one of four communities on the Reservation: 
Nespelem, Omak, Keller, and Inchelium. The Colville Tribes has a large 
IHS service area and these communities are separated by significant 
drive times. The CCT's primary IHS facility is located in Nespelem, WA, 
and residents from Inchelium that require care there must drive in many 
cases more than 90 minutes through two mountain passes.
                 health facilities under the ihs system
    There are currently three IHS programs that allow Indian tribes to 
construct new health facilities. The first is the Health Care 
Facilities Construction Priority List (``Priority List''), which has 
been in effect for more than two decades and provides funding for 
construction of the facilities included on the list, as well as 80 
percent of the annual staffing costs. The projects on the Priority List 
have been locked since 1991 and in the intervening decades Congress has 
directed most of the IHS health facilities construction funding to 
projects on the Priority List.
    The second is the Joint Venture (JV) program, which requires an 
Indian tribe to pay the up-front cost of constructing a facility in 
exchange for the IHS providing a portion of the annual staffing costs. 
Because the JV program provides for the possibility of recurring 
staffing for selected projects, it is extraordinarily competitive. The 
IHS has solicited applications for the JV program only twice over the 
past decade.
    The third is the Small Ambulatory Health Center Grants program, 
which is the opposite of the JV program in that the IHS provides funds 
for the construction of the facility, but not for recurring staffing. 
Congress has not provided any funding to this program in more than a 
decade.
    It is important to note that when new facilities are constructed 
under the Priority List and JV programs, it carries a budgetary 
commitment for staffing packages that must be funded on a recurring 
basis. The construction priorities in the Priority List were last 
updated 26 years ago. As the NPAIHB has noted in previous testimony, 
the current IHS funding for facilities construction is inequitable in 
that it provides a disproportionate share of funding to a few select 
tribal communities based on decades-old data.
    In many cases, the Priority List either did not reflect facilities 
needs at the time or do not reflect the current needs of tribal 
communities. For example, the Colville Tribes sought in the 1980s and 
the early 1990s to replace its Nespelem, WA facility with a new 
facility. The Nespelem facility was originally constructed in the 1920s 
as a U.S. Department of War building that was converted for use in the 
1930s as a clinic for the U.S. Public Health Service and, later, the 
IHS. The Colville Tribes were told by former IHS officials that at one 
point, its request for a new clinic in Nespelem was near the top of the 
priority list but was removed because of concerns that the facility was 
a historical site. None of the more than 40 tribes in the IHS Portland 
Area, of which the Colville Tribes is a part, have ever had a facility 
constructed under the Priority List system.
    It has been more than 17 years since the Interior Appropriations 
Subcommittee directed the IHS to revamp its facilities construction 
system. The IHS, however, has ignored this request and has never 
provided an updated facilities construction Priority List system. Going 
forward, this Committee should direct the IHS to develop an updated 
Priority List methodology that accurately reflects current needs and 
allows for changed circumstances.
the area distribution fund would provide a mechanism to more equitably 
              distribute facilities construction resources
    When Congress reauthorized the Indian Health Care Improvement Act 
in 2010, it included a new Section 301(f) that requires the IHS to 
consult with Indian tribes and tribal organizations in developing 
innovative approaches to address all or part of the total unmet needs 
for construction of health facilities. That section also provides that 
the IHS may establish an Area Distribution Fund (``ADF'') in which a 
portion of health facility construction funding could be devoted to all 
IHS areas.
    The Facilities Appropriations Advisory Board, a joint Federal-
Tribal advisory committee, developed the ADF concept as a compromise to 
allow existing projects to be grandfathered into the health facilities 
Priority List, while at the same time allowing a method for new 
proposals to be considered and funded. The ADF is intended to allow 
each IHS area to improve, expand, or replace existing healthcare 
facilities. The IHS could extend the benefits of appropriated funds to 
a significantly larger number of tribes and communities throughout 
Indian Country than would be possible by relying solely on funding for 
line-item projects.
    Section 301(f) was supported by more than 500 Indian tribes 
represented in 7 of the 12 IHS Areas, including Alaska, Bemidji, 
California, Nashville, Oklahoma, Phoenix (Nevada tribes), and Portland. 
Since then, the National Tribal Budget Formulation Workgroup has 
recommended that Congress fund the ADF. That Workgroup's 
recommendations are based on consensus. Despite the tribes' support, 
the IHS has not taken steps to implement Section 301(f) in the 
intervening years since its enactment into law.
    The Board and the Colville Tribes urge the Subcommittee to do 
everything in its power to ensure that Congress addresses Indian health 
facilities needs when it drafts legislation to implement the expected 
Trump administration infrastructure initiative. We specifically urge 
the Subcommittee to direct the IHS to distribute a significant portion 
of any facilities construction funds that may be available under an 
infrastructure initiative through the ADF to ensure that all IHS areas 
have an opportunity to address facility needs.
    This concludes my testimony. I would be happy to answer any 
questions that the Subcommittee may have.

                                 *****

 Supplemental Testimony Submitted for the Record from the Hon. Andrew 
                              Joseph, Jr.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


                                                 March 20, 2017

Hon. Doug LaMalfa, Chairman,
Hon. Norma Torres, Ranking Member,
House Committee on Natural Resources,
Subcommittee on Indian and Alaska Native Affairs,
1324 Longworth House Office Building,
Washington, DC 20515.

    Dear Chairman LaMalfa and Ranking Member Torres:

    On behalf of the Confederated Tribes of the Colville Reservation, 
thank you again for inviting me to testify at the March 9, 2017, 
oversight hearing on ``Improving and Expanding Infrastructure in Tribal 
and Insular Communities.'' The hearing was timely in that it 
illustrated the need for infrastructure in Indian country and offered 
potential solutions, specifically for health facilities.

    Chairman Bishop asked me the following question regarding the 
remaining projects on the Health Care Facility Construction Priority 
List: ``As you look at the 13 remaining projects, do you think they 
represent the greatest need?'' The beginning of my response did not 
accurately reflect my entire answer or my written statement, and I 
would like to clarify it for the record.

    The projects on the Priority List reflect criteria that IHS 
utilized nearly three decades ago and there has not been an intervening 
examination of whether those remaining projects reflect actual, current 
need. Much has changed in 30 years, and since then some tribes have 
been able to obtain new facilities through the Joint Venture program or 
through congressional directed spending prior to the adoption of rules 
prohibiting earmarks.

    I am not familiar with all 13 of the remaining projects on the 
Priority List. To the extent, however, that any of those projects were 
included on the Priority List because the applicable tribe may not have 
had any IHS facility at the time but have since been able to obtain an 
IHS facility through the Joint Venture program or by congressional 
directed spending, then the list does not reflect current need.

    Regardless, and as noted in my written statement, the Priority List 
must updated. In fiscal year 2000, the Interior Appropriations 
Committee directed the IHS to update its facilities construction 
system. The IHS, however, has never done so, and the Committee should 
now direct the IHS to develop an updated Priority List methodology that 
accurately reflects current needs and allows for changed circumstances.

    Finally, I would like to reiterate that should funds be made 
available in any infrastructure initiative, a significant portion 
should be distributed through the Area Distribution Fund authorized in 
Section 301(f) of the Indian Health Care Improvement Act so that all 
IHS areas can benefit. In 2009, Congress appropriated $227 million for 
IHS facilities construction in the American Recovery and Reinvestment 
Act of 2009, all of which went to only two projects on the Priority 
List. If directing a significant portion of funding through the ADF is 
not feasible, then the funding should instead be directed to IHS's 
Maintenance and Improvements or Sanitation Facilities programs, which 
do not utilize antiquated priority lists and would benefit a larger 
number of tribes and regions.

    Please feel free to contact me with any questions and thank you 
again for holding this important hearing.

            Sincerely,

                                          Andy Joseph, Jr.,
                         Chair, Health and Human Services Committee
                                          Colville Business Council

                                 ______
                                 

    Mr. LaMalfa. Thank you, Chairman Joseph, for your 
testimony. I appreciate it. Now we will be hearing from 
Victoria Kitcheyan from the National Indian Health Board, who 
is our Great Plains area representative. Thank you.

      STATEMENT OF VICTORIA KITCHEYAN, GREAT PLAINS AREA 
  REPRESENTATIVE, NATIONAL INDIAN HEALTH BOARD, WASHINGTON, DC

    Ms. Kitcheyan. Good morning, Chairman LaMalfa, Ranking 
Member Torres, and members of the Subcommittee. On behalf of 
the National Indian Health Board, thank you for allowing me 
this opportunity to offer testimony on healthcare 
infrastructure in Indian Country. My name is Victoria 
Kitcheyan, and I am a member of the Winnebago Tribe of 
Nebraska, where I also serve as Tribal Treasurer on the Tribal 
Council.
    As you are aware, Federal promises to improve Indian health 
services were made long ago. Our people entered into treaties 
with the Federal Government to provide health care in exchange 
for tribal land and peace. Unfortunately, the Federal 
Government has yet to live up to this trust responsibility. Our 
people live sicker, they die younger, and most times 
unnecessarily. On average, 4.5 years younger and, in some 
states, 20 years.
    While IHS is funded far below need, the infrastructure and 
the facilities improvements are some of those most critical 
needs in Indian Country. Indian Health Service is made up of 45 
hospitals, 529 outpatient facilities, and, on average, these 
facilities, as you mentioned, are 40 years old, four times that 
of other healthcare facilities in the United States. And these 
facilities are expensive, 26 percent more expensive to operate 
than a 10-year facility. These facilities are not only 
expensive, but have caused huge barriers to providing quality 
patient care and improving the safety of our patients.
    Improving healthcare facilities is essential for reducing 
medical errors in facility-acquired infection rates, and 
improving staff and operational efficiency. In fact, the poor 
quality of some of these federally operated facilities have 
been documented, and have led to direct threats to the patient 
care. They have been documented by HHS Office of Inspector 
General, Government Accountability Office, and, most recently, 
the Centers for Medicare and Medicaid Services. They are 
literally shutting hospitals down because of these 
shortcomings.
    As Congress considers investments in infrastructure, we 
urge you to look to the Indian Health Service as a top 
priority. From 2010 to 2016, the construction budget has been 
about 76 million. And you mentioned if there was one built 
today, it would be 400 years until that facility would be 
considered for improvements.
    So, currently, IHS uses its healthcare facility 
construction appropriations to fund these grandfathered 
projects. But even then, these 13 remaining projects on the 
grandfathered list are estimated to cost $2.1 billion. Once 
those 13 projects are funded, the remaining $8 billion of need 
is funded on a revised priority list. As Congress looks to 
improve infrastructure, it should turn to IHS and its list of 
priorities in line for development. The need is there, we just 
need the funding, and we would easily be able to expend that--
not ``we,'' IHS.
    Congress should also consider major fiscal improvements and 
maintenance of current facilities, which would greatly lead to 
improved patient care. Investments in sanitation facilities for 
tribal communities has also been a major direct correlation 
with improving health outcomes for American Indians and Alaska 
Natives. The current backlog for that is $2 billion.
    The Committee should also consider investments in creating 
staffing quarters. That has been identified as a barrier to 
recruitment and retention in some of our most remote 
reservations and healthcare facilities. We need the qualified 
medical professionals to come to our communities and live 
amongst our tribal members, and we lack the capability to offer 
that housing.
    In addition to basic infrastructure needs, it is critical 
that Congress provide necessary resources for IHS to make 
serious upgrades to the Health Information System. Failing to 
do this puts patients at risk, and will leave IHS unequipped 
for the 21st century healthcare environment. This includes 
allocating $3.5 billion to replace the current Health 
Information System and other investments to increase network 
bandwidth. A robust telecommunications infrastructure is 
critical to a modern healthcare delivery system.
    The vast majority of IHS and tribally-operated facilities 
are in rural areas lacking connectivity, and it is much slower 
than urban settings. Capabilities such as telehealth, patient 
access to records, and medical data and images are severely 
hampered by the bandwidth insufficiency. Upgrading bandwidth is 
extremely expensive, and often paid out of the health care's 
already-underfunded operating budget.
    Due to some of these constraints, IHS cannot take full 
advantage of some of the technology, telehealth. And while some 
areas have been successful in telehealth, it is not IHS-wide, 
and the infrastructure is not there. It is our understanding 
that the IHS estimates an operational enterprise telehealth 
program could cost $75 million. These would have to be new 
resources, as IHS does not have the ability to transfer funds 
from one program to fund telehealth. But once these funds would 
be made available, there would be great cost savings to the 
agency.
    The current IHS Health Information System is called the 
Resource and Patient Management System, or RPMS, and it is a 
comprehensive suite of applications supporting virtually all 
clinical and business operations. There is limited funding 
available to continue to upgrade and maintain this old system. 
This old system is a ticking time bomb, and if we continue to 
put Band-Aids on this, we are going to have a much greater 
problem than if we were to modernize it.
    We call on Congress to make these investments in Indian 
Country, and to update RPMS, or completely replace it. Our 
facilities can have a fully functioning health IT system, which 
could lead to better health outcomes for Alaska Natives and 
American Indians.
    In conclusion, I would like to thank you for this attention 
to these issues. I urge you to continue considering health 
investments in any infrastructure plan, going forward. Failing 
to make these improvements will result in continuing neglect of 
the trust responsibility, and we thank you for your 
consideration in this time, and we just look forward to 
continuing this dialogue as we work toward better health 
outcomes for all Native people.
    [The prepared statement of Ms. Kitcheyan follows:]
      Prepared Statement of Victoria Kitcheyan, Great Plains Area 
      Representative, National Indian Health Board, Washington, DC
    Chairman LaMalfa, Ranking Member Torres, and members of the 
Subcommittee, thank you for the opportunity to offer this testimony on 
``Improving and Expanding Infrastructure in Tribal and Insular 
Communities.'' On behalf of the National Indian Health Board (NIHB) and 
the 567 tribal nations we serve, I submit this testimony on Fiscal Year 
2018 budget for the Department of Health and Human Services (HHS).
    The Federal promise to provide Indian health services was made long 
ago. Since the earliest days of the Republic, all branches of the 
Federal Government have acknowledged the Nation's obligations to the 
tribes and the special trust relationship between the United States and 
tribes. The United States assumed this responsibility through a series 
of treaties with tribes, exchanging compensation and benefits for 
tribal land and peace.\1\ In 2010, as part of the Indian Health Care 
Improvement Act, Congress reaffirmed the duty of the Federal Government 
to American Indians and Alaska Natives (AI/ANs), declaring that ``it is 
the policy of this Nation, in fulfillment of its special trust 
responsibilities and legal obligations to Indians--to ensure the 
highest possible health status for Indians and urban Indians and to 
provide all resources necessary to effect that policy.'' \2\
---------------------------------------------------------------------------
    \1\ The Snyder Act of 1921 (25 U.S.C. 13) legislatively affirmed 
this trust responsibility.
    \2\ 25 U.S.C. 1602.
---------------------------------------------------------------------------
    Yet, when it comes to facilities and infrastructure in Indian 
health, the Federal Government has not lived up to its responsibility. 
The Indian Health Service (IHS) was founded in 1955 to help the Federal 
Government fulfill the trust responsibility for health. As part of the 
Indian health system, more than 650 IHS and tribal facilities operate 
across the country to serve about 2.2 million AI/ANs.
    Yet, Congress has never provided IHS with enough funding to meet 
the needs of Indian Country, and the infrastructure budget is no 
different. Federally operated IHS hospitals range in size from 4 to 133 
beds and are open 24 hours a day for emergency care needs. IHS 
facilities offer a range of care, including primary care services, 
pharmacy, laboratory, and x-ray services. Therefore, IHS facilities 
infrastructure is directly tied to improved quality of healthcare for 
AI/ANs. With a life expectancy of 4.5 years less (and in some states 
more than 20 years) AI/ANs continue to lag behind the rest of the 
country when it comes to access to health services. It is clearly time 
to do something about health facilities and infrastructure for Indian 
Country.
    The following testimony will focus on ways that Congress can 
improve health in AI/AN communities through infrastructure 
improvements. This includes not only construction and maintenance of 
brick and mortar facilities but investments in the Health IT 
infrastructure which will make meaningful progress toward improving 
patient care, and health outcomes while serving the dual purpose of 
providing Congress with more information about what care looks like at 
IHS.
                  importance of strong infrastructure
    The Indian Health Service health infrastructure is comprised of 45 
hospitals (26 IHS operated, 19 tribal) and 529 outpatient facilities 
(125 IHS operated, 411 tribal). At these facilities in 2016, there were 
an estimated 39,300 inpatient admission as 13.7 million outpatient 
visits.

--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                          Hospitals              Health Centers        Alaska Village Clinics        Health Stations
--------------------------------------------------------------------------------------------------------------------------------------------------------
IHS.............................................                       26                        51                       N/A                        32
Tribal..........................................                       19                       287                       163                        79
--------------------------------------------------------------------------------------------------------------------------------------------------------

    On average, IHS hospitals are 40 years of age, which is almost four 
times as old as other U.S. hospitals with an average age of 10.6 
years.\3\ A 40-year-old facility is about 26 percent more expensive to 
maintain than a 10-year facility. The facilities are grossly 
undersized--about 52 percent of need--for the identified user 
populations, which has created crowded, even unsafe, conditions among 
staff, patients, and visitors. In many cases, the management of 
existing facilities has relocated ancillary services outside the main 
health facility; oftentimes to modular office units, to provide 
additional space for primary healthcare services. Such displacement of 
programs and services creates difficulties for staff and patients, 
increases wait times, and create numerous inefficiencies within the 
healthcare system. Furthermore, these aging facilities are largely 
based on simplistic, and outdated design which makes it difficult for 
the agency to deliver modern services.\4\ Improving healthcare 
facilities is essential for:
---------------------------------------------------------------------------
    \3\ Almanac of hospital financial & operating indicators: a 
comprehensive benchmark of the nation's hospitals (2015 ed., pp. 176-
179): https://aharesourcecenter.wordpress.com/2011/10/20/average-age-
of-plant-about-10-years/.
    \4\ The 2016 Indian Health Service and Tribal Health Care 
Facilities' Needs Assessment Report to Congress. Indian Health Service. 
July 6, 2016. Accessed at https://www.ihs.gov/newsroom/includes/themes/
newihstheme/display_objects/documents/RepCong_2016/IHSRTC_on_Facilities 
NeedsAssessmentReport.pdf on November 7, 2016, p. 12.

---------------------------------------------------------------------------
    <bullet> Eliminating health disparities

    <bullet> Increasing access

    <bullet> Improving patient outcomes

    <bullet> Reducing operating and maintenance costs

    <bullet> Improving staff satisfaction, morale, recruitment and 
            retention

    <bullet> Reducing medical errors and facility-acquired infection 
            rates

    <bullet> Improving staff and operational efficiency

    <bullet> Increasing patient and staff safety

    The absence of adequate facilities frequently results in either 
treatment not being sought; or sought later, prompted by worsening 
symptoms; and/or referral of patients to outside communities. This 
significantly increases the cost of patient care and causes travel 
hardships for many patients and their families. The amount of aging 
infrastructure escalates maintenance and repair costs, risks code 
noncompliance, lowers productivity, and compromises service delivery. 
AI/AN populations have substantially increased in recent years 
resulting in severely undersized facility capacity relative to the 
larger actual population, especially the capacity to provide 
contemporary levels of outpatient services. Consequently, the older 
facility is incapable of handling the needed levels of services even if 
staffing levels are adequate.

    Over the last several years, investigators at the Centers for 
Medicare and Medicaid Services (CMS) and the HHS Office of the 
Inspector General (OIG) have cited outdated facilities as direct 
threats to patient care. For example, in more than half of the 
hospitals surveyed by the OIG in 2016, administrators reported that old 
or inadequate physical environments challenged their ability to provide 
quality care and maintain compliance'' with the Medicare Hospital 
Conditions of Participation (CoPs).\5\ ``Further, according to 
administrators at most IHS hospitals (22 of 28), maintaining aging 
buildings and equipment is a major challenge because of limited 
resources. In FY 2013, funding limitations for essential maintenance, 
alterations, and repairs resulted in backlogs totaling approximately 
$166 million.'' \6\ In fact, over one-third of all IHS hospitals' 
deficiencies have been found to be related to facilities with some 
failing on infection control criteria and others having malfunctioning 
exit doors. Other facilities are just not designed to be hospitals, and 
IHS has had to work around historical buildings which are not equipped 
for a modern medical environment.\7\
---------------------------------------------------------------------------
    \5\ Indian Health Service Hospitals: Longstanding Challenges 
Warrant Focused Attention to Support Quality Care. Department of Health 
and Human Services, Office of the Inspector General. October 2016. OEI-
06-14-00011.
    \6\ Ibid, p. 14.
    \7\ Ibid, 15.

    For many AI/AN communities, these outdated and inefficient 
facilities are the only option that patients have. Tribal communities 
are often located in remote, rural locations, and patients do not have 
access to other forms of health insurance to treat them elsewhere.
                      ihs facilities construction
    From 2010 to 2016, IHS facilities infrastructure construction 
budget has been about $76 million annually. At that rate, a new 
facility built today would not be replaced for another 400 years! \8\ 
Currently, IHS uses its Health Care Facility Construction (HCFC) 
appropriations to fund projects off the ``grandfathered'' HCFC priority 
list until it is fully funded. This priority system was developed in 
the late 1980s at the direction of Congress. The original priority list 
was developed in the early 1990s with 27 projects on the list. There 
are 13 remaining projects on this ``grandfathered'' list which is 
currently estimated to cost $2.1 billion. Once those 13 projects are 
funded, the remaining $8 billion can be funded with a revised priority 
system that will periodically generate updated lists.
---------------------------------------------------------------------------
    \8\ ``Federal Indian Trust Responsibility: The Quest for Equitable 
and Quality Indian Healthcare--The National Tribal Budget Formulation 
Workgroup's Recommendations on the Indian Health Service Fiscal Year 
2018 Budget.'' June 2016. P. 64.

    The appropriations provided to Congress are the primary source for 
new or replacement healthcare facilities. Because of the shortage of 
appropriations, IHS funds multiple projects over several fiscal years 
which allows projects to move forward simultaneously and helps 
distribute the funds geographically benefiting more than one service 
area. Importantly, the IHS development process ensures that the newly 
designed facilities are culturally appropriate, and are done in 
---------------------------------------------------------------------------
consultation with the tribes they serve.

    As Congress looks to create infrastructure investments, it should 
turn to IHS which has a list of projects in line for development. The 
need is there, and IHS could easily be ready to expend these funds if 
they were to be available. We request that IHS construction projects be 
given priority in any infrastructure investments, as these projects are 
directly correlated with safer patient care, meaning improved health 
outcomes for AI/ANs, even saved lives.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

                    maintenance and improvement
    As noted above, deteriorating maintenance of facilities in the IHS 
system poses a huge challenge for health administrators. Maintenance is 
necessary to comply with hospitals and facility accreditation standards 
and meet basic safety codes, but since 2011, the agency has not 
received enough appropriations to keep up with need resulting in a $500 
million backlog that will only increase the longer it is not addressed. 
By 2015, appropriations were only about 80 percent sufficient to cover 
the costs. Currently, Maintenance and Improvement is funded at $73.6 
million.
    According to OIG, some facilities have been cited for sewage 
leaking into an operating room and equipment that is no longer suited 
for a modern medical environment.\9\ America is too great a nation to 
allow health facilities to languish in this condition. Congress must 
invest in keeping up with aging IHS facilities to ensure that our 
patients have basic, and safe delivery services.
---------------------------------------------------------------------------
    \9\ Indian Health Service Hospitals: Longstanding Challenges 
Warrant Focused Attention to Support Quality Care. Department of Health 
and Human Services, Office of the Inspector General. October 2016. OEI-
06-14-00011, p. 14-15.
---------------------------------------------------------------------------
                               equipment
    Hand in hand with deferred construction and maintenance is the 
aging equipment at IHS health facilities. Up-to-date equipment is 
necessary to ensure effective mental diagnosis, treatment and for 
recruiting medical staff. Medical and laboratory equipment has a useful 
life of 6 years, but in IHS facilities it is used twice as long.\10\ 
However, aging or outdated equipment plagues facilities throughout the 
IHS. In November 2015, for example, CMS surveyed the Rosebud Indian 
Hospital located in the Great Plains Region of the IHS. Among the many 
findings in their report, they found that the sterilization machine had 
been broken and medical staff were washing surgical instruments by 
hand; an exam table had exposed foam rendering it unable to be 
sanitized; and that dental x-ray equipment had not been installed for 
several years because of inadequate wiring.
---------------------------------------------------------------------------
    \10\ ``The 2016 Indian Health Service and Tribal Health Care 
Facilities' Needs Assessment Report to Congress,'' p. 10.
---------------------------------------------------------------------------
    Again, critical investments in equipment for IHS are critical to 
ensuring patient safety and ensuring that IHS can function as a 21st 
century healthcare delivery system.
                 sanitation facilities and construction
    Since 1959, IHS has used Sanitation Facilities Construction to as 
an ``integral component of IHS disease prevention activities'' which 
has decreased mortality rates from environmentally related diseases by 
80 percent since 1973.\11\ ``However, as of the end of FY 2015 about 
24,200, or 6 percent of all AI/AN homes were without access to adequate 
sanitation facilities; and, about 188,228 or approximately 47 percent 
of AI/AN homes were in need of some form of sanitation facilities 
improvements.'' \12\
---------------------------------------------------------------------------
    \11\ IHS FY 2017 Congressional Budget Justification, CJ 168.
    \12\ Ibid, CJ 169.
---------------------------------------------------------------------------
    Currently, IHS estimates the backlog for sanitation facilities at 
$2.5 billion. IHS maintains a priority system for construction projects 
known as the Sanitation Deficiency System (SDS). Project selection is 
driven by objective evaluation criteria including health impact, 
existing deficiency level, adequacy of previous service, capital cost, 
local tribal priority, operations and maintenance capacity of the 
receiving entity, availability of contributions from non-IHS sources, 
and other conditions that are locally determined. Congress should also 
make considerable investments in sanitation infrastructure to ensure 
that the health of AI/ANs is not jeopardized by substandard sanitation 
facilities.
                   housing for medical professionals
    As a rural healthcare provider, IHS currently has over 1,550 
vacancies for medical staff across the system, which impacts the direct 
delivery of healthcare. IHS has many challenges to recruit and retain 
medical professionals including competition from other providers; lack 
of opportunities for families in rural areas; and a low number of AI/
ANs going to medical school. However, we have long heard from 
healthcare professionals on isolated reservations that a lack of 
housing and quality education are barriers to long-term tenure at 
Indian health facilities. To rectify this, there will need to be 
further collaboration among the tribes, government agencies such as HHS 
and the U.S. Department of Housing and Urban Development (HUD), and 
Congress to make investments in housing so that people working in IHS 
facilities have adequate living quarters available. It is also critical 
to provide support for schools so that the families of medical 
providers will have access to adequate educational opportunities.
    Congress should provide a separate stream of funding as part of 
infrastructure reform to make major investments in staff quarters on 
tribal lands for not only medical staff but other professionals like 
teachers as well.
                               health it
    In addition to basic infrastructure needs, it is critical that 
Congress provide resources necessary for the IHS and other Federal 
health providers like the Department of Defense (DoD) and Veterans' 
Administration (VA) to make serious upgrades to their health 
information technology system. Failure to do puts patients at risk and 
will leave IHS behind unequipped for the 21st century healthcare 
environment. When investing in infrastructure projects, Congress should 
prioritize Health IT needs for health facilities in Indian Country. 
This includes allocating $3.5 billion to replace the current Health 
Information System, and other investments to increase network 
bandwidth.
    The biggest barrier to achieving this has been the lack of 
dedicated and sustainable funding to adequately support health 
information technology infrastructure, including full deployment and 
support for Electronic Health Record (EHR). Resources, including 
workforce and training, have been inadequate to sustain clinical 
quality data and business applications necessary to provide safe 
quality health services to the 2.2 million AI/ANs. The IHS/Tribal/Urban 
health delivery system represents some of the most remote locations in 
the United States and many reservations and villages are further 
isolated by lack of roads and public utilities.
Telecommunications Infrastructure
    A robust telecommunications infrastructure is critical to a modern 
healthcare delivery system, not just for providers but for patients and 
their families as well. The vast majority of IHS and tribal healthcare 
facilities are in rural locations with connectivity that is much slower 
and less reliable than that available in urban settings. Capabilities 
such as telehealth, patient access to records, staff and patient 
education, clinical decision support, and transmission of medical data 
and images, are severely hampered by bandwidth insufficiency. Upgrading 
bandwidth can be extremely costly and often must be paid from the 
facility's health care operations budget. In some cases, local 
telecommunications providers are simply unable to provide the upgrades 
needed for the healthcare facilities. An unacceptable proportion of 
network IT equipment at IHS facilities has exceeded reliable operating 
life span and vendor support, but insufficient funds exist to upgrade 
this equipment.
    Network bandwidth is a key requirement to successfully provide 
healthcare services. Many IHS sites are experiencing challenges to fund 
the cost of the necessary bandwidth upgrades to make telehealth 
services successful. Approximately 75 percent of IHS sites are located 
in areas defined as `rural' by the Federal Communications Commission 
(FCC). These rural sites pay a higher percentage of their operating 
budget than urban locations on monthly circuit costs. When bandwidth 
upgrades are required, rural IHS sites are frequently asked to fund the 
capital costs of these upgrades. These projects can range from tens of 
thousands to over a million dollars in cost, and can take years to 
complete. In some cases, telecommunication providers are not able to 
offer any upgrade options for IHS locations.
    At rural IHS sites, circuit outages and restoration times are above 
industry averages, due to outdated equipment and small regional 
telecommunication providers covering large geographical areas with long 
travel times and limited staff. This creates challenges and risks in 
relying on network connectivity to provide clinical services. During 
2016, IHS upgraded network bandwidth at over 50 locations. Furthermore, 
IHS is moving away from slow speed circuits such as T1 lines (1.5 
Mbits) to Ethernet circuits which offer bandwidth in the 10 to 100 
Mbits range. To help fund the monthly recurring circuit costs 
associated with these upgrades, IHS is increasingly leveraging the 
financial support provided by the Healthcare Connect Fund (HCF). The 
HCF is an FCC program to provide rural healthcare providers with 
financial support for bandwidth charges.
    However, large numbers of IHS facilities do not currently have 
sufficient bandwidth to offer telehealth and related services. 
Approximately 50 percent of the IHS sites are still depending on 
circuit connections based on one or two T1 lines (3 Mbits). Their 
circuits are constantly saturated with staff experiencing slow response 
times when using traditional IT applications. The addition of 
telehealth and mobile health services is not an option at these 
locations. Services like this are critical in rural communities where 
recruitment and retention of medical professionals is continually a 
challenge.
Telehealth
    The successful utilization of a variety of telehealth technologies 
and services in Indian Country is well documented. However, these 
successes were achieved on a largely regional basis, driven by 
visionary leaders, with various and not reliably sustainable funding 
sources. The IHS has not yet been resourced to establish either a 
sustainable telehealth infrastructure or governance program that would 
prioritize resources in accordance with identified need, establish and 
promote best practices, and formally evaluate and report on successes 
and issues. The IHS recently awarded a large contract for tele-
emergency and other specialty telehealth services in the Great Plains 
Area, but the costs for this have been imposed on already underfunded 
Service Units, and again without any program structure that will ensure 
success and apply lessons learned to future telehealth initiatives. 
While we applaud this necessary investment to address urgent quality of 
care issues brought through congressional oversight, we must urge that 
equal investments be made in the rest of Indian Country who suffer 
similar issues of poorly resourced facilities and lack of capacity to 
bring up standards of care to minimal level of safety, much less to 
meet national accreditation standards.
    It is our understanding that the IHS estimates a fully operational 
enterprise telehealth program could be supported at a cost of $75 
million annually. These would have to be new resources, as the agency 
has no capacity to transfer dollars from other programs to support 
telehealth. Operational costs would be augmented by third party 
revenues generated from telehealth encounters, but these revenues will 
not be sufficient to enable the telehealth program to exist without 
additional appropriations.
Biomedical Equipment
    As noted above, medical equipment at IHS facilities is far older 
than the average for the rest of the country. The current inventory of 
biomedical equipment at IHS facilities is valued at approximately $500 
million. This does not include equipment located at tribally-operated 
facilities, which are far more numerous. According to the American 
Hospital Association, medical equipment has a typical life span of 5 to 
6 years. This means that the IHS should budget $90 million annually for 
biomedical equipment upgrades and replacement at Federal facilities. 
However, for most of the past decade and more, the IHS has funded only 
about a quarter of the level of need. This limited funding has only 
been able to replace the very oldest equipment. As a result, most IHS 
facilities continue to use outdated health technology with unacceptable 
probability for failure and consequent risks to patient safety.
    With the evolving state-of-the-art in biomedical technology, the 
majority of medical devices are embedded with microprocessors that 
connect to the hospital or clinic network via Bluetooth, wireless or 
Ethernet connections. The cybersecurity risks these devices pose both 
to the facility and the connected enterprise are substantial. 
Government organizations including the IHS are obligated to ensure 
compliance with applicable statutes and regulations (Clinger-Cohen, 
FISMA, FITARA, etc.) in order to minimize these risks. The Congress 
must take this additional layer of acquisition planning and governance 
into consideration with all funding decisions.
Health Information Systems
    The information systems that support quality healthcare delivery 
are critical elements of the operational infrastructure of hospitals 
and clinics. The current IHS health information system is called the 
Resource and Patient Management System (RPMS), and is a comprehensive 
suite of applications that supports virtually all clinical and business 
operations at IHS and most tribal facilities, from patient registration 
to billing. The IHS remains the only Federal agency to have 
successfully certified its electronic health record (EHR) product 
according to criteria published by the Office of the National 
Coordinator for Health Information Technology (ONC).
    The explosion of Health Information Technology (HIT) capabilities 
in recent years, driven in large part by Federal regulation, has caused 
the IHS health information system to outgrow the agency's capacity to 
maintain, support and enhance it. The IHS was fortunate to receive 
Recovery Act dollars and benefit from incentives available through the 
HITECH Act, and used these dollars to grow RPMS in response to the new 
regulatory requirements. However, those funds are no longer available, 
and no new funds have been appropriated to support operations and 
maintenance for the certified RPMS suite. This has resulted in a mass 
exodus of Self Governance Tribes who have opted to withdraw their IT 
shares to seek other commercial HIT solutions which promise to more 
readily address their needs; and, in fact, this has caused a domino 
effect in that the IHS agency technology budget is decreasing more 
rapidly because of the withdrawal of these IT shares. For example, one 
large tribe recently withdrew its shares, resulting in a -$2.5 million 
impact (-3.7 percent) on the Headquarters IT budget. This is a 
harbinger of the vicious cycle that will result if the IHS cannot 
sustain the RPMS and related systems. Tribal programs, concluding that 
IHS solutions no longer support the best quality of care and patient 
safety, will be forced to adopt commercial solutions at considerable 
expense. They should not have to do this because HIT is among the 
programs and services that the Federal Government has historically 
provided for the tribes. But, without a realistic investment in RPMS, 
they will have no choice if they are to fulfill their responsibilities 
to their people, and the resulting diminution of resources retained 
with the IHS will further injure both the direct service tribes and 
those self-governance tribes continuing to rely on IHS HIT.
    There is no question that the IHS electronic health record and 
other health information systems need to be further modernized to build 
on the growth in recent years. The agency just awarded a new 
development contract that, if sufficiently funded going forward, will 
go far in addressing this need, and will enhance the RPMS as a public 
utility that serves both Indian Country and any other healthcare entity 
that chooses to adopt it. Failure to sufficiently fund RPMS 
modernization by at least doubling the IHS HIT budget, will not only 
hasten but ensure the collapse of the HIT infrastructure in Indian 
Country.
    If the joint tribal-IHS decision is for replacement of RPMS as the 
IT-solution, there is an urgency to expedite the decision-making 
process to allow time to acquire the software and ensure a smooth 
transition. It will take a minimum of a year to select a replacement 
and a couple of years beyond that for a complete transition to be 
planned and implemented. The operating system that RPMS currently runs 
on is a ticking time bomb, and needs immediate investment to modernize 
it. Microsoft is expected to put it on an end of life schedule in the 
near future. Its predecessor, Server 2008, which was released a year 
prior to 2008 R2 has already been put on an end of life schedule. This 
creates urgency for strategic decisions which must be made now.
    To further illustrate the urgency to act now, there is a cautionary 
tale of a medium-sized city that similarly failed to upgrade their 
enterprise software. Opting instead to forgo their annual maintenance, 
they supported the application in house. When Microsoft ended support 
for Windows XP, the enterprise software needed to be upgraded. The 
resulting replacement budget cost the city approximately $45 million. 
In contrast, the maintenance contract that would have allowed the city 
to keep up with upgrades only cost $750,000. There's a real lesson to 
be gathered here about not forgoing maintenance and acting with a sense 
of urgency in imperative for cost controls. We are quickly moving past 
the point of no return.
    Some may be tempted to quickly suggest that the best answer is to 
that IHS should follow the lead of the Department of Defense (and 
possibly the Department of Veterans Affairs at some point) in adopting 
commercial HIT solutions. It is critical to understand that, while this 
might be a desirable and perceived easy solution, such an approach is 
not possible without a massive allocation of new funding. The IHS 
estimates that it could cost up to $3.5 billion, over 2-3 years to 
transition the agency from RPMS to a full commercial suite of 
comparable capability (the entire annual budget of the IHS is under $5 
billion). As Congress invests in infrastructure improvements it should 
certainly include the replacement of RPMS as one of the top priorities 
by adding supplemental appropriations of $3.5 billion to purchase or 
develop a new HIT system for the I/T/U system. Any such investment must 
be preceded and informed by an independent expert and thorough analysis 
of alternatives, with full consultation and collaboration by the 
tribes.
                               conclusion
    Clearly the needs for improved facilities maintenance and 
construction across the Indian Health System is a critical need. 
Facilities improvements are critical to ensuring that the health of 
American Indians and Alaska Natives is able to reach the highest 
possible levels. For too long, appropriations have not met up with the 
demand for improved IHS facilities, which in some cases are among the 
most outdated in the United States. As Congress considers 
infrastructure improvements it should ensure that Indian health 
receives critical investments. IHS already maintains a priority list of 
projects ready for funding so actual construction would be able to 
begin in a relatively expedient manner. Furthermore, investments in 
staff housing will have major impacts for Indian Country who are trying 
to attract needed health and other professionals.
    Additionally, in order for the I/T/U system to function in the 21st 
century, it is essential that major investments are made in the Health 
IT infrastructure in order to ensure that I/T/U facilities are safe and 
efficient places to receive care. This means, a major financial 
investment to improve HIT also network improvements. Because IHS 
provides services in mainly rural and remote areas, there is much to be 
gained by embracing new methods of care like telehealth. But there are 
few areas where this capability is possible due to network constraints 
and a lack of IHS-wide infrastructure to support such a program. 
Congress should not hesitate to supplement additional funding to make 
these needed upgrades so the health of AI/ANs can improve.

                                 ______
                                 

    Mr. LaMalfa. Thank you, Ms. Kitcheyan. We appreciate your 
testimony today.
    The next witness will be the Honorable Aaron Payment from 
the National Congress of American Indians. Welcome. Good to see 
you.

  STATEMENT OF AARON PAYMENT, SECRETARY, NATIONAL CONGRESS OF 
                AMERICAN INDIANS, WASHINGTON, DC

    Mr. Payment. Good morning, Chairman LaMalfa; Ranking Member 
Torres; my Congressman, Jack Bergman; and members of the 
Committee. My name is Aaron Payment. I am the Secretary for the 
National Congress of American Indians (NCAI), and also 
Chairperson for the Sault Ste. Marie Tribe of Chippewa Indians. 
Thank you for holding this very important hearing on improving 
and expanding infrastructure in Indian Country.
    NCAI is encouraged by the conversations that have been 
occurring in Congress and the Administration focusing on 
comprehensive infrastructural planning. That this Committee has 
chosen to focus on tribal infrastructure for your first hearing 
is heartening, thank you. In order for a national 
infrastructure investment plan to be truly comprehensive and 
transformative, it must include Indian Country.
    For Indian tribes across the country, there is no more 
important issue than providing for our tribal citizens and our 
communities. To do so, tribal governments require investment in 
infrastructure, which will not only provide for the basic 
services to our citizens, but also spur long-term economic 
opportunities which benefit surrounding communities.
    The infrastructural needs in Indian Country are long-
standing and result from sustained under-investment for 
decades. In 2009, a Senate letter to the Administration 
estimated $50 billion in unmet need for infrastructure on 
Indian reservations. When you consider our greatest 
infrastructure needs are related to healthcare facilities, 
school construction and maintenance, roads, broadband, water 
and sanitation facilities, and housing, it becomes clear that 
lack of adequate infrastructure has a significant impact on the 
social, physical, and mental well-being of tribal communities.
    Unmet infrastructure needs also impact job opportunities on 
and near tribal lands, which has the potential to benefit our 
neighbors. The lack of economic development and job 
opportunities in Indian Country is evident in places where key 
infrastructure, such as roads, water access, and broadband is 
under-developed or in disrepair.
    If there is one benefit to a long history of unmet needs, 
it is that Federal agencies have a record of these needs in 
Indian Country. And, while not ideal, there are systems in 
place for addressing the backlogs. While there is little 
agreement on how to prioritize funding, in most cases existing 
travel programs provide an efficient system to distribute 
infrastructural investments. This is especially true for 
housing and transportation-related programs.
    Other programs, such as construction of health facilities 
or schools, have priority lists developed through agency 
mechanisms designed to address the needs of those facilities in 
most need of construction or repair. A sustained and targeted 
funding investment by Congress is required to have the 
significant and long-term lasting impact on the existing 
infrastructure backlog. Funding should be supplemented by 
mechanisms that encourage government parity and self-
determination.
    NCAI urges the Committee to look at ways to streamline the 
regulatory process and modernize outdated regulations and 
statutes to provide tribes with flexibility and greater control 
over decision-making; government parity to ensure that tribal 
governments are offered the same opportunities as states and 
local governments; opportunities where tribes can collaborate 
with local governments and private and industry partners to 
develop solutions to infrastructural needs; and coordination 
and collaboration when multiple Federal agencies are involved 
in projects, due to the nature of the Federal relationship with 
tribal governments.
    In addition to requesting direct and proportional funding 
for tribal governments in the infrastructural package, we urge 
you to ensure that tribes are able to fully participate in any 
funding that may be derived from tax incentives. This includes 
direct access to Federal tax credit programs, such as the new 
markets and low-income housing tax-credit programs, as well as 
tax-exempt bond authority. These incentives would also help 
encourage public-private partnerships in Indian Country.
    As Congress and the Administration consider large-scale 
infrastructure projects across the United States, tribal lands 
and natural resources will inevitably be impacted. It is 
imperative that tribes are a part of the planning process when 
developments occur on or near reservations, ancestral, or 
sacred lands.
    NCAI advocates for inclusion of tribal nations from the 
earliest stages of decision-making and permitting. Tribal 
governments seek economic development opportunities and 
recognize that infrastructure projects benefit both tribal and 
neighboring communities. Early consultation and informed prior 
consent with respect to deference to the Federal trust 
obligations can ensure that projects meet the needs of all 
parties, and can proceed in a timely and efficient manner.
    In closing, I want to thank you again for holding this 
important hearing to make sure that Indian Country priorities 
are included in the infrastructural package. To aid in your 
work, I request that NCAI's tribal infrastructure report, this 
comprehensive report, be included for the record of this 
hearing, and I am happy to answer any questions that you may 
have.
    And NCAI stands ready to help as a resource, going forward, 
with your continuing work to identify infrastructure needs in 
Indian Country. Thank you.
    Mr. LaMalfa. Thank you. That will be admitted, without 
objection.
    [The prepared statement of Mr. Payment follows:]
    Prepared Statement of the National Congress of American Indians
    On behalf of the National Congress of American Indians (NCAI), 
thank you to the opportunity to provide testimony on ``Improving and 
Expanding Infrastructure in Tribal and Insular Communities.'' NCAI is 
the oldest and largest national tribal organization in the United 
States that is dedicated to protecting the rights of tribal governments 
to achieve self-determination and self-sufficiency. As such NCAI looks 
forward to working with Chairman LaMalfa, Ranking Member Torres and 
members of this Committee to address the infrastructure needs of Indian 
Country, and we look forward to working with you to address tribal 
policy in the 115th Congress.
    There is growing support to address the vast infrastructure needs 
in the United States, and it is vital that tribes are part of any 
infrastructure plan that is proposed by Congress of the Administration. 
NCAI has prepared a report detailing many of the infrastructure needs 
of Indian Country, ``Tribal Infrastructure--Investing in Indian Country 
for a Stronger America.'' This report (attached) is intended as a 
resource to Congress and the Administration as the Federal Government 
undertakes legislation to address the infrastructure needs in Indian 
Country.
    For Indian tribes across the country, there is no more important 
issue than providing for tribal citizens and tribal communities. To do 
that, tribal governments require investment in infrastructure which 
will not only provide the basic services to tribal citizens, such as 
water, housing, safe roads, healthcare facilities and schools, but also 
the opportunity to attract jobs and economic development on tribal 
lands. Indian Country is poised to partner with the Federal Government 
on any legislative or administrative efforts and seeks to do so as a 
governmental partner, keeping in mind the following:

    Tribal Nations are governments: As recognized by the U.S. 
Constitution, Tribal Nations are part of the original American family 
of governments, possessing a legal and political status equivalent to 
that of state governments and foreign nations. Today, the inherent 
sovereignty of Tribal Nations is exercised by 21st century tribal 
governments that are full-fledged governments in every sense of the 
word. They are determining their own citizenship, establishing and 
enforcing criminal and civil laws on their lands, administering 
justice, taxing, licensing, and regulating, among many other functions. 
They are providing a wide range of governmental services, from 
education to healthcare to environmental protection. Like other 
governments, tribal governments recognize and accept the fundamental 
responsibilities of governance--with building and maintaining the vital 
infrastructure upon which their constituents rely among the most 
critical responsibilities. As governments, Tribal Nations need and 
deserve to be at the decision-making table when it comes to developing 
and implementing an infrastructure investment plan for the Nation. They 
deserve to be at the table because they have the capacity, experience, 
and know-how to craft, inform, and execute solutions to the 
infrastructure challenges facing their communities and those of their 
neighbors.

    Indian Country's infrastructure needs are acute and long-standing: 
The infrastructure crisis facing Indian Country is not a recent 
phenomenon. For generations, the Federal Government--despite abiding 
trust and treaty obligations--has substantially under-invested in 
Indian Country's infrastructure, evident in the breadth and severity of 
its unmet infrastructure needs as compared to the rest of the Nation 
(see the following sections for details). In 2009, as one indication, a 
contingent of U.S. Senators penned a letter to the Administration 
citing a $50 billion unmet need for infrastructure on Indian 
reservations. The number of ``shovel ready'' infrastructure projects in 
Indian Country remains too many to count, and many of those have been 
that way for years if not decades. This chronic underinvestment and the 
growing backlog of critical infrastructure projects not only negatively 
impacts the social, physical, and mental well-being of tribal and 
neighboring communities, it hampers the ability of Tribal Nations to 
fully leverage their economic potential and the ability of their 
citizens to fully participate in the American economy. The more than $3 
billion in funding designated for Indian Country by the American 
Recovery and Reinvestment Act supported important first steps in 
addressing Tribal Nations' needs for justice infrastructure, health 
facilities, roads projects, water systems development, and other vital 
infrastructure projects, but collectively they amounted to a ``drop in 
the bucket'' of what it will take to energize self-determined, 
sustainable community development and economic opportunity in tribal 
communities.

    Tribal governments prove that local decision making and solutions 
work best: An extensive body of research built over the past three 
decades concludes that tribal self-determination/self-governance is a 
successful policy which allows tribes the ability to meet the needs of 
tribal citizens through local decision making. Tribal governments know 
best the nature and intricacies of the particular challenges their 
communities face, and are best-positioned and best-equipped to make 
innovative decisions that address the needs of tribal communities. As 
President Ronald Reagan astutely recognized in 1988, ``Tribes need the 
freedom to spend the money available to them, to create a better 
quality of life and meet their needs as they define them. Tribes must 
make those decisions, not the Federal Government.'' Tribal governments 
also boast a growing track record of partnering with other surrounding 
governments (state, county, municipal) to construct and enact solutions 
aimed at addressing shared community challenges, from healthcare to law 
enforcement to public transit.

    Much of Indian Country is an integral part of rural America: Rural 
America faces its own distinct and often daunting infrastructure 
challenges--from existing infrastructure (telecommunications, 
transportation, water and energy infrastructure, etc.) that has long 
since fallen into disrepair to the pressing need to develop the tech-
driven infrastructure necessary to make rural areas economically viable 
now and in the future. Compounding these challenges are the high costs 
of addressing them as compared to more densely populated areas. What's 
more, the vast majority of this country's land area (72 percent) is 
rural. Meanwhile, Indian lands--totaling more than 100 million acres 
spread across 34 states--are predominantly rural, inextricably linking 
the state and fate of Indian Country's infrastructure with that of the 
rest of rural America. For any infrastructure investment plan to be 
truly national, it will need to assess and account for the particular 
and often shared infrastructure needs of rural communities--both Native 
and non-Native. It must also draw on the innovative infrastructure 
development fixes that tribal and other governments that serve rural 
geographies together have forged--including the growing number 
involving intergovernmental and public-private partnerships--for they 
offer important lessons for how to undertake such development 
elsewhere.

    Tribal Nations have proven success in innovative solutions to 
infrastructure needs: In the 1960s, rural Neshoba County in 
Mississippi--home to the Mississippi Band of Choctaw Indians--was one 
of the most economically impoverished areas in the United States. The 
infrastructure was undeveloped with most houses in substandard 
condition, 9 in 10 had no indoor plumbing, and a third had no 
electricity. Seeking to uplift its community, the Band embarked on 
creating a diversified, sustainable economy, appropriately targeting 
the strategic building of its physical infrastructure as a critical 
first order of business. Fifty years later, the Band has not only 
transformed its reservation's quality of life, it has become a major 
economic engine in its part of the state, employing thousands of 
Natives and non-Natives through its suite of Band-owned enterprises. A 
growing number of other Tribal Nations are authoring equally impressive 
stories of community revitalization and local and regional economic 
success empowered by strategic investments in infrastructure 
development. From the Citizen Potawatomi Nation's Iron Horse Industrial 
Park to the Tulalip Tribes' state-of-the-art waste water treatment 
facility to Ohkay Owingeh's Tsigo Bugeh Village, Tribal Nations across 
the country are turning tribal, Federal and other investments in their 
infrastructure into lasting economic and social benefits for Native 
people and other local residents who rely on said infrastructure to 
support a good quality of life.
    However, there still remains great need for infrastructure 
investment in Indian Country. The following chart estimates unmet needs 
for some of the major infrastructure projects in Indian Country along 
with details regarding each of these programs:

      Estimates of Unmet Needs for Infrastructure in Indian Country
------------------------------------------------------------------------
                                           Construction      Deferred
         In Billions of Dollars              Backlogs       Maintenance
------------------------------------------------------------------------
IHS Health Care Facilities, New and                 10.3
 Replacement Cost.......................
IHS Sanitation Facilities Construction               2.5
 backlog................................
IHS Maintenance & Improvement deferred                               0.5
 maintenance backlog....................
IHS Workforce Staff Quarters, new and             0.4409
 replacement units......................
BIE to replace or rehabilitate the 68                1.3
 worst schools..........................
BIE Deferred Maintenance Backlog........                          0.3889
BIA Safety of Dams Deferred Maintenance.                           0.556
BIA Irrigation Program--Rehabilitation                             0.567
 Deferred Maintenance...................
BIA Roads Maintenance Deferred                                     0.289
 Maintenance Backlog....................
Indian Housing, additional 68,000                     33
 housing units..........................
Construction of Tribal Multi-Justice             0.21189
 Centers and Detention Facilities.......
                                         -------------------------------
 
  Total.................................            47.8             2.3
------------------------------------------------------------------------


Indian Health Service Health Care Facilities, New and Replacement Cost: 
        $10.3 billion

    <bullet> Estimated costs to construct the needed additional 18 
            million ft<SUP>2</SUP> of new and replacement space totaled 
            $10.3 billion in 2016.

    <bullet> Existing space in IHS facilities (14 million 
            ft<SUP>2</SUP>) is substantially less than required (27 
            million ft<SUP>2</SUP>) for the 2015 AI/AN user-population. 
            Insufficient capacity and resources severely restrict 
            healthcare services that can be provided. An additional 4.7 
            million ft<SUP>2</SUP> is becoming outdated and should be 
            replaced. Unless these needs are addressed, the growing AI/
            AN population and gradual deterioration of older space will 
            further expand the need.

    <bullet> At the existing replacement rate, a new 2016 facility 
            would not be replaced for 400 years.

    <bullet> Of the U.S. annual health expenditures, about 5 percent 
            are investments in healthcare facility construction. In 
            2013, $118 billion investment in healthcare facility 
            construction equaled about $374 per capita. IHS healthcare 
            facility construction appropriation of $77 million is about 
            $35 per AI/AN. Thus the U.S. per capita annual investment 
            in healthcare facility construction is over 10 times the 
            amount for IHS healthcare facility construction per capita.

Sanitation Facilities Construction backlog: over $2.5 billion

    <bullet> A recent cost benefit analysis indicated that, for every 
            dollar IHS spends on sanitation facilities to serve 
            eligible existing homes, at least a 20-fold return in 
            health benefits is achieved.

    <bullet> Projects are cooperatively developed and transferred to 
            tribes who assume responsibility for the operation of safe 
            water, wastewater, and solid waste systems, and related 
            support facilities. The SFC program receives funds for 
            three types of projects:

          --   Water, Wastewater, and Solid Waste facilities for 
        Existing Homes and/or Communities,

          --   Water, Wastewater, and Solid Waste facilities for New 
        Homes and/or New Communities, and

          --   Special or Emergency projects. The sanitation project 
        need is almost $2.5 billion, including almost 14,000 AI/AN 
        homes without potable water.

    <bullet> With inflation, new environmental requirements, and 
            population growth, the current sanitation appropriations 
            are not reducing the backlog.

IHS Maintenance and Improvement deferred maintenance, alteration and 
        repair backlog: $500 million

    <bullet> In 2015, the maintenance budget ($53.6 million) was 
            sufficient to cover only 77 percent of maintenance needs 
            arising annually even with deferring needed improvements to 
            outdated space. The reported backlog of deferred 
            maintenance, alteration and repair as of the end of year 
            2015 was approaching $500 million.

IHS Workforce Staff Quarters: $440.9 million needed for new and 
        replacement units

    <bullet> Staff Quarters unmet need at existing healthcare sites is 
            $440.9 million. 1100 units are needed to staff IHS and 
            tribal healthcare facilities (recruit and retain health 
            professionals).

Bureau of Indian Education
Need: $1.3 billion to replace or rehabilitate the 68 worst schools
BIE Deferred Maintenance Backlog: $388.9 million

    <bullet> The 2010 estimate for upgrading BIE schools in poor 
            condition to satisfactory condition was $1.3 billion.

    <bullet> At the end of FY 2015, BIA has 82 schools in ``good'' 
            condition, 46 in ``fair'' condition and 55 in ``poor'' 
            condition with an overall average of building conditions at 
            ``fair'' as measured by the Facilities Condition Index. 
            This means the majority of BIE schools (approximately 55 
            percent) are in either poor or fair condition.

BIA Safety of Dams
Deferred Maintenance: $556 million

    <bullet> The Bureau of Indian Affairs (BIA) currently lists 31 
            high- or significant-hazard dams; fund the High-Hazard 
            Indian Dam Safety Deferred Maintenance Fund authorized at 
            $22.75 million annually for FY 2017-2023; fund the Low-
            Hazard Indian Dam Safety Deferred Maintenance Fund 
            authorized at $10 million annually for fiscal year 2017-
            2023.

BIA Irrigation Program--Rehabilitation
Deferred Maintenance: $576 million

    <bullet> The BIA Irrigation Program provides irrigation water to 17 
            projects spanning over 780,000 acres. Among other things, 
            this water helps with the production of over $300 million a 
            year in gross crop revenues. However, most of these 
            projects are nearly 100 years old, reached or exceeded 
            their useful life span, were never fully completed, and/or 
            have extreme deferred maintenance.

BIA Roads Maintenance Deferred Maintenance Backlog: $289 million*
    *Not including tribal roads

    <bullet> The BIA has maintenance responsibility for approximately 
            29,000 miles of roads and 900+ bridges. The road mileage 
            consists of 7,150 miles of paved, 4,720 miles of gravel, 
            and 17,130 miles of unimproved and earth surface roads. The 
            total public road network serving Indian Country is 
            140,000+ miles according to the National Tribal 
            Transportation Facility Inventory. The Office of Indian 
            Services Division of Transportation in Washington, DC 
            provides oversight and distribution for the annual 
            maintenance program.

Indian Housing Block Grant needs additional 68,000 housing units 
        (cost): $33 billion

    <bullet> A recent report stated it would take approximately 33,000 
            new units to alleviate overcrowding and additional 35,000 
            to replace existing housing units which are in grave 
            condition. To meet the total need of approximately 68,000 
            housing units (new and replacement), with the average 
            development cost of a three-bedroom home, the total cost is 
            in excess of $33 billion.

Construction of Tribal Multi-Justice Centers and Detention Facilities
Unmet Need: $211,898,628 (as of FY 2011)
    Prioritization of Infrastructure Projects: As is detailed above, 
the need for infrastructure development in Indian Country is great. The 
lack of sufficient funding has created backlogs that in many cases will 
take decades or longer to clear. The existing process Priority In many 
cases, existing processes at the Federal agencies determine how 
projects are prioritized especially in the case of schools, and health 
clinics.

    How IHS Uses and Distributes Health Care Facilities Construction 
(HCFC) Funds. In the late 1980s Congress directed IHS to develop the 
HCFC priority system. The system was implemented in the early 1990s 
with 27 projects on the initial list. Most projects are major capital 
investments exceeding annual HCFC funding resulting in projects being 
funded over several fiscal years. Projects are funded in phases 
according to acquisition, engineering, and project management 
requirements. Portions or phases of several projects are funded during 
a given fiscal year. This allows several projects to move forward 
simultaneously and helps distribute the funds geographically benefiting 
more than one Area.
    There are separate lists for facility types, for instance, 
Inpatient, Outpatient, Youth Regional Treatment Facilities or Staff 
Housing. Budget documents identify the specific projects off the 
grandfathered HCFC List, the phases and the estimated costs for that 
fiscal year. There are 13 remaining facility projects on the 
``grandfathered Priority List'' with a current estimated completion 
cost of $2.1 billion. Once those 13 projects are funded, the remaining 
$8 billion can be funded with a revised priority system that will 
periodically generate updated lists.

    The current ``Grandfathered'' HCFC Priority List consists of the 
following sites:

    <bullet> Gila River PIMC SE ACC, AZ

    <bullet> Salt River PIMC NE ACC

    <bullet> PIMC Central Hospital & ACC

    <bullet> Whiteriver, AZ

    <bullet> Gallup, NM

    <bullet> Ft. Yuma, AZ

    <bullet> Rapid City, SD

    <bullet> Winslow-Dilkon, AZ

    <bullet> Alamo Navajo, NM

    <bullet> Pueblo Pintado, NM

    <bullet> Bodaway Gap, AZ

    <bullet> Albuquerque West

    <bullet> Albuquerque Central

    <bullet> Sells, AZ

    Bureau of Indian Education Construction List. The BIA Education 
Construction Program reconstructs and rehabilitates BIE schools and 
dormitories. There are 183 BIE schools and dormitories in 23 states, 
and serve approximately 48,000 students from K through 12th grade. In 
addition, BIE owns and operates two post-secondary institutions. The 
Facilities Condition Index is a system used by the BIA to calculate, 
manage and develop constructions plans for repair and rehabilitation of 
school facilities. In FY 2015, there were 82 schools that were 
considered in good condition, 46 in fair condition, and 55 in poor 
condition. It would take approximately $388 million in deferred 
maintenance to bring the schools up to good conditions.

    For Fiscal Year (FY) 2016, the National Review Committee identified 
the 10 schools listed below and invited those schools to present at a 
public meeting in February 2016, in Albuquerque, New Mexico.

    <bullet> Blackwater Community School

    <bullet> Chichiltah-Jones Ranch Community School

    <bullet> Crystal Boarding School

    <bullet> Dzilth-Na-O-Dith-Hle Community School

    <bullet> Greasewood Springs Community School

    <bullet> Laguna Elementary School

    <bullet> Lukachukai Community School

    <bullet> Quileute Tribal School

    <bullet> T'iis Nazbas Community School

    <bullet> Tonalea Redlake Elementary School
    Improving Infrastructure Permitting Processes to Consult With 
Indian Tribes and Gain Consent. As Congress and the Administration 
consider large-scale infrastructure projects across the United States, 
tribal lands and natural resources will inevitably be impacted. Because 
tribal lands and natural resources are a primary source of economic 
activity for tribal communities it is imperative that tribal 
governments are part of the planning process when those projects are 
located on, or near, reservation or on ancestral lands.
    Tribal Nations should be included in infrastructure decision making 
from the very earliest stages, including being involved in key 
decisions regarding priorities for development and tribes should also 
be included in any discussions regarding particular projects. For 
instance, as soon as Federal agencies are discussing projects with 
private parties or state governments, they should also be talking to 
Tribal Nations. Early consultation ensures that problems are identified 
and resolved in a timely fashion, preventing costly delays down the 
line.
    An important part of addressing the Nation-to-Nation relationship 
is, in the context of infrastructure decision making, the need for 
responsible economic development, with a specific focus on how tribes 
can benefit from infrastructure development. Based on the input from 
tribal leaders across Indian Country, NCAI developed a set of 
Principles and Best Practices for Infrastructure Permitting Relating to 
Tribal Nations and the Federal Trust Responsibility that we believe can 
fit into the existing regulatory framework.
    For any project affecting tribal lands, waters, treaty rights, or 
sacred spaces, at the outset the United States must expressly consider 
the following five principles: (1) recognition of tribal sovereignty; 
(2) respect for treaty rights; (3) compliance with the Federal trust 
responsibility, including seeking tribal informed consent; (4) 
upholding all statutory obligations; and (5) ensuring environmental 
justice. How these principles were addressed should be reflected in the 
written record for any decision.
    We also recommend that the Federal Government implement the 
following seven best practices: (1) regional mapping and tribal impact 
evaluation; (2) consultation in early planning and coordination; (3) 
early, adequate notice and open information sharing; (4) funding for 
tribal participation in processes; (5) training for agencies to improve 
understandings of Tribal Nations; (6) creation of tribal impact 
statements and a Trust Responsibility Compliance Officer; and (7) 
evaluation of cumulative impacts and regional environmental impacts.
    Infrastructure permitting must respect the Federal responsibilities 
to Tribal Nations who continue to struggle to protect their lands, 
resources, sacred sites, and cultures in processes that too frequently 
authorize projects despite their threats to these Nations. Time 
invested early to identify a project site that avoids ecologically or 
culturally sensitive areas can lead to a more efficient process and 
shorter overall project time frames, and can even avoid the need for 
Federal reviews, approvals, or licenses pertaining to those resources. 
Similarly, project planning and the submitted proposal should reflect 
the results of early consultations with tribal leaders to ensure the 
proposed project accounts for tribal perspectives and needs up front.

    Streamlining Regulatory Processes. Tribal Nations have also 
consistently requested that the Federal Government modernize outdated 
regulations and statues to provide them with more flexibility and the 
option of greater control over decision-making and self-governance, the 
ability to be more responsive to the needs of their citizens, and to 
bolster economic development in Indian Country. The trust relationship 
and responsibility must be modernized to be consistent with self-
determination and rooted in inherent sovereign authority to create a 
21st century trust for 21st century tribes.
    The first step in this process will be to nominate an Under 
Secretary for Indian Affairs, and implement the Indian Trust Asset 
Management Reform Act. Last year Congress passed an important new law 
authorizing the Secretary of the Interior to establish an Under 
Secretary for Indian Affairs. When established, the Under Secretary 
will report directly to the Secretary and serve as a cross-agency 
advocate for Indian Country to ensure that all agencies and bureaus 
within the Department work together efficiently on tribal issues and 
implement policies that consider their trust obligations to Indian 
tribes. The position will address a major issue that has been raised in 
every significant study of trust management at Interior: the lack of 
clear lines of authority and responsibility to ensure accountability 
for trust reform efforts by the various divisions of the Department of 
the Interior.
    We also urge that the Department of the Interior consider working 
with tribal leaders to adopt many of the latest innovations in 
streamlining approvals for tribal projects. For major projects, the 
agency should develop a Coordinated Project Plan in consultation with 
the tribal applicant. This plan must designate a lead Federal agency 
for project approval, to avoid the problems of stovepiping that so 
frequently cause approvals to bog down. Federal permitting and review 
processes must rely upon early and active consultation with tribal 
governments to schedule the necessary permits and approvals, set 
deadlines with oversight, avoid conflicts or duplication of effort, 
resolve concerns, and allow for concurrent rather than sequential 
reviews.

    Innovation in Financing of Infrastructure Projects in Indian 
Country. As a primary matter, we urge that tribal governments must be 
fully and proportionally included in the direct funding for any 
infrastructure package. These dollars are a sound investment in 
development in rural America, and also a part of the Federal trust 
responsibility to Indian tribes.
    If funding is derived from tax incentives, we urge that tribal 
government be fully included and eligible. Tribal governments should be 
provided with direct access to Federal tax credit programs such as the 
New Markets and Low Income Housing Tax Credit programs--among other 
Federal incentives, which will help spur public-private partnerships to 
rebuild Indian Country infrastructure.
    We urge Congress to consider the urgent and continuing need for 
economic development on Indian reservations in the context of the 
Indian Employment Tax Credit and Accelerated Depreciation for on-
reservation business infrastructure. Both expired on December 31, 2016. 
Congress should make both tax incentives permanent so employers can 
rely on the incentives when planning to locate their business on tribal 
lands.
    Congress should also empower Tribal Governments to access tax-
exempt bond markets. Currently, tribes may only use tax-exempt bonds 
for ``essential government functions.'' The IRS has interpreted this 
provision to exclude economic development as a governmental function, 
while state and local governments frequently use tax-exempt financing 
for development projects. This unnecessarily prevents tribes from 
securing the funding needed to revitalize their communities.
                               conclusion
    Investing in Indian Country's infrastructure furthers tribal self-
governance and self-determination by acknowledging tribal governmental 
parity and the Federal trust responsibility. For any national 
infrastructure investment plan to be effective, it will need to emerge 
from the concerted, coordinated efforts of all governmental players, 
including tribal governments.

                                 *****

The following document was submitted as a supplement to the National 
Congress of American Indians' testimony. This document is part of the 
hearing record and is being retained in the Committee's official files:

    -- `` Tribal Infrastructure--Investing in Indian Country for a 
            Stronger America,'' by the National Congress of American 
            Indians.

                                 ______
                                 

    Mr. LaMalfa. All right, thank you for your testimony.
    Next, I would like to recognize our Chairman Emeritus of 
the Committee on Natural Resources, the gentleman from Alaska, 
to make an introduction of our next panelist.
    Mr. Young. Thank you, Mr. Chairman. And Emeritus means I 
have been here so long I can't be Chairman again.
    [Laughter.]
    Mr. Young. Everybody gives a sigh of relief. But I want to 
congratulate you, and I am confident you will do a great job. 
You have a fantastic Minority partner, and I think we can work 
together on these issues. So, congratulations to both of you.
    Mr. LaMalfa. Thank you, sir.
    Mr. Young. I am sitting, listening to this testimony, and I 
couldn't help but think I have been on this Committee of Indian 
Affairs for a long time, and we have come a long way from where 
we were when we started. We still have a long way to go, and we 
can only do that through leadership. And we have some great 
Alaskan leaders, Native leaders in the state of Alaska. We have 
done a good job, but we are still short. It is a big area, lots 
of different tribes, small tribes, and the larger ones, too.
    But today we have a witness, Andy Teuber, who has been a 
friend of mine. He has been--well, a young man, good leader. He 
is the president of the Alaska Native Tribal Health Consortium, 
which covers the whole state. He also serves as the president 
of the Kodiak Area Native Association.
    Again, I want to stress the fact that we have built a lot 
of clinics. And one of the biggest problems we have, Mr. 
Chairman, is actually running the clinic. Once you build 
something, you have to have the money, you have to have the 
staffing, the maintenance. Otherwise, you defeat yourself.
    So again, Andy, I welcome you to testify before this 
Committee.
    And, Mr. Chairman, congratulations. And I am willing to 
listen to what Andy has to say now.
    Andy, you are up.

  STATEMENT OF ANDY TEUBER, BOARD CHAIR AND PRESIDENT, ALASKA 
       NATIVE TRIBAL HEALTH CONSORTIUM, ANCHORAGE, ALASKA

    Mr. Teuber. Thank you, Chairman LaMalfa and Ranking Member 
Torres. And, most especially, thank you, Chair Emeritus, 
Representative Young. I appreciate you providing my testimony 
for me this morning.
    [Laughter.]
    Mr. Teuber. Indeed, we are good friends, and we rely on our 
Congressman. He is our only Congressman, and he is, in fact, a 
champion of the infrastructure that is so badly needed across 
the state of Alaska.
    As I was introduced, my name is Andy Teuber. I serve as the 
Chairman and the President for the Alaska Native Tribal Health 
Consortium (ANTHC) in Anchorage, Alaska. We co-manage the 
Alaska Native Medical Center with the Southcentral Foundation. 
And that Alaska Native Medical Center is Alaska's only Alaska 
Native tertiary hospital, which serves all 229 tribes in the 
state, and also 158,000 Alaska Native people.
    In addition, I also serve in a primary care capacity, 
managing the Kodiak Area Native Association, a small island in 
the Gulf of Alaska that serves seven communities.
    I want to thank the members of this panel of witnesses for 
their testimony. They covered a great deal of what I intended 
to cover today, and those are three items: the IHS Health Care 
Facilities Construction Priority List, which Mr. Andy Joseph, 
Ms. Kitcheyan, and Aaron Payment have also referred to; also, I 
intend to cover the Sanitation Facilities Construction Program; 
and the Village-Built Clinic Leasing Program.
    First, I will start with the Sanitation Facilities 
Construction Program, as it plays a critical role in the health 
of our communities. Babies born in communities without adequate 
sanitation are 11 times more likely to be hospitalized for 
respiratory infections, and 5 times more likely to be 
hospitalized for skin infections. In villages with very limited 
water service, one in three infants requires hospitalization 
each year for lower respiratory tract infections.
    In Alaska, there are more than 49,000 people in 140 
communities who would significantly benefit from critical water 
and sewer projects, including 31 communities that have never 
had access to water or sewer service. IHS sanitation facilities 
construction funding complements funding provided through the 
EPA and the USDA. However, both agencies have minimum operation 
and maintenance score requirements, as well as requiring 
certified operators, while the IHS has neither of those 
requirements.
    Many of the majority of the unserved communities cannot be 
served by a traditional piped water system, and possess 
virtually no ability to generate the needed revenue to employ 
full-time certified operators. This reality requires regulatory 
flexibility and, in many cases, alternative technology to bring 
water and sewer services to the remaining unserved rural Alaska 
communities.
    With support from the IHS in December of 2013, ANTHC began 
a pilot program, what ultimately became known as PASS, or the 
Portable Alternative Sanitation System, to install completely 
home-based systems to address basic sanitation needs in nine 
homes. We would like to expand PASS to other homes in Kivalina, 
as well as other communities in Alaska, and hope for expanded 
support from IHS for the PASS program. But such alternatives 
are necessary to reach communities in Alaska that cannot be 
otherwise reached by a conventional piped water system.
    Next, I intend to cover the Village-Built Clinic Leasing 
Program (VBC), which was established in 1970, and serves as the 
foundation of the tribal healthcare delivery system in Alaska, 
providing the only local source of care for over 44,000 Alaska 
Native people living in rural isolated communities across the 
state.
    As of June 2016, there were over 160 clinics supported 
through the VBC program. These clinics are primarily staffed 
with community health aides, mid-level practitioners, or 
community health practitioners, and serve as the base for 
visiting physicians, mid-level practitioners, pharmacists, 
dentists, optometrists, and other medical specialists. VBC has 
also served as the patient referral link to the tribal regional 
hospitals and to the Alaska Native Medical Center based in 
Anchorage.
    Over time, the cost to operate and maintain VBCs has 
increased, due to the expanding scope and level of medical 
services provided, expanded healthcare programming, and 
technology to better integrate clinics into the tribal 
healthcare delivery system, as well as meeting the higher 
accreditation standards necessary for certification by 
accrediting agencies like the AAAHC and Joint Commission.
    The IHS has responsibility to fully fund the VBCs. IHS 
provided the first step in fulfilling its responsibility by 
providing an increase of $2 million in payments in Fiscal Year 
2016 for full-service leases that are not eligible for 
maintenance and improvement--or M&I--funds, and a larger-step 
by including an additional $7 million in the IHS Fiscal Year 
2017 congressional justification for such clinics. It is 
essential that the IHS provide funding for VBCs that adequately 
cover the cost to operate them.
    In conclusion, additional funding support and policy 
changes are needed to address the current deficiencies of the 
Indian healthcare infrastructure, and meet the needs of 
American Indian and Alaska Native people.
    Thank you to the members of this Committee, Mr. Chair, 
Ranking Member, Chair Emeritus. I look forward to answering any 
questions.
    [The prepared statement of Mr. Teuber follows:]
   Prepared Statement of Andy Teuber, Chairman and President, Alaska 
Native Tribal Health Consortium; President and CEO, Kodiak Area Native 
                     Association, Anchorage, Alaska
    My name is Andy Teuber, I am the Chairman and President of the 
Alaska Native Tribal Health Consortium (ANTHC), a statewide tribal 
health organization that serves all 229 tribes and more than 158,000 
Alaska Native and American Indian (AN/AI) people in Alaska. ANTHC and 
Southcentral Foundation co-manage the Alaska Native Medical Center, the 
tertiary care hospital for all AN/AIs in Alaska. ANTHC also provides 
statewide health services, including construction and operational 
support for rural sanitation projects, and technical assistance to 
other tribal health organizations for the maintenance and repair of 
regional hospitals and clinics including construction of new 
facilities.
    I am also the President and CEO of the Kodiak Area Native 
Association (KANA), a regional non-profit tribal organization formed in 
1966 to provide health and social services to AN/AI people in the 
Kodiak Island Area. The KANA service area includes the city of Kodiak 
and six Alaska Native villages. ANTHC and KANA are both self-governance 
tribal organizations that compact with IHS to provide health services 
to AN/AIs under the authority of the Indian Self-Determination and 
Education Assistance Act, P.L. 93-638.
    My testimony today will focus on the health care and public health 
infrastructure needs in tribal communities. The healthcare 
infrastructure in tribal communities is in great need of improvement 
and expansion. While there have been some increases in Indian Health 
Service funding over the past several years, the large majority of it 
went toward inflationary and fixed costs, for things such as population 
growth and pay costs increases, which has left the Indian healthcare 
infrastructure largely behind.
    I am going to limit my discussion to three areas in particular 
where, in addition to increased funding, policy changes could improve 
the current system--IHS healthcare facilities construction, sanitation 
facilities construction and village built clinics.
                         health care facilities
    According to the IHS 2016 Report to Congress on healthcare 
facilities need, over half of all IHS-owned healthcare facilities are 
over 30 years and the average age of IHS hospitals is 40 years old, 
nearly four times the average age of private-sector hospitals. And 
unfortunately the number of antiquated IHS facilities is only going to 
get worse unless things change. At the recent rate of IHS healthcare 
facility construction funding, a new facility built in 2016 would not 
be scheduled for replacement for over 400 years.
    As existing facilities age, without renovation or expansion, they 
become increasingly inefficient to operate and costly to maintain. The 
age of facilities also negatively impacts the ability of IHS and tribal 
health programs to efficiently and effectively provide healthcare 
services to AN/AIs in overcrowded and outdated facilities. The quality 
of health care is also compromised when facilities are not adequately 
maintained and kept up to date.
    The IHS report estimated that a total of $10.3 billion would be 
needed for construction of adequate healthcare facilities to serve all 
AN/AIs. The estimated cost just to complete the 13 inpatient and 
outpatient facilities currently on the IHS planned facilities 
construction list is approximately $2.1 billion. At the current level 
of funding for IHS healthcare facilities it would take 20 years to 
complete construction of the existing list, before any funding would be 
available to address the other $8.2 billion needed for facilities 
construction. In Alaska alone, there is a need for $2.16 billion for 
healthcare facility construction, and there are no Alaska facilities on 
the existing construction priority list. As no funds are currently 
provided to IHS for renovation or expansion of existing facilities, the 
current system leaves most IHS Areas, all of which have very old 
facilities, without a way to improve them.
    One way to ensure that all IHS Areas have access to at least some 
resources to renovate and expand existing IHS and tribal health 
facilities would be to ensure that the IHS Maintenance and Improvement 
(M&I) line item is increased. Beginning in FY 2011 through 2015, the 
funding for IHS M&I was insufficient for even basic maintenance and 
repair deficiency needs. This has led to a backlog at the end of 2015 
of nearly $500 million for deferred maintenance, alteration and repair.
    Another option to ensure that all IHS Areas have access to 
resources to address facility needs would be to establish an area 
distribution fund. The reauthorization of the Indian Health Care 
Improvement Act (IHCIA) in 2010 (S. 1790) amended section 301 of IHCIA 
to direct the Secretary ensure that the ``renovation and expansion 
needs of Service and non-Service facilities . . . are fully and 
equitably integrated into'' the IHS healthcare facility priority 
system, and to consult and cooperate with tribes to develop innovative 
approaches to address unmet need for construction of health facilities.
    The establishment of an area distribution fund for the renovation 
and expansion of existing healthcare facilities would provide funding 
for all IHS Areas and also address the dire unmet need to renovate and 
expand existing IHS and tribal health facilities to provide more 
efficient and better care to AN/AIs throughout Indian Country.
                   sanitation facilities construction
    Sanitation facilities play a critical role in the health of our 
communities. Babies in communities without adequate sanitation are 11 
times more likely to be hospitalized for respiratory infections and 5 
times more likely to be hospitalized for skin infections. In villages 
with very limited water service, one in three infants requires 
hospitalization each year for lower respiratory tract infections. In 
Alaska alone we had over $1.2 billion in unmet need for sanitation 
facilities construction in 2016. Funding for IHS sanitation facilities 
construction finally saw an increase in FY 2016, but that was after 
many years of no increases. Given the enormous, growing unmet need and 
the significant health benefits derived from sanitation facilities 
continued support of IHS sanitation facilities construction is 
essential, but regulatory and policy flexibility is also needed.
    In Alaska, there are more than 49,000 people in 140 communities in 
rural Alaska who would benefit from critical water and sewer projects, 
including 31 communities that have never had water or sewer service. 
According to the state of Alaska in 2015, over 3,300 rural homes have 
been identified as lacking running water and a flush toilet. Most of 
these are Alaska Native homes in the 31 unserved communities.
    IHS sanitation facilities construction funding complements funding 
provided through EPA and USDA. Unlike funding through the Environmental 
Protection Agency (EPA) and the United States Department of Agriculture 
(USDA), IHS funding has no minimum operation and maintenance score 
requirements. While systems that have robust operation and maintenance 
programs are more likely to be funded, this does not prevent funding 
from being allocated. Additionally, rural Alaska communities often 
struggle to obtain qualified and certified operators. EPA funding 
requires systems be operated by certified operators, whereas IHS 
funding does not have this requirement.
    Because of regulatory barriers on USDA and EPA grants for water and 
sewer, IHS' cooperation and support is critical to providing water and 
sewer services to most of the 31 remaining unserved rural Alaska 
communities. Many of these unserved communities cannot be served by a 
traditional piped water system, and therefore need an alternative 
solution.
    With support from IHS, in December of 2013 ANTHC began a pilot 
project, what ultimately became known as the portable alternative 
sanitation system (PASS), to install completely home-based system to 
address basic sanitation needs in nine homes. A report on PASS was just 
issued (see Attachment) that was very positive regarding the 
effectiveness of the system. We would like to expand PASS to other 
homes in Kivalina as well as other communities in Alaska and hope for 
expanded support from IHS for PASS or other such alternative systems 
that are necessary to reach the communities in Alaska that cannot be 
reached by conventional piped water systems.
                   village built clinic lease program
    Established in 1970, the Village Built Clinic (VBC) program serves 
as the foundation of the tribal healthcare delivery system in Alaska, 
providing the only local source of care for over 44,000 Alaska Native 
people living in rural, isolated communities across the state. As of 
June 2016, there were over 160 clinics supported through the VBC 
program.
    These clinics are primarily staffed with Community Health Aides 
(CHAs) or Community Health Practitioners (CHPs), both essential to 
carrying out the congressionally-mandated Community Health Aide Program 
(CHAP) authorized by section 119 of the Indian Health Care Improvement 
Act. Over 80 percent of clinics supported by VBC leases are owned and 
operated by small, rural communities.
    VBCs serve as the base for visiting physicians, mid-level 
practitioners, pharmacists, dentists, optometrists, and other medical 
specialists, as well as the referral link to the tribal regional 
hospitals and to the Alaska Native Medical Center based in Anchorage. 
VBCs are the local contact and emergency station for public health and 
emergency preparedness efforts in these communities.
    Over time, the cost to operate and maintain VBCs has increased due 
to the expanding scope and level of medical services provided; expanded 
healthcare programming and technology to better integrate clinics into 
the tribal healthcare delivery system; as well as meeting the higher 
accreditation standards necessary for certification by the Joint 
Commission.
    Yet current funding from the Indian Health Service only covers 
approximately 30 percent of the clinic's ongoing operating costs. 
Current lease payments for most of the clinics have not been 
significantly increased in over 20 years, aside from a small increase 
in FY 2016. In addition, the current VBC lease amounts provide 
virtually no funds for basic rent, long-term maintenance and 
improvements, depreciation, or replacement reserves needed to sustain 
services in the community. This lack of funding poses an immediate and 
significant threat to the substantial investment made by the Federal 
Government in establishing the VBC program.
    Without adequate VBC funding, community health aides are forced to 
provide services in unsafe facilities with insufficient resources. 
Individual communities are increasingly forced to subsidize the day-to-
day operating costs of their clinics, defer long-term maintenance and 
improvement projects, reduce clinic operations, and forgo funding 
depreciation and replacement reserve funds. Nearly all of these 
communities are not located on the road system and without access to 
the electrical grid, have virtually no tax or revenue base.
    Many of Alaska's villages are unable to maintain support of their 
VBC, with serious consequences for the health and safety of residents 
living these remote communities. Tribal health organizations have 
subsidized emergency and routine costs with their limited funds, but 
they cannot sustain these subsidies while continuing to operate their 
other programs.
    In fact, some VBCs have closed, suspending CHAP services and 
cutting off the only local source of care. This lack of access at the 
local level necessitates costly travel as primary and preventive 
services become increasingly unavailable, diminishing the otherwise 
available resources at the secondary and tertiary levels of care.
    The IHS has a legal responsibility to fully fund the VBCs. IHS 
provided the first step in fulfilling its responsibility by providing 
an increase of $2 million in payments in FY 2016 and a larger step by 
including an addition $7 million in the IHS FY 2017 Congressional 
Justification. It is essential that IHS provide funding for VBCs that 
adequately cover the costs to operate them.
                               conclusion
    I commend this Committee for holding this hearing on this important 
subject. It is clear that additional support and policy changes are 
needed to address the sagging Indian healthcare infrastructure. Thank 
you for the opportunity to provide this testimony.

                                 *****

The following document was submitted as a supplement to Mr. Teuber's 
testimony. This document is part of the hearing record and is being 
retained in the Committee's official files:

    --  Portable Alternative Sanitation System, Final Report--Kivalina, 
            Alaska, by the Alaska Native Tribal Health Consortium.

                                 ______
                                 

    Mr. LaMalfa. Thank you, Mr. Teuber. I appreciate it. The 
Chair now recognizes Mr. Pula to testify.

 STATEMENT OF NIKOLAO PULA, ACTING ASSISTANT SECRETARY, OFFICE 
     OF INSULAR AFFAIRS, U.S. DEPARTMENT OF THE INTERIOR, 
                         WASHINGTON, DC

    Mr. Pula. [Speaking native language] from Guam and 
Commonwealth of the Northern Mariana Islands. And good old top 
of the morning from the U.S. Virgin Islands.
    Mr. Chairman and members of the Subcommittee on Indian, 
Insular, and Alaska Native Affairs, thank you for the 
opportunity to speak regarding the Office of Insular Affairs 
capital infrastructure projects program for the U.S. 
territories of Guam, American Samoa, the United States Virgin 
Islands, and the Commonwealth of the Northern Mariana Islands.
    The 1996 passage of Public Law 104-134 established the CIP 
program, approximately $28 million in annual current mandatory 
funding. CIP funds address a variety of infrastructure needs in 
the U.S. territories, including critical infrastructures such 
as hospitals, schools, wastewater, and solid waste systems. 
These critical infrastructure improvements not only benefit the 
local population, but they attract new investment and economic 
development to the territories.
    These funds are allocated among ports, hospitals, schools, 
water, public buildings, solid waste, energy, and public 
safety. This allocation is depicted in my written statement as 
a pie chart to show the relative emphasis given to each 
category of projects. For example, 30 percent goes to schools.
    OIA CIP program often yields positive results for our 
island communities. For example, in Guam, the $3 million public 
health environmental laboratory was completed last year. It was 
designed to identify vector-borne diseases that make way across 
the Pacific.
    In American Samoa, $8 million went to procure a 134-foot 
ship, the MV Manu'atele, that now plies the waters between 
Manu'a and the main island of Tutuila, providing both cargo and 
passengers transport.
    In the Virgin Islands, the 388-year-old Fort Christian was 
renovated just in time for the centennial celebration 
commemorating the transfer of the United States Virgin Islands 
from Denmark to the United States. They will be commemorating 
that at the end of this month. It will be a significant tourist 
attraction.
    In the CNMI, $29 million in CIP funds facilitating the 
transformation of the Puerto Rico dump into a public park next 
to the lagoon for residents and tourists to enjoy. It will be 
dedicated next week.
    Last year, $4.9 million in CIP funding was used to replace 
the HVAC equipment at the Saipan Hospital, and it was later 
certified by CMS.
    While numerous CIP projects are locally conceived and 
promoted, OIA has assisted on numerous occasions with 
substantial sums of CIP funding that have brought territorial 
compliance with Federal directives and court orders. The 
funding serves a wide variety of purposes, and enjoys the 
support of the local communities and governors.
    Beginning with 2004, OIA implemented a competitive 
allocation system for the $28 million in mandatory CIP grants. 
The annual allocation is made on the basis of set competitive 
criteria that measured a demonstrated ability of the 
governments to exercise prudent financial management practices, 
and to meet Federal grant requirements. OIA CIP program has two 
goals: assist territorial governments with infrastructure 
funding, and encourage improved financial management by the 
territorial governments.
    The governors of Guam, American Samoa, the U.S. Virgin 
Islands, and the Commonwealth of the Northern Mariana Islands 
assert that capital improvement needs in the U.S. territories 
amount to over $1 billion. Much of the public infrastructure in 
the U.S. territories is well used, and difficult for small 
communities to replace or upgrade. Overall, the territory 
school facilities average 40 years of age, and show the marks 
of generations of school children and the effects of the 
tropical climate.
    The governors' top priorities for the new and replacement 
infrastructure include hospitals in American Samoa and the U.S. 
Virgin Islands; high schools in Guam; and enlargement of the 
landfill in Saipan, Northern Mariana Islands.
    Aging infrastructure can create risks to human health, a 
diminishment of educational opportunities for youth, and a 
less-than-desirable environment for cultivating an investment 
in territorial economies.
    In conclusion, thank you for this opportunity to present 
testimony on the Office of Insular Affairs' capital 
infrastructure project program, and we look forward to 
continuing to work with the Committee on this issue. Thank you.

    [The prepared statement of Mr. Pula follows:]
 Prepared Statement of Nikolao I. Pula, Acting Assistant Secretary of 
             the Interior for Insular Areas, Washington, DC

    Mr. Chairman and members of the Subcommittee on Indian, Insular, 
and Alaska Native Affairs, thank you for the opportunity to speak 
regarding the Office of Insular Affairs' (OIA) capital infrastructure 
project (CIP) program for the U.S. territories of Guam, American Samoa, 
the United States Virgin Islands and the Commonwealth of the Northern 
Mariana Islands (CNMI).

            the cip program of the office of insular affairs
    The 1996 passage of Public Law 104-134 established the CIP program 
with $27.72 million in annual current mandatory funding. CIP funds 
address a variety of infrastructure needs in the U.S. territories, 
including critical infrastructure such as hospitals, schools, 
wastewater and solid waste systems. These critical infrastructure 
improvements not only benefit the local population, but they attract 
new investment and economic development to the territories.

                      allocation of oia cip funds
    OIA CIP funds are allocated among ports, hospitals, schools, water, 
public buildings, solid waste, energy, and public safety. This 
allocation is depicted in my written statement as a pie chart to show 
the relative emphasis given to each category of project.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


                          positive results

    OIA's CIP program often yields positive results for our island 
communities. For example--

    In Guam, the $3 million public health environmental laboratory was 
completed in 2016. It was designed to identify vector-borne diseases 
that may make their way across the Pacific.
    In American Samoa, the $8 million, 134-foot ship, the MV 
Manu'atele, now plies the waters between Manu'a and the main island of 
Tutuila, providing both cargo and passengers transport.
    In the Virgin Islands, the 388-year-old Fort Christian was 
renovated just in time for the centennial celebration commemorating the 
transfer of the United States Virgin Islands from Denmark to the United 
States. It will be a significant tourist attraction.
    In the CNMI, $29 million in CIP funds facilitated the 
transformation of the Puerto Rico dump into a beautiful public park 
next to the lagoon for residents and tourists to enjoy. It will be 
dedicated this month. In 2016, $4.9 million in CIP funding was used to 
replace the HVAC equipment at the Saipan hospital. CMS certification 
followed.
    While numerous CIP projects are locally conceived and promoted, OIA 
has assisted on numerous occasions with substantial sums of CIP funding 
that have brought territorial compliance with Federal directives and 
court orders. The funding serves a wide variety of purposes and enjoys 
the support of the local communities and governors.
                     competitive allocation system

    Beginning with 2005, OIA implemented a competitive allocation 
system for the $27.72 million in mandatory CIP grants. It is based on a 
premise that the annual $27.72 million will be limited to defraying 
capital costs for the U.S. territories.
    The governments of the U.S. territories compete each year for a 
portion of the guaranteed funding, which they use for CIP in addition 
to other assistance or local funding that might be available.
    Base level funding was established in 2005, utilizing historic CIP 
trends with an overlay of the competitive allocation system 
requirements. The allocation system was adjusted for fiscal year 2012 
and again for 2017. The performance of each territory was analyzed, as 
required in the Covenant section 702 funding agreement of 2004 between 
OIA and the CNMI.
    For fiscal year 2017, OIA's CIP funding will be distributed 
follows:

 
 
 
             American Samoa               $9,780,000
             CNMI                          9,249,000
             Guam                          5,911,000
             U.S. Virgin Islands           2,780,000
                                      -----------------
             TOTAL                       $27,720,000
 


    The determination of the annual allocation is made on the basis of 
a set of competitive criteria that measure the demonstrated ability of 
the governments to exercise prudent financial management practices and 
to meet Federal grant requirements.
    OIA's CIP program has two goals: assist territorial governments 
with infrastructure funding, and encourage improved financial 
management by the territorial governments.
       the territories' stated capital improvement project needs
    The governors of Guam, American Samoa, the United States Virgin 
Islands, and the Commonwealth of the Northern Mariana Islands assert 
that the capital improvement needs in the U.S. territories amounts to 
over $1 billion. Much of the public infrastructure in the U.S. 
territories is well-used and difficult for the small communities to 
replace or upgrade. Overall, the territories' school facilities average 
40 years of age, and show the marks of generations of school children 
and the effects of the tropical climate. The governors' top priorities 
for new and replacement infrastructure include hospitals in American 
Samoa and the Virgin Islands, high schools in Guam and enlargement of 
the landfill in Saipan, Northern Mariana Islands. Aging infrastructure 
can create risks to human health, a diminishment of educational 
opportunities for youth, and a less than desirable environment for 
cultivating tourism and investment in territorial economies.
                               conclusion
    Thank you for this opportunity to present testimony on OIA's 
capital infrastructure project program, and we look forward to 
continuing to work with the Committee on this issue.

                                 ______
                                 

Questions Submitted for the Record by Representative Sablan to Nikolao 
      Pula, Acting Assistant Secretary, Office of Insular Affairs

Mr. Pula did not submit responses to the Committee by the appropriate 
deadline for inclusion in the printed record.

    Question 1. When was the CNMI baseline under the CIP program 
reduced from $11 million to $9 million and why?

    Question 2. How would you say that the amount of funding provided 
under CIP compares to the infrastructure needs of the Insular Areas? Is 
it enough to meet the needs?

    Question 3. As you know, President Trump is proposing a $1 trillion 
program to improve our Nation's infrastructure. Naturally, the Insular 
Areas are hoping that they will be able to benefit from this initiative 
to finally have some of their long-standing addressed.
    Has OIA have done an inventory or assessment of the infrastructure 
needs of the territories?

    Question 4. You mentioned that insular governors are asserting that 
their capital improvement needs exceed over $1 billion. What accounts 
for infrastructure projects generally being more costly in the islands? 
Is it because all project materials have to imported over long 
distances?

    Question 5. Questions have been raised in the past by GAO and 
others, about internal control weaknesses in insular governments which 
have led to mismanagement of OIA grants. Do you have a sense of whether 
such concerns have been corrected? Are you still seeing cases of abuse 
or fraud in the expenditure of CIP grants?

    Question 6. U.S. territories have had a history and culture of 
using diesel engines to generate energy. This has led to much higher 
prices delivering energy to residents, $.25 and higher per/kilowatt 
hour. However, I understand that OIA began an initiative in 2010 to 
encourage utilizing advanced energy systems to help bring their costs 
down by burning less fuel and taking advantage of indigenous sources of 
energy.
    Can you comment on whether OIA continues to support its past 
initiative, how it has assisted our Insular Areas create new energy, 
and are you able to quantify any savings (past and future) that 
territories will realize resulting from continuing to pursue advanced 
energy system solutions?

                                 ______
                                 

    Mr. LaMalfa. Thank you, Mr. Pula, for your testimony. And 
again, we thank the panel for all of your participation today, 
and the effort that it takes to get here and to be prepared for 
it.
    And now, reminding our members of the Committee that there 
is, under Rule 3(d), a 5-minute limit on questions--we have to 
live under the same rules as everybody else, as American 
people. The Chairman will now recognize Members for any 
questions they may wish to ask the witnesses. And, as I see, 
our Chairman of the Natural Resources Committee, Mr. Bishop, is 
here. I would offer you that first shot.
    He wants to go last. OK. Also, normally, the Chairman would 
go first. But, as I know, our Ranking Member has two places to 
be at one time. I would offer her the first question, and I 
will go second, if you wish.
    Mrs. Torres. That is very kind of you. Thank you very much, 
Mr. Chairman. And, once again, thank you to our witnesses for 
being here.
    Mr. Payment, I want to applaud you on the report that you 
highlighted and entered into the record on tribal 
infrastructure that your organization, NCAI, recently released. 
And I wanted to commend you and the staff at NCAI for putting 
together such a comprehensive document. This is very 
informative, and I would recommend my colleagues to review it 
for further information.
    I specifically like the connection that you have made, or 
that the report has made, between the infrastructure of rural 
America and Indian Country, and how their fate is tied 
together. I wonder if you could expand more on that, how rural 
communities and tribes could possibly work together on 
infrastructure needs. What does that look like? Is it JPAs that 
must be formed between the two governmental organizations? What 
is your opinion on that?
    Mr. Payment. Oh, I have a perfect example for you. I am 
glad you asked me that question.
    In my community, the last time that we had access to some 
infrastructural investment dollars a few years back, we 
acquired additional property outside of the city limits and 
outside of our existing reservation. And when we first started, 
we put all the systems in place for wells and septics, and 
found there was a contaminant, a carcinogen. So, we were doing 
bottled water for a long time.
    Then, we gained access to these infrastructural dollars. We 
partnered with IHS sanitation dollars, with the city, with the 
township, and with the county. So, it was a win-win-win-win 
situation. In doing so, we helped pay down the infrastructure 
for the city by 20 percent of the time period for their debt 
retirement; and, in doing so, we did a contractual annex 
through the township, which is not easy to do, as you know, in 
local government. But everybody had a piece of the pie, and 
everybody benefited from it.
    And in our rural communities, that is essential. In the 
Upper Peninsula of Michigan, we are all rural. In order for us 
to reach out and provide basic sanitation and sewer to our 
communities, we have to have those partnerships. So 
infrastructure, as we look forward for infrastructure 
investment, anything that can facilitate that kind of 
cooperation with tribes and local governments and the state to 
benefit from it, I would encourage that.
    Mrs. Torres. How could we do more of that, encouraging 
other tribes and local governments to do more of that?
    Mr. Payment. I would say create incentives for it, tax bond 
financing incentives, to collaborate with tribes to do that.
    But I also think, while we are requesting specific funding 
for Indian Country, I think if we build into the 
infrastructural request incentives for states and local 
governments to collaborate with tribes; it doesn't happen 
automatically. And in our community, we have a long-term good 
relationship with the local community. But I think creating 
those incentives might facilitate that.
    Mrs. Torres. Rural communities, though, in itself, they 
don't have, necessarily, employees and the technical expertise 
to be able to do that. Is there a need to help, in order to 
bring those two together, to collaborate in projects? Is there 
a need to increase support for technical assistance for such 
partnerships?
    Mr. Payment. Absolutely. If we limit our talent pool from 
what we already have, when we know we already do not have 
resources, then we are unduly limiting ourselves.
    So, additional technical expertise to identify need--we are 
limited in transportation funding and housing funding, based on 
our collection of data. So, providing technical assistance to 
bring tribes along to help collect this data--we look like we 
are going into an era of being able to justify our programs and 
services and funding. I think that technical assistance is 
critical.
    Mrs. Torres. I have less than a minute, so let me refer to 
Ms. Kitcheyan.
    Can you expand on how lack of funding for the housing for 
medical professionals is affecting Indian Country, especially 
in rural tribal areas?
    Ms. Kitcheyan. There is a lack of housing on the 
reservation, and many of our rural areas do not have the 
capability to recruit or retain our health professionals. They 
drive great distances to come to work, and they----
    Mrs. Torres. Is this another partnership that could be 
realized between rural communities and Indian Country, to build 
housing outside of reservations?
    Ms. Kitcheyan. I think tribes need to start looking and 
thinking outside the box in looking for other funding sources 
outside of private investors, philanthropy, and different 
things that could be available to tribes, through building 
those partnerships.
    And these doctors burn out. They work long shifts, and then 
they have to drive great distances.
    Mrs. Torres. Thank you. My time has expired, I yield back. 
Thank you, Mr. Chairman.
    Mr. LaMalfa. You are welcome. Recognizing myself, let me 
follow up with Mr. Payment here on what you were just speaking 
of.
    Beyond tax incentives, what other incentives might be 
available that Congress could consider to be helpful? Yes, Mr. 
Payment, yes.
    Mr. Payment. OK. So new markets and low-income housing tax 
credits. But specifically, what I am looking for is, in the 
announcement that we put drivers in place that encourage local 
municipalities that have their infrastructural needs as well to 
reach out to and give points and credits toward the 
infrastructural dollars that might be available.
    Again, in some communities, it is not automatic. And I 
think it is a win-win situation when we bring to bear and we 
collaborate with local government.
    Mr. LaMalfa. All right, thank you.
    Ms. Kitcheyan, coming back to some of our earlier 
testimony, as well, the IHS also maintains a priority list for 
sanitation facility projects. So, hearing how it has gone with 
the hospital priority system, are they similar? Do you know? Is 
that priority list established using a similar methodology or 
criteria, so to speak, as the healthcare facility construction, 
which again, we are going back to the 1980s in its 
establishment and 1990s in implementation.
    Ms. Kitcheyan. We understand that list is to be re-
evaluated, but tribes do not have control over that list. So, 
we look toward IHS to give full consideration----
    Mr. LaMalfa. Well, I understand IHS maintains that list for 
sanitation facilities. But I just wondered, is it the same 
system, or is it as old a system as the hospital construction 
priority system that we were speaking of earlier?
    Ms. Kitcheyan. It is a dated system, and it continues to 
address our real needs. So, along with our data technology, we 
have a dated system of prioritizing these needs.
    Mr. LaMalfa. Well, you say it is a data system, but again, 
is it the same as the hospital one, or more or less only for 
sanitation?
    Ms. Kitcheyan. Yes, it is the same.
    Mr. LaMalfa. So is it about as----
    Ms. Kitcheyan. The criteria is different, but we will 
provide some follow-up information to explain the differences.
    Mr. LaMalfa. OK. Do you find there is some of the same 
frustration? Is it as speedy as it is for the hospital 
construction system?
    Ms. Kitcheyan. It is extremely frustrating, and----
    Mr. LaMalfa. OK, all right. I thank you for that.
    Last month, the GAO added Indian health on its biannual 
risk list. What are some of the unmet need impacts for the 
quality of care being provided at health facilities with that 
new information?
    Ms. Kitcheyan. What is--excuse me, I don't understand.
    Mr. LaMalfa. Well, I said the GAO added Indian health on 
its biannual high risk list. Can you discuss how the unmet need 
impacts the quality of care being provided at the health 
facility?
    Ms. Kitcheyan. Certainly. It is the underfunding of these 
facilities and these equipments that are leading to the 
inequality of patient care across America. We have sanitation 
equipment that is being--we have people washing tools by hand. 
We have sanitation equipment that is dated and broken. And, 
rather than the lack of funding to address those needs, we have 
facilities who are making their own way. And that is extremely 
dangerous for the patient, for that infection in the hospital.
    And for something as simple as that, I had mentioned 
unnecessary deaths. This underfunding leads to unnecessary 
deaths. And it is like a domino effect.
    Mr. LaMalfa. What about the Health Information System, the 
IT system used by IHS? Is that keeping up?
    Ms. Kitcheyan. RPMS is old. I mentioned it is a ticking 
time bomb. It is more expensive to continue to drag it out than 
it is to provide the resources to just do away with it. But the 
technical assistance is not there, the programmers are 
retiring, and it is just not feasible for tribes to continue to 
put money into this system with no positive outcome.
    Mr. LaMalfa. OK. Thank you.
    Mr. Honanie, indeed, natural resources are a very important 
part of your tribe's economic base and, you know, coal being 
very important to the tribe's income. What are you facing these 
days in the further development of coal or other energy 
possibilities that would be, indeed, an important part of your 
economic base? What kind of regulations or other infrastructure 
challenges are there that might be keeping you from developing 
more?
    Mr. Honanie. Thank you for that question, sir. The current 
situation is the coal mining on the reservation, the coal is 
sold to the Navajo generating plant for producing electricity. 
But with the proposed closure after 2 years, we face this 
dilemma. And our dilemma and challenge is who do we market this 
coal to, much less how do we transport the coal from mining 
area to, say, a railroad to deliver the coal to, say, the West 
Coast, East Coast, wherever we may have a market for. So----
    Mr. LaMalfa. Is the transportation of the coal also impeded 
by being surrounded?
    Mr. Honanie. The transportation of coal is strictly from 
the mine to the generating plant at this time.
    Mr. LaMalfa. OK.
    Mr. Honanie. It does not go beyond that. So, our thought is 
that we would need infrastructure, such as a railroad, to be 
able to mine the coal and to transport the coal to the rail 
line that runs across northern Arizona to ports where we can 
export it or sell to other potential customers.
    Mr. LaMalfa. OK, thank you. I have blown through my time. I 
will now recognize our Chairman Emeritus for his 5 minutes of 
questions.
    Mr. Young. Thank you, Mr. Chairman.
    Andy, I appreciated your testimony. But in your testimony 
is that the IHS funding covers approximately only 30 percent 
operating costs of the villages clinics built in Alaska. Can 
you describe the impact of that, the underfunding, and how is 
it made up? Who pays the 70 percent?
    Mr. Teuber. Thank you, Chair Emeritus, for your thoughtful 
question. The challenges that are confronted in rural Alaska 
and elsewhere, where funding is lacking for the ongoing 
operations of these clinics, is one of many challenges. 
Workforce, transportation costs, the communications that were 
referred to by members of this panel of witnesses, all of these 
things compound and cascade.
    When the IHS fails to fully fund the ongoing operations and 
maintenance of these village-built clinics, for instance, it 
hampers those communities in the delivery of health care. In 
many of our communities across the state, hours have to be 
restricted, the hours of operation, obviously, are important 
for access to care. The clinics fall into a state of disrepair. 
The opportunity for improving energy efficiency and 
effectiveness is lost, and the increasing costs are exacerbated 
by the ability of these tribes and organizations to recruit 
individuals who would be working in those facilities.
    Many of our clinics across the state have had to close. 
Basic health services, when they are not provided, compound, 
and we find that the ongoing costs for delivery of services to 
individuals who have been precluded from accessing primary care 
and preventative care services early on in their communities is 
exponentially higher in treating some of the healthcare 
disparities and outcomes that we have seen encountered across 
our state, outcomes like the highest levels of heart disease, 
cancers, diabetes and pre-diabetes, childhood obesity, many of 
the behavioral health issues that we are seeing across the 
Nation, opioid addictions. So, I appreciate your question.
    Mr. Young. Well, Mr. Chairman, this all leads up to money. 
That is really our problem.
    But I want to stress, Andy, again. I have a clinic in Fort 
Yukon. Is that clinic leased to the IHS for the Tanana chiefs, 
or is that clinic operated by the Tanana chiefs? And how does 
that work, as far as dollars go? I mean do we just add more 
money and it gets there, or--who pays for that clinic, when 
they only cover 30 percent?
    Mr. Teuber. Yes, thank you for your question. Oftentimes, 
and in Fort Yukon, the communities end up owning facilities 
that they end up leasing to the Indian Health Service. The 
Indian Health Service then reserves those facilities for the 
use and occupancy by providers that are either direct service 
or self-governance individuals who provide those services 
within those communities.
    So, in Fort Yukon and across the state, when village-built 
clinic leases are in the $1,000- to $2,000-a-month range, and 
the cost of fuel exceeds $3,000 or $4,000 a month, the 
community has to find ways to just keep the heat on and the 
lights on.
    So, the problem is 10-fold when it comes to the 
deterioration of those communities' clinics; and so the answer, 
as you have stated, is money, and that if the tribes and tribal 
organizations that operate these clinics had more resources, 
then they could do a better job delivering sufficient health 
care.
    Mr. Young. Mr. Chairman, I suggest to staff--remember, the 
President does not write the budget, we do. And I think we have 
a responsibility to make sure that the Indian Health gets some 
money. We all should work for that, so we can take care of some 
of these problems, because we do have a responsibility, a trust 
responsibility to make sure it works.
    I want to thank the panel and thank you, Mr. Chairman.
    Mr. LaMalfa. Thank you, sir. I appreciate it. We now 
recognize Ms. Bordallo for 5 minutes.
    Ms. Bordallo. Thank you very much, Mr. Chairman. And I 
would like to congratulate you on your leadership role with 
this Subcommittee, and also our Ranking Member, who had to 
leave, and to our witnesses for being here.
    The territories face unique challenges when dealing with 
infrastructure projects and the needed resources. And many 
times we are not included in Federal funding opportunities or 
formulas that do not truly recognize our needs.
    Further, I would like to point out our distance from the 
U.S. mainland. And I have five Members here this morning, 
including our esteemed leader, Mr. Bishop, and American Samoa--
I think she just stepped aside--and Ms. Puerto Rico, and the 
CNMI, and Guam. We all traveled there on a CODEL. Very 
interesting. We visited all the territories, and so forth. But 
they can attest to the long distance. And this makes it 
difficult to source needed materials, and often we are 
forgotten when it comes to funding.
    Additionally, due to our local workforce, it is not being 
sufficient among our own labor, so we have to rely on foreign 
labor to supplement these workforce challenges. And I will just 
let you know that Guam is about--Guam and CNMI--approximately 
9,000 miles from the mainland. So, all of this contributes 
greatly to increased cost of our infrastructure.
    As Guam's representative, I have worked to have Guam and 
the other territories treated equitably in Federal funding 
opportunities. But it has been inadequate. And I am even more 
concerned with findings by the OIA that, out of about $80 
million in Federal infrastructure funding available to the 
territories, only about $20 million was utilized last year. And 
that is including all of us--I mean the $20 million divided 
among all of us. And at a time when our governments are 
financially strained, those resources could have been used for 
capital improvement projects that have been stalled, due to 
lack of funding.
    For example, Guam's only commercial port is endeavoring to 
expand its capabilities, but lacks a dedicated funding source 
that TIGER grants have been insufficient in providing. 
Additionally, Guam's public auditor recently reported that on 
Guam agencies spend about $14 million per year in renting 
space.
    So, I hope that the OIA and Federal partners will provide 
further guidance and assistance to territories, so that we can 
better utilize Federal opportunities. I do appreciate the small 
increase that Guam received from OIA's CIP grant program, and 
let me explain that. Twenty-eight million dollars was 
allocated. Guam received $6 million. And, with that increase 
last year, only $900,000. Very small. But again, I think we are 
utilizing a disproportionate share of resources available to 
us.
    I have a question for Mr. Pula. Mr. Pula, as I noted, 
Guam's challenge is that many of our infrastructure projects 
have been lacking funding for years and years. And, aside from 
much-needed upgrades to our port, for example, there are 
several uncompleted bridge and road projects in southern Guam 
that make it nearly impossible for normal traffic flow. It is a 
safety hazard, a quality of life issue, and an environmental 
liability.
    So, my question is how is the Department of the Interior 
working within the Administration to consider funding for the 
territories, and ensure that we are included in increases in 
funding, as the Trump administration plans much, much more 
money for infrastructure?
    Mr. Pula. Thank you, Congresswoman. You are absolutely 
correct about the needs and the demands in the U.S. territories 
for years, and the limited funding that the Department has in 
the CIP program, with the Office of Insular Affairs.
    To respond to your questions, as I had mentioned in my 
testimony, the governors of the four territories have submitted 
their list, and it is about $1 billion of their needs for 
infrastructure. With the new Administration's notion on 
infrastructure increase, it is too early to say anything about 
how that is going to develop. But we are working within the 
Department, and also with the list provided by the governors. 
Hopefully, as time goes on and it is fleshed out, we will be 
able to do some work in that regard for the territories.
    Ms. Bordallo. Well, my only answer to that is I hope that 
your voice is going to be loud and clear for the territories, 
Mr. Pula.
    Mr. Pula. We will do our best.
    Ms. Bordallo. Mr. Chairman, I have a second round, but I am 
going to give the others an opportunity.
    Mr. LaMalfa. All right. Thank you, Ms. Bordallo. 
Recognizing now our new Vice Chair of the Subcommittee, Ms. 
Gonzalez. Congratulations, as Vice Chair.
    Miss Gonzalez-Colon. Thank you, Mr. Chair. Buenos dias to 
the people of Puerto Rico.
    I have a question to you, Assistant Secretary Pula. What is 
the estimated total cost of the capital improvements needed in 
the U.S. territories?
    Mr. Pula. I am sorry, I missed--total cost of?
    Miss Gonzalez-Colon. Of the capital improvement needs in 
all territories.
    Mr. Pula. Oh, in all the territories? As I mentioned, the 
list that we have just received from the four governors--not 
including Puerto Rico, of course, because it is not under our 
auspices--is over $1 billion.
    I recall, over 20 years ago, the Army Corps of Engineers 
did an assessment of infrastructure needs of the territories at 
the time, and it was around, over $600 million. So, just to 
answer your question, now it is up.
    Miss Gonzalez-Colon. Can you provide a list of those 
requirements from the governors to this Committee?
    Mr. Pula. We can.
    Miss Gonzalez-Colon. In your statement, you say that the 
capital improvement projects program has two goals. One, assist 
the territorial governments with the infrastructure funding, 
and to encourage improved financial management by territorial 
governments. Are there any aspects of the program that need 
improvement?
    Mr. Pula. With the notion that we--in 2005 we began to have 
categories because, as I mentioned, we only have $27.7, or 
approximately $28 million of mandatory funding for the CIPs. 
So, historically, because CNMI and American Samoa are the 
smaller communities and Guam and the U.S. Virgin Islands have 
better economic activities and are much larger, we provided 
about $9 or $10 million for American Samoa and CNMI, and the 
rest divided between Guam and the U.S. Virgin Islands.
    Now, when we developed the categories to assist them, 
within the baseline that we usually set every 5 years a 
territory could improve their financial management, in terms of 
getting their single audits clean, providing in time, so that 
the other Federal agencies will also benefit, especially that 
they don't get a high risk, and then the improvements of their 
financial systems. Those are the two categories we looked at, 
and we kind of score. So, a territory can go between $2 million 
up or $2 million down, based on these categories, as we do the 
scoring.
    Miss Gonzalez-Colon. So, besides money, you don't need 
anything from this Committee?
    Mr. Pula. Oh. Well, as the Chairman Emeritus said, I think 
everybody here needs money.
    Miss Gonzalez-Colon. Yes, but besides that.
    [Laughter.]
    Mr. Pula. Well, along with--I think, as one of my 
colleagues here on the panel mentioned, it is not just the 
infrastructure. The economic bases of Indian Country, as well 
as the territories, thrives on this infrastructure in many 
ways.
    For example, when the incentives have been taken away, for 
example, the tax incentives like section 936, and these kind of 
things, therefore the territories miss those opportunities to 
kind of have their activities. In the CNMI--well, actually, in 
the Virgin Islands, with the rum fund that they receive, with 
that economic activity in that island, that really helps them. 
And when the other territories don't have as much of economic 
activity, it doesn't really help them.
    So my point about the infrastructure, because it really 
helps companies' economic activity to move, and the tax base 
start to increase, so that they can help themselves in having 
funds to build these things.
    Miss Gonzalez-Colon. If you have any direct recommendation 
of those possible amendments, I would be more than glad to have 
them here.
    Mr. Pula. Thank you. We would be happy to do that.
    Miss Gonzalez-Colon. And one last question.
    Mr. Pula. Sure.
    Miss Gonzalez-Colon. I am just curious. You mentioned the 
restoration of Fort Christian on St. Thomas, the fort that has 
been designated a national historic landmark in 1977, and that 
received Federal money to their restoration. I am just 
wondering. We have La Fortaleza in San Juan, Puerto Rico, which 
is a 477-year-old building that was also designated as a 
national historic landmark in 1960.
    I am just curious, if La Fortaleza would qualify for 
capital improvements grants as restoration at Fort Christian in 
the U.S. Virgin Islands, can we compete on that?
    Mr. Pula. Puerto Rico is under----
    Miss Gonzalez-Colon. I know that part.
    Mr. Pula [continuing]. The White House----
    Miss Gonzalez-Colon. I know, but both parks are national 
historic landmarks.
    Mr. Pula. Yes.
    Miss Gonzalez-Colon. So that is the question here.
    Mr. Pula. Well, the only problem there--well, for Puerto 
Rico--is because the mandatory funding that the Department of 
the Interior has is just for the four territories.
    Mr. LaMalfa. I will have to ask you to----
    Miss Gonzalez-Colon. Thank you. I yield back.
    Mr. LaMalfa. We can do a second round of questions here in 
a little bit, if Members wish.
    I would like to recognize Mr. Sablan now for 5 minutes.
    Mr. Sablan. Yes. Thank you very much, Mr. Chairman. Before 
I start, I would like to submit additional questions for Mr. 
Pula, because I do have a lot of questions. I appreciate it.
    And thank you. Your timing for this hearing is actually 
perfect. The President promised a $1 trillion infrastructure 
program in his address to Congress last week. Now our job is to 
make sure that the U.S. Insular Areas and Indian Country, the 
tribal communities, participate fully in the President's plans.
    Insular and tribal people are among the Nation's poorest. 
And the key to raising standards of living and developing our 
economies is first-rate infrastructure. Today's hearing can 
establish a strong record for what our infrastructure needs are 
so that, when the President's proposal is legislated, this 
Subcommittee will be able to advocate for the islands and the 
tribes.
    For that reason I would like to request, Mr. Chairman, that 
the record remain open until my governor, Ralph Torres, has had 
sufficient time to submit his testimony. Notice for this 
hearing was short. The governor wants his response to be 
substantive and to reflect the real complexities of the 
infrastructure needs, so he was not able to provide his views 
to us today, but he promised that he would do it as soon as 
possible.
    Mr. LaMalfa. [No response.]
    Mr. Sablan. Yes, I need a ``without objection.''
    Mr. LaMalfa. Yes, I understand. So, pursuant to Committee 
Rules, you are allowed up to 10 days for----
    Mr. Sablan. We will try and get it in in 10 days.
    Mr. LaMalfa. OK, thank you.
    Mr. Sablan. Thank you very much, Mr. Chairman. The $27.72 
million CIP program that Mr. Pula spoke of originated in the 
covenant agreement that brought the Northern Mariana Islands 
and the United States into political union. The funds were 
meant to help the Marianas ``achieve a progressively higher 
standard of living, and to develop the economic resources 
needed to meet the financial responsibilities of local self-
government.'' And the money has been instrumental to that 
economic growth of our islands, and we are very grateful to the 
American taxpayers for that.
    However, over time the money was diverted so that now, in 
Fiscal Year 2016, the Marianas receive only $9 million, less 
than one-third of what we agreed to in the covenant, less than 
one-third of what was promised to the Northern Marianas. The 
diversion occurred before the Northern Marianas was represented 
in Congress. Now I think it is time to re-evaluate where that 
money is going and for Congress to have a role in deciding.
    So, Nik, Mr. Pula, the criteria OIA uses to divide up the 
Marianas covenant funds all have to do with financial 
management and grant reporting. And I appreciate very much the 
importance of fiscal responsibility. But, according to EPA, the 
main island in the Marianas, Saipan, is the only U.S. 
municipality without 24-hour running water available to 
residents. To me, that is a serious public health concern.
    Don't you think--with a yes-or-no answer--that it is time 
for us to develop new criteria so that public health and safety 
needs are prioritized, or at least considered when funds are 
distributed?
    Mr. Pula. [No response.]
    Mr. Sablan. Please. I don't have too much time, Nik. Yes or 
no?
    Mr. Pula. As I mentioned, every 5 years we do that. But 
based on your question, the Office of Insular Affairs will take 
that into consideration.
    Mr. Sablan. I appreciate that. That is a yes? OK.
    Mr. Pula. Not really, but----
    Mr. Sablan. How about the amount of money, Mr. Pula? The 
$27.72 million Marianas covenant grant was set up in 1978, 
nearly 40 years ago. Do you think this annual money is adequate 
to address the infrastructure needs of today?
    Mr. Pula. Well, as I mentioned before, Congressman, the 
needs are a lot more than the money that----
    Mr. Sablan. So that is a no. Thank you. What would that 
$27.72 million be today, if we adjusted for inflation?
    Mr. Pula. If we adjusted for inflation, that would be 
approximately around $42 million.
    Mr. Sablan. Thank you. And again, Mr. Pula, every 
Thanksgiving I write to each Member of Congress, thanking them 
and the American people for their generosity to the Northern 
Marianas.
    Electricity in the Insular Areas costs about three times 
the national average. And I am going to a set of questions, but 
I want to say this one thing to our Native Indian tribes and 
Native Americans. In another committee I served on, we had a 
hearing on Bureau of Indian Education schools, and I will tell 
you this much--I was appalled at the conditions that students 
in BIA schools were, the conditions their schools were. It was 
embarrassing. Schools where snow goes to 8 feet, and the 
heaters do not work. You have schools with not enough desks for 
students. It is appalling, at the very least. And I am with 
you. I am with you, sir.
    Do we have second round? OK, I will yield for now. Can I 
take my second round right now?
    [Laughter.]
    Mr. Sablan. I am in the groove.
    Mr. LaMalfa. You are on a roll, but we will come back to 
you.
    Mr. Sablan. All right. No, no, thank you.
    Mr. LaMalfa. Thank you. I appreciate that, Mr. Sablan.
    Mr. Sablan. Thank you.
    Mr. LaMalfa. It is my honor, as the new Chairman of this 
Subcommittee, to recognize our Chairman of the entire Natural 
Resources Committee, Mr. Bishop, for 5 minutes.
    Mr. Bishop. Thank you. And you will notice he did not make 
me go first. There is protocol, right? Inside joke, I am sorry.
    Let me ask--let me see how many of these things I can get, 
a whole bunch of questions. As we now go forward from this 
hearing in trying to come up with priorities that we are going 
to submit to the overall approach to things, let me ask a 
couple of questions.
    Let me start with Ms. Kitcheyan, if I can, first. As we are 
looking at these priorities, would you give equal weight or 
preference either to replacing facilities or maintenance and 
repair of facilities? If we have to prioritize, where do we go 
with that?
    Ms. Kitcheyan. If we had to prioritize, I think we could do 
more with maintaining what we have at this point.
    Mr. Bishop. Maintenance would take precedence.
    Ms. Kitcheyan. Maintenance. Not with IT, though. IT, we 
need a complete new infrastructure for IT and telehealth. But 
in other terms of infrastructure, we need to maintain what we 
have.
    Mr. Bishop. All right.
    Ms. Kitcheyan. If that is----
    Mr. Bishop. I appreciate that. I realize that there is a 
priority list with I think 13 projects that have been 
grandfathered. It is based on--it has been there for decades on 
data that was decades old, as well.
    Maybe, Mr. Joseph, if I could ask you. At one time, it 
seems to me that Congress has provided at least one creative 
idea to approach construction. But IHS has never implemented 
it. From the outside looking in, it seems like there is a 
culture that they don't really want to be interested in new, 
creative approaches.
    So, beyond funding, should priorities be tailored to each 
of the different regions to update the requests of tribes in 
those different regions?
    Mr. Joseph. Well, using my tribe as an example, I have been 
on my Council for 14 years. When I first came on Council, I 
wanted to have a hospital built to replace the old building 
that used to be a hospital, was built by the Department of War 
back in the 1920s. When they put us on a historical site, then 
we kind of got knocked off that priority list. So, it is almost 
100 years of waiting.
    Our tribe built our own clinic in that area with our 
dollars, and we never got any kind of staffing change from back 
in those years when IHS first became the provider.
    Mr. Bishop. So the historic site was one of the problems 
you had faced, then.
    As you look at the 13 remaining projects, do you think they 
really represent the greatest need?
    Mr. Joseph. I would say they do. An area facility 
distribution plan would give every area a pot of money so that 
we could work on the list. Right now, the Portland area, at the 
rate that IHS's facilities are funded, would never see a 
facility in over 30 years. And you know, that causes a really 
big problem.
    Mr. Bishop. All right. I am going to come back to you on 
some creative ways we can leverage construction funds. But let 
me ask a couple other questions.
    First of all, I want to follow up on what Miss Gonzalez was 
talking about to Mr. Secretary. That fort, San whatever-it-is 
in the Virgin Islands?
    Mr. Pula. In St. Thomas, yes.
    Mr. Bishop. Why are we using CIP funds to do that? That is 
a Park Service project. Why isn't the Park Service paying for 
it?
    I mean, to me, CIP is not for restoration of Park Service 
property. That is Park Service property. Why isn't the Park 
Service funding that restoration?
    Mr. Pula. Mr. Chairman, I think it is not a Park Service 
project. It was a request from the Government of the Virgin 
Islands----
    Mr. Bishop. Is----
    Mr. Pula [continuing]. To use their CIP----
    Mr. Bishop. The fort is not federally owned?
    Mr. Pula. I don't----
    Mr. Bishop. And not part of the Park Service? It is part of 
the Park Service? It is not part of the Park Service.
    Mr. Pula. It is not--the one in St. Thomas is not part of 
the Park Service.
    Mr. Bishop. Who owns it?
    Mr. Pula. The local Government of Virgin Islands.
    Mr. Bishop. All right. Then that is a different question, 
then, again.
    Look, I will do this very quickly. Mr. Honanie, are there 
other barriers to infrastructure development? Specifically, 
does NEPA pose a problem? Is it an asset to getting those 
development projects going forward, or are there problems with 
it in this old law that has never been updated in my lifetime?
    Mr. Honanie. Could you repeat? I didn't quite catch 
everything, I am sorry.
    Mr. Bishop. Actually, I have 18 seconds. I will come back 
to you in the next round. But I am asking specifically about 
how NEPA--does that process provide an asset to you in getting 
this development, or is it a hindrance. I will let you think 
about that, because I don't have enough time to do it in this 
round. I will yield back.
    Mr. LaMalfa. All right. Thank you, Mr. Chairman. That 
concludes our first round of questions for our panel. I am 
going to go ahead and recognize you, Mr. Chairman, for the 
first question of the second round.
    Mr. Bishop. All right. Mr. Honanie, how does NEPA help you? 
Is NEPA a help or a hindrance?
    Mr. Honanie. I think, with regard to rules and regulations, 
things of that sort, when it comes to health issues and so 
forth, they are both a hindrance and a help. Hindrance, in 
terms that it is very demanding, these are very stressful 
violations that are being imposed upon us; in terms of fines, 
for example, with regard to our arsenic, that is a hindrance. 
It forces us to move, it forces us to act.
    As far as helping us, it is a way to be able to bring this 
type of situation to the attention of the Federal Government--
for example, to this Committee--in hopes of garnering support, 
in hopes of being able to raise and bring the capital to the 
reservation, so that we can resolve such a pressing issue at 
this time, as well as other matters that may be facing us.
    So, it just depends on the situation, the timing, and how 
long we may have had a situation before us that we have been 
trying to resolve so many challenges on the reservation.
    Mr. Bishop. All right. I thank you with that.
    Mr. Joseph, are there any ideas or ways that the tribes can 
leverage these construction funds?
    Mr. Joseph. There is the joint venture project. There are 
38 of them that were applied last go-around. Our tribe applied 
for them, and the price of construction will go up every year. 
The joint venture is where the tribes build the facility and 
then the government staffs them.
    And, using new market tax credits and working with that, 
and also utilizing our third-party billing that we are able to 
generate some of those dollars could also help in funding the 
projects.
    Mr. Bishop. That would be helpful. Are there other things 
that the Colville Tribes or tribes in the Northwest have done 
that are creative to address shortages of construction funding?
    Mr. Joseph. Well, the joint ventures is one where the 
tribes would invest their dollars. And looking at how tribes 
could bill third party, it would generate a lot of added 
funding with the new market tax credits. The area facility 
distribution that I talked about would be another way where 
every area, their tribes would get a pot of that funding.
    We are looking at the dental aid therapy program and 
generating more funding and providing dental services to our 
area. Our state finally authorized us to do dental aid therapy. 
And, to me, that will really help a lot.
    Mr. Bishop. All right. I appreciate that. I appreciate the 
panel being here. Thank you for allowing me to go this time. 
Mr. Chairman, I will yield back.
    Mr. LaMalfa. I will now recognize Ms. Bordallo for a second 
round of questions.
    Ms. Bordallo. Thank you, Mr. Chairman. And I am very happy 
that we are recognizing protocol.
    [Laughter.]
    Ms. Bordallo. I want to start out by saying, although I and 
Mr. Sablan here are representing the territories, I do support 
the needs of all our witnesses today. And I understand your 
shortcomings in your areas and the needs you have.
    As I stated previously, I hope that we do move forward with 
more investments in our infrastructure, and that the 
territories will be fully included in these plans, Mr. Pula. 
Specifically, I hope that any infrastructure bill would also 
include funding to address access to broadband, and for 
expanding the IT and telecommunications economies in the 
territories, which bring enormous socio-economic potential to 
our islands. And this is critical to Guam, especially since I 
believe that we should leverage our position in the Asia-
Pacific region to be the hub between the United States and 
Asian countries.
    Mr. Pula, has OIA given serious consideration to funding 
broadband infrastructure needs in the territories? For 
example--and I am sure you are well aware of this--several 
years ago, the CNMI was cut off from the internet, which 
severely and negatively impacted their economy. A potential 
redundant system is in the works, and that type of project 
should seem appropriate to be funded out of CIP funds.
    So, my question. Will you give serious consideration to 
funding broadband infrastructure needs to the territories?
    Mr. Pula. Thank you, Congresswoman, for the question. I 
would like you to know that the CIP funding that the Office of 
Insular Affairs has, we have funded laying of cables and that 
kind of thing in the past--again, based on the request from the 
governors. If that is their priority, then it is something that 
is allowable, or has been done through the CIP funding.
    Ms. Bordallo. So sometimes request and funding do not 
always----
    Mr. Pula. You got it right.
    Ms. Bordallo. So you will do everything you can.
    Mr. Pula. Yes, ma'am.
    Ms. Bordallo. Thank you. And I yield back, Mr. Chairman.
    Miss Gonzalez-Colon [presiding]. Thank you, Ms. Bordallo. 
At this time we recognize the lady from American Samoa, Mrs. 
Radewagen.
    Mrs. Radewagen. I want to thank you, Chairman Gonzalez, for 
holding this hearing today. And I want to thank the panel for 
being here, especially Acting Assistant Secretary Pula, who has 
worked closely with my office in the past, to ensure that our 
island infrastructure needs are being met.
    I also want to humbly thank Chairman Bishop for the recent 
congressional delegation to the territories, where Members and 
staff were able to witness firsthand some of the unique 
challenges our islands face in maintaining our infrastructure. 
American Samoa, in particular, is engaged in a never-ending 
fight to make sure that our islands are on equal footing as the 
states and other territories.
    A primary example is the LBJ Tropical Medical Center in 
American Samoa, which remains under-equipped and under-staffed, 
forcing many of our island's residents, especially our 
veterans, to seek off-island care. That said, the CIP program 
does help alleviate some of our funding issues, going not only 
toward healthcare projects, but also education, transportation, 
and other infrastructure projects. And I would love to see the 
grant program not only continue, but possibly be expanded.
    I am also looking forward to a continuation of the well-
executed oversight practices regarding the program. And I am 
thankful to have colleagues on this Committee, the Department 
of the Interior, and the local American Samoa government work 
closely with me and each other to ensure that the CIP grants 
are utilized to their fullest.
    I have a couple of questions for you, Assistant Secretary 
Pula. Since being designated as high risk by OIA, as 
recommended by the General Accounting Office and the Office of 
Inspector General, how has the American Samoa government 
managed to improve accountability for Federal funds? And can 
you tell me whether the American Samoa government has completed 
any of the requirements necessary for compliance in order to 
remove the high risk designation by OIA?
    Mr. Pula. Thank you for the question, Congresswoman. There 
are a variety of, I guess, high risk. I think the U.S. 
Department of Education has designated the American Samoa 
government with the education as high risk.
    But your particular question regarding the Office of 
Insular Affairs, I have to say a lot of the categories, or the 
things that needed to be done, have been done by the American 
Samoa government, so there has been improvement there. But 
there are still some final things that needed to be done, and 
we have to kind of circle back and work with the government so 
that we can lift the high risk. At this point we have not 
completed everything.
    Mrs. Radewagen. Thank you. And would you care to comment on 
what can be done to ensure that American Samoa continues to 
receive increased CIP funding in the future?
    Mr. Pula. Well, as you have heard, the allocation of the 
CIP funding is made on the basis of competitive criteria, and 
measured a demonstrated ability of the government to exercise 
prudent financial management practices, as well as the Federal 
grants requirements.
    The best things for American Samoa that can maximize on the 
share of the CIP--because this is mandatory funding, so we will 
continue the program--is to have clean audits, and submitted on 
time, as well as timely executions of the conditions of the 
grants, the terms of the grants.
    Mrs. Radewagen. Thank you, Mr. Chairman. I yield back.
    Mr. LaMalfa [presiding]. Thank you, Mrs. Radewagen. 
Continuing our first round of questions, I recognize Mr. Soto 
for 5 minutes.
    Mr. Soto. Thank you, Mr. Chairman. I have the honor of 
representing Florida up here. And we are home to several major 
tribes, including the Seminole Tribe, Miccosukee, and others, 
so we deeply care about these issues. And I just wanted to get 
a sort of overall view from all the panelists about how should 
we in Congress decide how and where to fund infrastructure 
development in Indian Country.
    I realize there is a 1992 high-priority list, but it would 
be great to know if there is a more updated list, and if there 
is consensus among high-priority infrastructure projects among 
our various prominent tribes here in the United States.
    And it is for the entire panel. We could start from left to 
right. How does that sound?
    Mr. Honanie. I think one way to address such questions and 
points is--I wholeheartedly believe that committees such as 
yourself really consider the idea of coming to the respective 
reservations and literally seeing who we are, what we have, and 
what we are facing, the challenges as far as bringing in 
infrastructure.
    Again, I relate to the point that, as far as Hopi is 
concerned, we are landlocked, surrounded by Navajo, and it is a 
challenge to bring in any kind of infrastructure onto 
reservation, because we have to pass through Navajo. It is not 
an easy task. We have to go practically to court to be able to 
try this concept of access by necessity.
    These are the kind of challenges. And many of the 
infrastructures that exist currently on the reservation are 
old, they probably do need replacement. While we do replace 
them, it is a continual challenge. And the funding, as far as 
these projects are concerned, are nil, as far as the tribal 
reserves are concerned. We are very, very isolated, and so we 
depend on outside funding, we depend on the Federal Government 
to be able to come to our assistance, and so forth.
    But sometimes many of these issues occur naturally, such as 
the arsenic situation here in the water. That is a very serious 
issue. That is an issue that is impacting our health care, our 
health of the people. And I want to remind you that we have 
five schools that are affected, one high school, and scores and 
scores of elderly. And again, young people----
    Mr. Soto. Thank you, Chairman Honanie. I want to make sure 
we get everybody to be able to----
    Mr. Honanie. All right.
    Mr. Soto [continuing]. Speak a little bit on it.
    Chairman Joseph, is there consensus on a list that we could 
draw from? What would your thought be?
    Mr. Joseph. What I would recommend is that you look at the 
current needs that exist. Basic healthcare needs should be 
projects that should be, I would say, funded first, so that we 
are able to at least get basic healthcare needs. I would rather 
have my people getting the basic healthcare needs taken care 
of, so that we are not being admitted to the hospital later on 
when it becomes a chronic issue, where we are in emergency 
care, and it costs the government a whole lot more.
    So, if we had the basic medical needs, and had the adequate 
amount of providers to provide services to our people, we would 
be able to keep us out of the hospitals. And to me, that is 
more important. It would save more lives, it would be more 
preventative-type medicine, but----
    Mr. Soto. Thank you. Thank you, Chairman Joseph.
    Representative Kitcheyan, what would you say about 
consensus and priority?
    Ms. Kitcheyan. From the National Indian Health Board's 
perspective, the main priority would be meaningful consultation 
with the over 500 federally-recognized tribes, and to have 
current data to drive and facilitate that conversation.
    Mr. Soto. And Secretary Payment?
    Mr. Payment. OK. So this report, we have taken a stab at it 
through the National Congress of American Indians, and it is 
ongoing. I would say be careful not to throw the baby out with 
the bath, because the existing priority lists were built on 
criteria based on consultation. So, the only problem is that 
they are underfunded, and so there is a backlog.
    But I would also say to look--be creative, to create match 
incentives for states. We would like at least $20 billion of 
that $1 trillion that might be coming. But I would also say 
look creatively to seed financing, because you are not going to 
fund everything. And if you can create a way to provide seed 
financing, so that tribes can go out in a self-determined way 
to be able to help fulfill their needs, I think that would be 
something that would be different than what we have done in the 
past.
    Mr. Soto. Thank you. President Teuber?
    Mr. Teuber. Thank you for your question. I think, with 
respect to health care, which is much of the area that I have 
covered, consensus is difficult to achieve in a local 
community, much more so across the United States with 500-plus 
tribes. But the area distribution fund that was referred to 
earlier is an opportunity for us to ensure that there is some 
level of equitable distribution of funds for those priorities 
that exist within each of the regions, or each of the areas.
    Also, the sanitation deficiency list that has been created 
for sanitation projects, I would refer to that, but I would 
allow tribes to continue to update that as a process for 
distribution of resources.
    Mr. Soto. Mr. Chairman, at your discretion, would it be OK 
for the Secretary to comment?
    Mr. LaMalfa. Second round, OK? I have to maintain some type 
of discipline here a little bit, right? Thank you.
    All right. Recognizing myself on a second round here, I 
will back up with Ms. Kitcheyan. Well, first, let me go to Mr. 
Joseph.
    Again, we are talking about, Chairman Joseph, a 30-year-old 
list that maybe does not necessarily match the needs of today's 
needs. Should IHS be more active in ensuring that the list is 
more up to date, especially for you in the Oregon-Portland 
area?
    Mr. Joseph. I also serve on the National Facilities 
Advisory Committee that IHS has, and there we are looking at 
working on doing that. About 17 years ago, they worked on a 
master plan for each of the tribes in the United States. So, 
they have a master plan that showed the needs that would be 
good for up to 15 years.
    To me, I think that if the work group was to work on 
looking at that, that is where the area facility distribution 
plan came out of that work group, and it also came up with a 
fair way to score tribes on facility needs. Before that, there 
were tribes that had 20-year-old projects that were getting 
brand-new facilities built by earmarks. That is why they 
established that work group, to do that type of work.
    Mr. LaMalfa. OK, thank you. Updating is needed.
    Let me come back to, again, Ms. Kitcheyan--when we were 
talking about the need for update and more current technology, 
let's come back to that information system once again we talked 
about. As you mentioned, I think also, that there is no 
updating what you have. You need a new system. Tell us about 
that a little bit, on what that might take. What will it be, 
cost-wise? What will implementing it look like? How far and 
wide, if you can.
    Ms. Kitcheyan. It would be $3.5 billion to entirely 
overhaul the whole system, and it would take time to implement 
that update across Indian Country, and right now, some of the 
tribal facilities have gone outside and sought private-sector 
products. We have huge bargaining power in Indian Country, and 
if we leverage our resources and our bargaining power, we can 
really come up with something that would serve all of Indian 
Country and be of a consistent system that is manageable and 
would operate in this 21st century healthcare environment.
    Mr. LaMalfa. All right, thank you.
    Chairman Honanie, coming back to your situation there, when 
I asked you earlier about your ability to, your main economic 
core with coal, and the transportation issues you have with 
that, that is primarily a railroad problem, again, that you 
need infrastructure upgrades on? Or develop that a little more, 
please.
    Mr. Honanie. Well, the ideal would be to construct a 
railroad line to be able to transport the coal once we identify 
buyers or a market for it. But again, let me bring up the point 
that we would have to work with Navajo to cross their 
reservation onto Hopi. And we are already hearing a little bit 
of grumbling as that goes. So, this is really going to be a 
challenge. And if we can be able to sit down and negotiate with 
them, fine and great. That rail line would certainly add to our 
ability to create that economic viability, as far as coal is 
concerned.
    Mr. LaMalfa. Are they interested in being a partner on that 
at all, or is it strictly a right-of-way that you are seeking?
    Mr. Honanie. It would be a right-of-way, and we would need 
to just market, so that we do achieve the goal of establishing 
this railroad.
    Mr. LaMalfa. OK. A couple of times in the testimony the 
arsenic issue has come up here. I don't think I heard you 
recognize what is the source of the arsenic problem in the 
water?
    Mr. Honanie. We have been told that it is a naturally 
occurring phenomenon. Because of the groundwater tables, the 
amount of water that has been pumped, but Mother Nature, in its 
own way, presents arsenic into the water as time goes. So----
    Mr. LaMalfa. Let me follow up on that, then, because, 
indeed, they changed the arsenic action level a few years ago, 
federally. The number was a little higher, what was allowable. 
Then that number was----
    Mr. Honanie. Right.
    Mr. LaMalfa [continuing]. Lowered. Was it OK at the higher 
number, or was it outside of it at either action level?
    Mr. Honanie. Yes, you could say that because the higher 
number allowed us to be able to move forward and to plan, and 
so forth. But now that it has been lowered, it really presents 
a challenge, it really presents this pressing situation that we 
have to deal with to essentially try to resolve this arsenic 
issue as soon as possible.
    The EPA is certainly keeping a watchful eye on us and, in 
fact, threatening with daily fines upon a certain point that we 
reach and do not resolve this matter. So it----
    Mr. LaMalfa. Were you in compliance at the old number but 
not the new number? Do I have that correct?
    Mr. Honanie. The lower numbers are what we are trying to 
achieve and work with.
    Mr. LaMalfa. OK, thank you. I will yield to Mr. Sablan, 
waiting patiently for that second round.
    Mr. Sablan. Thank you, again, Mr. Chairman.
    Mr. Pula, I meant to mention earlier--I wanted to let you 
know and thank you, that your field representative in the 
Northern Marianas, the retired Colonel Blanco is free again to 
come and visit the congressional office, and to discuss issues 
of mutual benefits to the constituencies of OIA and the 
congressional office. Apparently, before you, he was put on a 
leash. But he is again free, and I want to thank you for that.
    Electricity in the Insular Areas costs about three times 
the national average. And in 2014, in Public Law 113-235, 
Congress directed the Interior Department to establish teams of 
technical policy and financial experts to develop energy action 
plans for the Insular Areas. The plans were to include 
recommendations on how to lower the cost of electricity. Can 
you please give me a short update on the status of these plans 
required by law?
    Mr. Pula. Thank you, yes. The office and, of course, the 
NREL folks have joined together and helped each of the 
territories come up with their action plans, and--so that has 
been going forward. And already we have utilized some of the 
funding for energy projects to be used in the territories 
already. So, I just wanted to give you that update.
    Mr. Sablan. Well, thank you. And one of the witnesses 
mentioned earmarks. The last time I read the United States 
Constitution it says that Congress has the power to control the 
purse. And yet, here we are discussing--Ms. Bordallo brought up 
the issue of who decides which capital improvement project gets 
funded, and it is based on recommendations by the governors. 
Now, it should be appropriate that it is Congress that decides 
that, I think.
    And, Mr. Pula, in the past--and I was one of the special 
representatives--we negotiated with the special representative 
of the President a 7-year capital improvement project plan. And 
we came to an agreement of $128 million for 7 years. But with 
the full faith and credit of the United States, we were able to 
raise $144 million. The timing was just right for the markets. 
And that investment was--we were able to do projects up front, 
front-loaded.
    And actually, that investment up to today, the Commonwealth 
Development Authority, who managed some of the funds, are 
receiving benefits, are receiving the payments for projects 
that are revenue-generating projects that--and that is a good 
way. If we could, again, explore a possibility of doing it that 
way, it probably will be beneficial.
    But I want to go back to one more thing. I mention this 
because the Bureau of Indian Education schools--your office, 
Mr. Pula, and the Army Corps of Engineers assessed every public 
school building in the Insular Areas in 2013. I was actually 
joining them in one of the schools on Saipan. And they were 
looking for immediate hazards to student safety: the potential 
for falling concrete, electrocution, and fire system problems. 
They identified a priority need for $16.7 million to provide a 
safe environment for students, and a total of $177 million 
overall for deferred maintenance to schools.
    Now, your office, the Office of Insular Affairs, is 
providing $1 million annually for each Insular Area. At this 
rate, could you tell us how long it will take to make all the 
necessary repairs at all island schools? And this is for the 
Virgin Islands, the Northern Marianas, Guam, and American 
Samoa. How long, at $1 million a year?
    Mr. Pula. Seven hundred years--I am just kidding, sir. I 
will have to look at that and come back and provide it to the 
Committee.
    Mr. Sablan. Yes. Mr. Pula, I want to thank you, sir, for 
the many years of service you have provided the Northern 
Marianas and, of course, the Insular Areas in your position as 
Director of OIA. We do not always see eye to eye, but your 
service, sir, has not gone unnoticed, as well.
    We turn to you for so many things, and we appreciate your--
please know that I, for one, appreciate your service, and I 
want to thank you.
    And, Mr. Chairman, I yield back.
    Mr. LaMalfa. Thank you----
    Mr. Pula. Thank you, Congressman. Just to respond to your 
question about the $1 million a year, based on the program that 
we participated with the Army Corps, it will take about 44 
years, based on this.
    Mr. Sablan. If you give us the $44 million at one time----
    Mr. Pula. That would be nice, if we had that.
    Mr. Sablan. But that is for all the territories, not just 
for us.
    Mr. Pula. OK, thank you.
    Mr. LaMalfa. Thank you again. Our Vice Chair has no further 
questions? OK.
    Then Mr. Soto, bring it home, if you have any more.
    Mr. Soto. Very briefly, Mr. Chairman, and thank you for 
your indulgence.
    I would strongly encourage you all to update the list, and 
consensus is the key word. It is already going to be 
precarious, whether or not we have a large infrastructure bill 
or not. I believe that consensus gives you all the best shot to 
really have a chance to get the kind of funding that you are 
requesting. And, obviously, you all made the case today that 
the need is there.
    I just wanted to ask one question. Are there any legal 
changes that we would need to make to allow you all to combine 
your buying power for infrastructure needs such as health care, 
roads, sewers, et cetera? Or does that legal authority already 
exist? That is to anybody who feels like they can respond to 
it.
    Mr. Joseph. I would recommend that the Congress ask that 
the IHS Director, I guess, enact what has been asked for in the 
Indian Health Care Improvement Act to authorize them to move 
forward with the area facility distribution plan, and also to 
have the existing tribes that are on the joint venture list, to 
have that revolve until that list is complete, because that 
would allow tribes to move forward with building their 
facilities that are ready. They are shovel-ready, a lot of 
them.
    And, to me, they would be able to move forward if they--out 
of the 38, only 7 were authorized to move forward. So, the rest 
of them are just waiting; and the longer we wait, the more it 
is going to cost. Thank you.
    Mr. Soto. Anybody else? Any legal changes we need to make 
to allow you all to harness united buying power?
    Ms. Kitcheyan. I would encourage the Committee to empower, 
and the congressional people to empower our agency, the IHS. 
They have the relationships with the tribes, the direct 
service, and self-governance tribes, and it makes sense that we 
empower IHS to make some of these moves and negotiations on 
behalf of the patients that they serve.
    Mr. Payment. I would say tax-exempt bond financing, 
qualifying tribes to participate in that; providing seed 
funding through the agencies, so that they can work with tribes 
to identify the joint needs; and just to reinforce RPMS. That 
is something that we are obligated, through the system, to 
utilize. Right now, with electronic records, it causes crashes, 
it is antiquated.
    But that is an example of a joint effort and joint buying 
power that, if we had some incentive to be able to finance 
through that, we could help participate in finding the solution 
for that by participating with other tribes.
    Mr. Honanie. I would also like to respond that the Indian 
Health Care Improvement Act is in existence, and I would like 
to think that it will move forward. But I think even the 
question and some of the issues being raised here, that that be 
taken a look at and embellished or be enhanced, so that issues 
like this can be addressed accordingly through a legislation 
appropriately.
    So that is why I would like to say. Thank you.
    Mr. Teuber. We have recently enjoyed some successes, both 
legislatively and judicially, around contract support costs. 
And we would be remiss if we did not mention that, where 
support costs are not associated with direct program dollars, 
those direct program dollars oftentimes are diluted. So, 
ensuring that legislation and--robust legislation around the 
contract support cost appropriations is there is important, but 
also to ensure that our agencies and departments are not 
returning funds to Treasury that could and should be used for 
the purposes that they were appropriated.
    Mr. Soto. I yield back, Mr. Chairman.
    Mr. LaMalfa. All right. Thank you, Mr. Soto.
    With that, we are at the end here. So I, again, wish to 
thank our witnesses for their valuable testimony and your 
travel in order to be part of today's Committee hearing. And 
the Members, for their questions.
    If members of the Committee have additional questions for 
the witnesses, we would ask for you to respond to these in 
writing. Under Committee Rule 3(o), members of the Committee 
must submit witness questions within 3 business days following 
the hearing, and the hearing record will be held open for 10 
business days for these responses.
    So, if there is no further business, without objection, our 
Committee stands adjourned.
    [Whereupon, at 12:04 p.m., the Subcommittee was adjourned.]

            [ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD]

  Prepared Statement of Ralph Deleon Guerrero Torres, Governor of the 
              Commonwealth of the Northern Mariana Islands
    Mr. Chairman and members of the Subcommittee on Indian, Insular, 
and Alaskan Native Affairs, thank you for allowing me to submit 
testimony for the record on the infrastructure needs and priorities of 
the Commonwealth of the Northern Mariana Islands (CNMI).
    As the Subcommittee of Jurisdiction on the affairs of the Insular 
Areas, you are well aware of the challenges of creating and sustaining 
a viable economy in our islands due to geographical isolation and 
limited economic resources.
    Despite these challenges, the Insular Areas, like the CNMI continue 
to pursue measures to build an economy that can provide for increased 
standards of living for our people. At the forefront of these efforts 
continues to be the development and the improvement of our 
infrastructure.
    The CNMI has benefited greatly from the work of the U.S. Department 
of the Interior's Office of Insular Affairs and the funding provided 
under the Capital Infrastructure Project (CIP) Program. Most recently, 
the CNMI has completed the transformation of the former Puerto Rico 
dump site into a community park that has added a benefit to the CNMI 
residents and an added attraction to our growing tourism industry. This 
project, along with the $4.9 million allocated to replace the HVAC 
equipment of the Commonwealth Health Care Corporation's hospital on 
Saipan and the Garapan Water Quality Restoration Project, are notable 
examples of CIP projects that have greatly contributed to building an 
infrastructure that can support and sustain a growing population and 
economy.
    In December 2016, I received a message from the National Governor's 
Association (NGA), who at the behest of then President-Elect Donald 
Trump's Transition Team requested a listing of the top infrastructure 
priorities for each of the states and territories for consideration 
into a national infrastructure investment plan.
    Following receipt of that request, I took an earnest look into the 
immediate needs of the CNMI people and the economy to delineate the 
most urgent infrastructure demands of our community. The list I 
provided to the NGA and the Transition Team included five major 
infrastructure development projects that would allow for economic 
growth and enhanced public well-being and the resulting list was as 
follows:

  1.  Saipan Waterline Modernization Project

  2.  Saipan Wastewater Facility Modernization Project

  3.  Power plant Rehabilitation and Modernization Project

  4.  Saipan International Airport expansion and improvement Project

  5.  Marpi Landfill Completion Project

    The priorities were assembled through conversations with the CNMI 
Capital Improvement Program Office, the Commonwealth Utilities 
Corporation, various departments within the CNMI central government and 
the Commonwealth Ports Authority. Each of these projects is essentially 
the redevelopment of existing components of the CNMI infrastructure 
network, which following decades of use, demand large-scale 
rehabilitation or expansion to keep pace with a growing island 
community.
    I am thankful that the President's Transition Team offered the 
Territories and Commonwealths of the United States the to opportunity 
provide input into this important conversation about the state of our 
Nation's infrastructure. Despite much appreciated Federal assistance 
throughout the history of the Northern Mariana Islands' relationship 
with the U.S. Government, we are still a developing economy that 
requires larger capital investments into our vital, yet aged public 
infrastructure.
    In addition to the development priorities provided to the 
President's Transition Team, we have other serious concerns, which I 
believe merits mention. For example, our roads, hospitals, schools and 
the CNMI's healthcare physical facilities are all in need of attention 
and improvement in order to continue to provide basic services and 
improve the quality of life for the citizens and residents living in 
our islands. Likewise, inter-island transportation is also a tremendous 
problem and compounds the issues associated with trying to bring growth 
and economic opportunity to the lesser populated islands in the 
Northern Marianas.
    While we are in the process of developing a comprehensive proposal 
for consideration on the listed priorities, I respectfully request that 
we continue to advance the needs and priorities of the U.S. Insular 
Areas in any future legislation on investments to our Nation's 
infrastructure.
    Geographically isolated populations such as ours are heavily 
dependent on a stable and reliable infrastructure system. The 
unfortunate reality is that the CNMI has only just begun to grow from 
years of deep and persistent economic decline. While in the midst 
severely reduced economic activity, difficult choices were made in the 
allocation of very scarce resources. In this environment, maintenance 
and investment into our islands' infrastructure was deferred, only 
adding to the need for repair and the costs for doing so today.
    However, as Congress may endeavor to move forward with a national 
infrastructure investment package, I firmly believe, for a relatively 
small investment compared to the needs of others, together we can build 
a modern and stable infrastructure network in the CNMI that will usher 
in possibilities for a diverse and stable economy and will allow us to 
make dramatic strides toward improving the quality of life for the many 
American citizens living on our shores.
    I thank you for the time you have provided for this important 
dialogue and for allowing the inclusion of this testimony.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
